<html>
<title> - CURRENT PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 110-364]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-364
 
                       CURRENT PUBLIC LANDS AND 
                          FORESTS LEGISLATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 532                                S. 832

                           S. 2229                               S. 2379

                           S. 2508                               S. 2601

                           H.R. 523                              H.R. 838

                           H.R. 903                              H.R. 1285




                               __________

                           FEBRUARY 27, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                        U.S. GOVERNMENT PRINTING OFFICE

42-158                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Amerine, Gary, Citizens Protecting the Wyoming Range, Daniel, WY.    49
Barrasso, Hon. John, U.S. Senator From Wyoming...................     2
Cantwell, Hon. Maria, U.S. Senator From Washington...............    36
Caviezel, Chris L., Chairman, Board of Fire Commissioners, 
  Snoqualmie Pass Fire & Rescue, Snoqualmie Pass, WA.............    51
Dauenhauer, Mike, Dauenhauer Ranch, Ashland, OR..................    37
Freudenthal, Hon. David D., Governor, State of Wyoming...........     6
Johnson, Luke, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    19
Kerr, Andy, Consultant, Soda Mountain Wilderness Council, 
  Ashland, OR....................................................    29
Moseley, Claire M., Executive Director, Public Lands Advocacy, 
  Petroleum Association of Wyoming, Denver, WY...................    43
Salazar, Hon. Ken, U.S. Senator From Colorado....................     3
Simpson, Melissa, Deputy Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................    13
Smith, Hon. Gordon H., U.S. Senator From Oregon..................     5
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    61

                              Appendix II

Additional material submitted for the record.....................    67


                       CURRENT PUBLIC LANDS AND 
                          FORESTS LEGISLATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:27 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    The purpose of today's hearing is to look at a number of 
land-use bills. They include S. 832, a bill to provide for the 
sale of approximately 25 acres of public land to the Turnabout 
Ranch in Escalante, Utah, at fair market value; S. 2229, a bill 
to withdraw certain Federal land in the Wyoming Range from 
leasing, and provide an opportunity to retire certain leases in 
the Wyoming Range; S. 2508, H.R. 903, a bill to provide for a 
study of options for protecting the open space characteristics 
of certain lands in and adjacent to the Arapaho and Roosevelt 
National Forests, in Colorado; S. 2601 and H.R. 1285, a bill to 
provide for the conveyance of a parcel of National Forest 
System land in Kittitas County, Washington, to facilitate the 
construction of a new fire and rescue station; H.R. 523, a bill 
to require the Secretary of the Interior to convey certain 
public land located wholly or partially within the boundaries 
of the Wells Hydroelectric Project of Public Utility District 
No. 1 of Douglas County, Washington; H.R. 838, a bill to 
provide for the conveyance of the Bureau of Land Management 
parcels know as the White Acre and Gambel Oak Properties, and 
related real property, to Park City, Utah; and S. 2379, the 
Cascade-Siskiyou National Monument Voluntary and Equitable 
Grazing Conflict Resolution Act.
    This is a piece of legislation that Senators Smith and I 
have intended--have introduced to create the Soda Mountain 
Wilderness. It would provide for the exchange of certain 
Monument land, in exchange for private land, and address 
various grazing allotment questions in and near the Monument.
    So, I believe most of these bills are non-controversial, so 
we ought to be able to move through this hearing quickly.
    I've got some remarks about the Cascade-Siskiyou bill, but 
both of my colleagues, I think, are on a tight time schedule, 
so I'm going to recognize Senator Barrasso to make his comments 
initially, and then Senator Salazar will make some comments.
    Governor, we're very pleased you're here. Thank you for 
your patience, and we'll go right to Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Chairman Wyden, for 
holding today's hearing. Specifically, I want to thank you for 
including S. 2229, the Wyoming Range Legacy Act, on today's 
agenda.
    This is a particularly important piece of legislation for 
all of the people of Wyoming. It is the first bill that I 
introduced into the U.S. Senate, and I want to welcome Dave 
Freudenthal, the Governor of the great State of Wyoming, who is 
here.
    I very much appreciate your attendance. You and I both know 
the Wyoming legislature is in session. You flew out here this 
morning, you're here to testify, and have to get back to 
Wyoming tonight. But I know you are so committed to the Wyoming 
Range, and what we're trying to do to preserve it, that I 
appreciate the effort that you're making to be here with us 
today, Governor.
    I'm very pleased that we can work together to enhance and 
ensure that tourism and recreational values in this area will 
be sustained for the future generations of folks in Wyoming.
    I also want to welcome Gary Amerine, who is here. He's an 
outfitter--he's co-founder of the Citizens Protecting the 
Wyoming Range, he's a resident of Daniel, Wyoming, he is a 
great, local advocate of this legislation.
    I am very confident, Mr. Chairman, that he will articulate 
the views of many sportsmen, residents, small business owners, 
and conservationists in the area.
    Gary, I know you'd rather be back in Wyoming, but all of us 
are very glad that you're here with us to share your thoughts 
and ideas today.
    I'd also like to welcome Claire Moseley, who is here. She 
is the Executive Director of Public Lands Advocacy, and she has 
traveled nearly as far to express her concerns about this piece 
of legislation.
    Claire and I first met in Jackson, Wyoming--just north of 
the forest area covered in this legislation. Since that time, 
she and I have discussed the legislation, as well as many 
representatives from the oil and gas industry. I know that her 
comments will offer a thoughtful assessment from those 
advocating for environmentally sensitive gas development in 
this area.
    Finally, I appreciate the Deputy Under Secretary of 
Agriculture, Melissa Simpson, and Deputy Director of the Bureau 
of Land Management, Luke Johnson, for offering their testimony.
    Mr. Chairman, Wyoming has a very proud heritage of 
providing abundant, affordable, and domestic energy across 
America. I support Wyoming's extractive industries, and am 
proud of the environmentally responsible manner in which they 
operate.
    Like my predecessor, Senator Craig Thomas, I also believe 
that some places are just too special to develop. This 
legislation is a monumental step forward. It will ensure the 
continuation of a diversified economy for the area, it will 
enhance tourism, recreation and hunting in the Wyoming Range, 
and it will protect the splendid natural landscapes for future 
generations.
    Today, we're taking an important step forward in setting 
aside more than 1.2 million acres from future oil and gas 
leasing in the Bridger-Teton National Forest, and the areas 
surrounding the mountain range with Wyoming's namesake, the 
Wyoming Range.
    This legislation is supported by a large and diverse group 
of allies. Central to this support is, what I believe to be, a 
strong majority of Wyoming residents. This proposal has been 
developed from the ground up, and is not a bureaucratic mandate 
from Washington. If this legislation is successful, it will be 
to the credit of courageous leaders, like Senator Thomas. 
Credit is also due to the local voices of thousands of Wyoming 
residents.
    Too often, legislation crafted in Washington loses sight of 
the people directly affected. In this case, Mr. Chairman, the 
ideas are being generated on the ground, and we are providing 
just a vehicle for their vision.
    Thank you, Mr. Chairman, and I look forward to today's 
hearing.
    Senator Wyden. Senator, thank you, and I look forward to 
working with you on it. I note, especially, that the first 
bill--it wasn't long ago when I was in that situation. So, I 
look forward to working with you.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Wyden, and 
Ranking Member Barrasso, for holding this hearing.
    I want to say, welcome to the U.S. Senate here, Governor 
Freudenthal, you are one of the champions of the West, and do a 
tremendous amount of good for the State of Wyoming, and being 
our neighbor to the north, where we share hundreds of miles of 
common border, I know that we face many of the same issues in 
Colorado as you do in Wyoming.
    I have appreciated working for you--working with you and 
for you--for many years. I also look forward to working with 
you, in the future.
    I want to speak, just briefly, about S. 2508--the Colorado 
Northern Front Range Mountain Backdrop. I introduced this 
legislation last December with Congressman Udall in the House 
of Representatives.
    Senator Barrasso, as you introduced your legislation on the 
Wyoming Range, it is very similar to the legislation that we're 
introducing here, I think. All of us in both Colorado and 
Wyoming recognize the importance of the crown jewels that we 
have, in terms of the Rocky Mountains. Our efforts to move 
forward in their preservation, in the long term, I think will 
be appreciated by our generation, as well as those generations 
to come.
    Colorado and Wyoming face many of the same challenges 
related to the rapid pace of oil and gas development on public 
lands, and we share many of the same goals when it comes to 
protecting our quality of life, and unique land, and the water 
resources in the Rocky Mountains.
    I'd like to thank all of our witnesses for sharing their 
time with us today, in particular, I want to thank Melissa 
Simpson, the Deputy Under Secretary of USDA, who is here with 
us and who will provide testimony on the legislation.
    For us, in Colorado, one of the realities that we face is a 
significant population growth at remarkable rates, over the 
last 20 years. The population of the Denver metro area 
increased 40 percent between 1980 and 2000. In that time 
period, we went from 1.4 million residents in the Denver metro 
area, to 2 million in the year 2000. Today, the population of 
the Denver metro area is almost 3 million people.
    Colorado's natural beauty, resources and recreational 
activities have attracted many new residents and businesses 
interested in taking advantage of the many opportunities that 
we offer in Colorado. But urban and suburban growth, and new 
land development, water consumption, water disposal, and 
reduced air quality, puts enormous pressure on our existing 
natural resources.
    My legislation, the Colorado Northern Front Range Mountain 
Backdrop Protection Study Act, will help local communities 
identify ways in which they can protect the natural resources 
most at risk from new development.
    The Front Range of the Rocky Mountains, in particular, 
provides a picturesque mountain backdrop to many communities in 
the Denver metro area, and other parts of the State. The Front 
Range backdrop also provides an essential buffer to urban and 
suburban growth, by preserving an interconnected eco-system of 
open space and trails for the use and benefits of the entire 
State of Colorado.
    The particular focus of this bill is the Arapaho/Roosevelt 
National Forests. The rapid population growth in the Northern 
Front Range area of Colorado is increasing. Recreational use of 
the forest is placing increased pressure for development of 
other lands within and around it.
    The portion of the Range within, and next to, the Arapaho/
Roosevelt National Forests includes a diverse array of wildlife 
habitat, and outdoor recreational opportunities that are 
irreplaceable. My legislation will help local communities 
identify ways in which we can protect these areas.
    Specifically, the bill requires the Forest Service to study 
the ownership patterns of lands comprising the Front Range 
mountain backdrop in the region west of Rocky Flats, identify 
opportunities for protecting open space, and recommend to 
Congress how these lands might be protected.
    I want to emphasize that this land will complement the 
current local efforts undertaken by the cities and counties 
surrounding Rocky Flats, and the mountain backdrop.
    The Front Range mountain backdrop is part of our Nation's 
cultural and natural heritage. It has served as a welcoming 
sight for people coming to the Rocky Mountain West.
    I am pleased that this bill is part of today's hearing, and 
I look forward to working with Chairman Wyden, Senator 
Barrasso, and others to get this bill enacted into law. Thank 
you very much, Mr. Chairman.
    Senator Wyden. Thank you, Senator. You and your 
constituents have done very good work, and we're looking 
forward to working with you, and working with you quickly, to 
pass your legislation.
    Senator Salazar. Thank you, Senator.
    Senator Wyden. Governor, with your indulgence, I think what 
I'd like to do, is I think I will spare you my opening 
statement with respect to the Cascade-Siskiyou Area, but I 
wanted to let Senator Smith, you has worked hard on this 
legislation, give his opening statement--is that all right with 
you, from a time standpoint? Great.
    Senator Smith.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Chairman Wyden.
    Governor, it's nice to have you here.
    I appreciate you holding this. You and I have worked hard 
on this, and I want to begin my remarks by welcoming two 
Oregonians who will be testifying today.
    I've known Andy Kerr for many years, and am delighted that 
we've ended up in an alliance on this issue. Mike Dauenhauer is 
a cattle rancher based in Ashland, and is one of the folks 
whose livelihoods we're trying to save with this legislation.
    Senator Wyden and I have worked for many years on pieces of 
legislation like this, common sense, that have protected 
Oregon's landscape without punishing those who make a living 
from the land.
    In my years of public service, I have noted a unique way of 
problem-solving in Oregon, and among Oregonians--we tend to 
bring together stakeholders and find solutions that are in 
everyone's best interest.
    That spirit often results in strange bedfellows, and 
atypical legislation. That is certainly the case with our 
legislation today, Mr. Chairman--the Cascade-Siskiyou National 
Monument Voluntary and Equitable Grazing Conflict Resolution 
Act--it's a mouthful, but it's important.
    I'd like to let Mike and Andy provide their perspectives on 
the background of the Monument, and how it affects the future 
of grazing. As for my part, it was several years ago that a 
small and uniquely, and unlikely, group of ranchers and 
environmentalists came to me and my staff--as I'm sure they did 
with you, as well, Senator Wyden--they said they'd found common 
ground in avoiding a legal collision course between grazing 
operations and the Clinton Administration's Proclamation of the 
Cascade-Siskiyou National Monument.
    The 2000 declaration of the National Monument was 
controversial at the local level, as many similar proclamations 
were. Concerns about the future of grazing topped the list--and 
they still do. The Cascade-Siskiyou is the only Monument 
Proclamation that addresses livestock grazing in such 
deliberate specifics.
    As a result, grazing allotment holders, like Mike, within 
this National Monument face one of the most complex webs of 
Federal environmental regulation of anywhere in the country. 
That entanglement is not of their choosing--it was the choosing 
of the past Administration, motivated either by political or 
ecological intentions--it depends on who you ask.
    But we're not trying to pick a side, here, and we're not 
interested in showdowns. If the battle between cattle and 
conservation is left to the courts, there will be but one 
winner. If the issue is resolved by Congress, both sides can 
win, and both sides can happily ride into the Southern Oregon 
sunset.
    What this legislation would do, is compensate the ranchers 
for moving their cattle off the Monument, and for permanent 
cancellation of their permits. I understand there will be 
concerns and questions about that from both sides of the aisle, 
the concept seems novel and controversial. Yet, there are a 
handful of instances where ranchers were paid to move their 
operations off Federal land. I do not believe that buyouts 
should be used across the landscape to settle every grazing 
dispute, but there are unique circumstances, such as this one, 
that deserve a unique response from the government.
    That is my goal, and my mission on behalf of my 
constituents. I look forward to working with the committee and 
the Administration to advance legislation that meets everyone's 
needs, and does not abdicate Congress's role in public lands 
management policy just to the courts.
    Our collaboration, to date, has shown what good can happen 
when people reach across the aisle, and across a barbed-wire 
fence to produce real solutions.
    Thank you.
    Senator Wyden. Thank you, Senator Smith, for an excellent 
statement. I'll have some more to say about Andy Kerr and Mike 
Dauenhauer when they're coming on up.
    Governor, it's obvious you've got a lot of friends on this 
panel, both Democrats and Republicans, we welcome you. We'll 
make your prepared remarks as part of the record, and you just 
proceed as you would like.

  STATEMENT OF HON. DAVID D. FREUDENTHAL, GOVERNOR, STATE OF 
                            WYOMING

    Governor Freudenthal. Thank you, Mr. Chairman and members 
of the committee. I want to commend Senator Barrasso for 
getting things moving on this bill, and getting a hearing. I 
also appreciate his sensitivity that I want to get back to 
Cheyenne, where the legislature is in session. His having been 
a member of that body, he knows what damage they can do when 
I'm out of State, so----
    You know, the written remarks talk about why this area is 
so special for us, and I hope that the chairman is right, that 
it's not a controversial bill.
    But, in fact, it has significant opponents. It has 
widespread public support, because it really is an area that is 
of both State, regional and national value--it's a treasure. 
It's a treasure for sportsman, hunters and recreationists, and 
all of the things that you'd expect.
    But it is also, this bill--the statement about the way we 
do business in Wyoming--we're a State that is proud to produce 
10 percent of the BTUs consumed by this economy, on an annual 
basis. But what we have sought to create is some form of 
balance, in which we recognize that we do have both the 
opportunity and the obligation to provide energy, but there's a 
point at which enough is enough, and we talk about balance.
    Everybody agrees that there should be balance, and some of 
the opponent of this bill have sat in my office and said, 
``Well, we agree. Not every acre in Wyoming should be subject 
to exploitation and drilling.''
    Then when you begin to talk about specific acreage, as the 
Senator does in this bill, all of that evaporates. Balance is 
good if it's on somebody else's lease. Balance is good if it's 
in somebody else's projected development. But, what we're here 
to talk about is what balance is good for the State of Wyoming, 
and what balance is good for us is the passage of this bill.
    The area that we're talking about is one that people value 
immensely. It's one that can't be successfully drilled, I 
think, with any hope for reclamation or viability of the 
streams and the population, simply because the wildlife, the 
streams and the topography are not ones that lend themselves to 
even some of the more modern techniques of drilling. In terms 
of our ability to access this resource, and some of it will 
simply have to be out of bounds.
    The other argument that was presented to me in my office--
and I suspect that you hear, is that we in Wyoming have an 
obligation to produce this, because if I don't, there will 
surely be a terrorist in the Wyoming capital in short order. 
That it is my obligation to see the State of Wyoming drilled or 
developed to the maximum, as a matter of national security.
    I think that that argument misrepresents the failings in 
this country with regard to energy policy. The answer to a 
failed energy policy isn't to continue the patterns of the 
past, it's to have a different policy. I don't believe that the 
Wyoming Range should be a casualty of the failure of this 
country to have a rational energy policy that deals with energy 
efficiency and conservation, and a fully diversified energy 
portfolio.
    What's happening now is, as you know, if that because of 
the way we're handling energy in this country, we essentially 
have fuel switching, and everything's going to natural gas. So, 
anytime you talk about withdrawing an area for potential 
leasing that might contain natural gas, the automatic argument 
is that you have violated your obligation to national security.
    I would argue to the committee, and to those who make that 
argument, that there are much better ways for us to provide 
energy security in this country than to simply extend a policy 
of dependence on drilling every single acre in the western 
States, and we're asking you to preserve some acreage in 
Wyoming.
    Why is the action needed now? Not only do we need the bill, 
but I will tell you that in the context of this particular 
area, in 2004, the Federal Government talked about leasing 
175,000 acres. In the State of Wyoming, most of the elected 
officials--including Senator Thomas, objected.
    The Administration proceeded on leases in 2006, offered 
44,000 acres for lease. That process went forward, an appeal 
was launched, the Interior Board of Land Appeals rejected the 
sale--said it was done improperly, insufficient basis, they 
needed to do another supplemental EIS.
    Now where you're at is that that process has been begun in 
order to get those leases ratified through a new supplemental 
EIS, and here's the schedule they've created that should give 
you some understanding of why we feel some urgency about this 
bill.
    That EIS is in scoping today. They intend to have a draft 
out in May 2008, and a final out in September 2008. Now, this 
is an EIS--a supplemental EIS--on the leasing of lands in an 
incredibly sensitive area. It has been placed on an expedited 
schedule, unlike any expedited schedule that I've seen, with a 
clear intention that the final be done by September.
    We need this legislation and we need progress on this 
legislation in order to preserve the proper treatment of those 
lands over time.
    So, the last point that I would bring to your attention, is 
that everybody now comes into my office--and I expect to 
yours--and says, ``Look, we can do new drilling techniques, and 
we can access these lands.'' There is some very real truth to 
that--there are drilling techniques now that allow for 
extensive directional drilling. To the extent that that works, 
I don't have a problem with it. But as soon as you say, ``OK, 
will you agree that we'll set the area aside for no surface 
occupancy, no surface disturbance with regard to oil and gas 
and if you're going to access it, you'll access it only through 
directional drilling?'', the response is, ``Well, we don't want 
that in the law, we don't want that in the rules, but just 
trust us, that's what we'll do.''
    Unfortunately, on these kind of matters, I think--and I 
hope Senator Barrasso will like this--and I quote Ronald 
Reagan, his ``trust but verify'' is absolutely correct. If we 
decide--and as you'll see when you pursue this--there's some 
areas that probably along the adjacent, the outer, the eastern 
edge of this area, probably need to be talked about because of 
some pre-existing leases, they need to be talked about in terms 
of what we're going to allow for surface occupancy.
    But don't leave us in the position where they have come in 
and said to you and to me, ``Trust us, we'll do this.'' Put it 
in the bill. Protect, not only ourselves, but future 
generations, to make sure that the good faith expressions of 
commitment made today are reflected in the statute.
    Mr. Chairman, you know, unlike the 10th Circuit, your 
little timer doesn't work, but I suspect my 5 minutes is up. I 
would be delighted to take questions on this--as the Senator 
knows, this is an issue that--along with himself and others in 
the State--have spent a fair amount of time on, and feel quite 
strongly that this needs to be done.
    To give you some demonstration how strongly I feel about 
it, I really resent the idea that I have to ask the Federal 
Government for help for anything. But, in this case, I do. So, 
give me a break, and let's let this bill go.
    [The prepared statement of Governor Freudenthal follows:]
  Prepared Statement of Hon. David D. Freudenthal, Governor, State of 
                          Wyoming, on S. 2229
    The Wyoming Range is appropriately named, as it truly is Wyoming's 
mountain range. While most of the nation thinks of Wyoming in the 
context of Yellowstone and Grand Teton National Parks, the citizens of 
the state more closely relate to the Wyoming Range and places like it. 
As such, I thank Senator Barrasso for his initiative and for continuing 
the legacy of the late Senator Craig Thomas to protect the people's 
backcountry, while at the same time recognizing and safeguarding 
private property rights with his introduction of the Wyoming Range 
Legacy Act of 2007 (S. 2229).
                            wyoming's range
    The Wyoming Range is part of the Bridger-Teton National Forest. It 
sits south of Jackson Hole and Grand Teton National Park and contains 
mountain peaks that rise over 11,300 feet in elevation. It is home to 
an abundance of wildlife including mule deer, elk, pronghorn and moose, 
along with three species of native cutthroat trout, sage grouse, 
wolverines and other sensitive species. The Range also provides 
critical habitat for the Canada lynx, a threatened species under the 
Endangered Species Act.
    I am fond of saying that people do not choose to live in or visit 
Wyoming to see an opera--they live and come here because they love the 
outdoors. Outdoor recreation, hunting, fishing, clean air and open 
spaces are our birthright. We guard those few weekends of hunting 
season every fall as we do any other holiday. With its big game herds 
and world class fisheries, starting in the summer and lasting through 
November, seemingly all roads--from Rock Springs to Cheyenne to 
Newcastle and everywhere in between--lead to the Wyoming Range.
    The Wyoming Range is also a popular area for other recreational 
activities like camping, hiking, bicycling, skiing and snowmobiling. 
The National Outdoor Leadership School (NOLS), an international 
wilderness education organization, uses the Wyoming Range as one of its 
winter and summer ``classrooms.'' The 70-mile Wyoming Range National 
Recreational Trail, at more than 9,000 feet in elevation, runs through 
the heart of the Range, as does the 353-mile Wyoming Range Snowmobile 
Trail. For both the blue collar drilling hand from Pinedale and the 
white collar attorney from Riverton, the Wyoming Range is truly a land 
of multiple uses. Proving this point further, in addition to providing 
a rich hunting, angling and recreational heritage, the Range also 
supports public land grazing, timbering and oil and gas production, 
which are appropriately not affected by this legislation.
                        natural gas development
    In an age where carbon footprints are seemingly of more concern 
than drilling footprints, the energy portfolios of certain states, 
industrial users and utilities have become more ``green'' by shifting 
their energy supplies from coal to natural gas. While these attempts to 
manage carbon emissions are laudable, they have resulted in extreme 
pressure to develop natural gas reserves across the West and most 
markedly in Wyoming. As of 2007, almost 26 million acres of federal 
lands were open to oil and gas leasing in Wyoming--which represents 
roughly 86 percent of all federal lands in the state. Of that acreage, 
almost 14 million acres, or 52 percent of the lands open to leasing, 
were actually under lease. Of this nearly 14 million acres under lease, 
just less than 4 million acres were under production. On the almost 4 
million acres of producing leases, the federal government has been 
quite efficient in achieving production from its leasehold. In 2006, 
more Applications for Permit to Drill (APDs) were issued in Wyoming 
than all other states combined. In 1999, only about 500 APDs were 
processed, compared to more than 3,500 APDs in 2006. As a result, from 
1997 through 2006, marketed production of natural gas nearly doubled in 
my state.
    To be clear, the state, its counties and towns and its citizens 
have unquestionably benefited from this development. We have been more 
than happy to do our fair share to meet the nation's energy needs and, 
in the process, fill our state and local coffers. But as a result, our 
wildlife, small town way of life, clean air, water and soil and access 
to public lands and open space have been altered and stressed to a 
breaking point. At the end of the day, we must make sure that Wyoming 
is a place where people want to live long after the oil and gas 
companies have moved on. This means finding a balance. Protecting 
places like the Wyoming Range will help to strike that balance.
                        why this bill? why now?
    The history of oil and gas leasing in the Wyoming Range and very 
recent actions by the U.S. Forest Service and the U.S. Department of 
the Interior illustrate why Congressional legislation is needed to 
protect the Wyoming Range as soon as possible. In 2004, the Forest 
Service contemplated leasing 175,000 acres for oil and gas development 
in the Wyoming Range. This met with enormous public outcry and 
opposition from Senator Thomas, other local and state elected 
officials, Wyoming businesses, outfitters, sportsmen, conservationists 
and myself. Citing the important and, in some cases irreplaceable, 
wildlife and recreational values sustained by the Wyoming Range, and 
given the significant energy development on surrounding BLM lands in 
northwestern Wyoming, we collectively asked the Forest Service to 
refrain from leasing.
    In response, instead of listening to the public, the Forest Service 
only scaled back its lease offering. In 2005-2006 in a series of four 
lease sales, the Forest Service consented and the BLM offered 44,720 
acres for lease. Conservation groups, sportsmen's groups, outfitters 
and homeowners protested the sales, citing numerous changed 
circumstances in the region since the early 1990s when the original 
leasing environmental assessments had been prepared. Although the 
Forest Service noted that circumstances had changed since the early 
1990s (air quality impacts were now a problem, the reasonably 
foreseeable oil and gas development in the region was far greater than 
initially anticipated and the Canada lynx was now a federally listed 
species) it refused to prepare a new environmental analysis. The BLM, 
relying on the Forest Service's determination, ignored the lease sale 
protests. Many of the groups appealed and requested a stay from the 
Interior Board of Land Appeals (``IBLA''). The IBLA found that the 
appellants were likely to succeed on the merits of their appeals and 
granted a stay on development that remains in place to this day. In a 
rare move, the BLM requested a remand of the cases, even though the 
IBLA was clear that the BLM and the Forest Service had the authority to 
cancel the leases if, upon review, the agencies decided the changed 
circumstances were significant enough that the leases should never have 
been issued in the first place.
    It was these lease sales that served to rally the citizens of 
Wyoming to fight to protect the Wyoming Range. Local landowners, 
outfitters, sportsmen and anglers, nearly 30 different hunting and 
angling groups, business owners, labor union members, more than 60 
trade unions, conservation groups, ranchers and others from around the 
state and nation who hunt, fish, snowmobile, horseback ride, camp, hike 
and sightsee in the Wyoming Range have banded together to seek passage 
of the legislation before you (S. 2229).
    Given the contested outcome of the lease sales, the strong IBLA 
decision authorizing the agencies to cancel these leases outright and 
the legislation before Congress, it would make sense that the Forest 
Service slow down and use caution before making a decision about new 
leasing. The Bridger-Teton National Forest is currently in the process 
of forest plan revision and will be analyzing whether new leasing is 
appropriate on the forest in light of the extensive development 
occurring on nearby BLM lands. Surely one would think that the Forest 
Service would wait until that process resumes and could wait to see the 
outcome of this legislation before it moves forward with a decision.
    Instead, the Forest Service, at a national level, has made this 
leasing decision a priority--putting the fate of the 44,720 acres on a 
fast-tracked process with an anticipated decision expected this 
September, ironically in the midst of the hunting season. To this end, 
just this month, the Forest Service published its Notice of Intent to 
prepare an Environmental Impact Statement to review the leasing 
decision with the proposed action to issue all of the contested leases. 
Stanley Energy, one of the companies that holds leases in this 
contested block, has already suggested that it might drill 200 wells 
from eight, 50-acre well pads in the area.
                               conclusion
    Estimates suggest that almost 12 trillion cubic feet of gas 
underlie the Wyoming Range. Those that favor drilling will proclaim 
that, in the interest of national energy security, they must have 
access to the area. In certain places, like those already leased and 
producing areas on the outer edge of the southern and central reaches 
of the Wyoming Range, drilling might be conscionable--and is fully 
within the realm of possibility even with the passage of S. 2229. In 
those areas, I would submit that the tightest constraints guide any 
development--with platinum-plated mitigation requirements and as small 
a drilling and production footprint as possible being absolutely and 
unequivocally required. But in the rest of the Wyoming Range, including 
all of the currently unleased and contested acreage, leasing and 
development--no matter the volume of ``technically recoverable 
reserves''--is wholly inappropriate. No measures of mitigation and no 
current or foreseeable drilling technologies are sufficient to protect 
these areas, especially given the fact that most of the Wyoming Range 
consists of steep slopes, narrow valleys and few flat spots other than 
those in the riparian bottomlands, which are and should be off limits 
to well pad construction. With the nature of the topography in the 
area, if development is allowed to proceed on well pads of normal 
size--no less 50 acre pads--the Wyoming Range will be made to look like 
it is home to a hilltopping coal mining operation. Hence the 
legislation before you.
    Importantly, and in line with other strongly held Wyoming values 
related to private property rights, the legislation, as crafted, does 
not extinguish valid existing rights of leaseholders in the Wyoming 
Range. That said, it does reflect the public's beliefs about the area's 
highest and best uses. The legislation includes a process by which 
leaseholders could voluntarily sell or donate their leases for 
permanent retirement by the Forest Service, but this is an entirely 
voluntary process.
    The people of Wyoming are proud of our natural resource producing 
heritage. From coal and trona miners to uranium producers and oil and 
gas operators, the backs of Wyomingites are strong, having long carried 
the nation's natural resources burdens. Now it is time for the nation 
to give us something back, to protect something that is near to our 
hearts: the Wyoming Range. We hunt there. We fish there. We hike and 
camp there. We want to ensure that we will be able to take our children 
and grandchildren to the same places to see the same big game herds, 
the same streams and the same mountains that we can see today.
    I encourage you to advance this legislation. Like most of our 
endeavors in government, it is not perfect. But the existence of this 
legislation and more importantly this hearing, have forced the parties 
to seriously discuss this proposal. Discussions about the Wyoming Range 
have been ongoing for several years. It is only within the last ten 
days that any of the industry participants have seriously discussed 
protections for this area. Previously they have appeared to have relied 
on overly-friendly agency support in Washington D.C., and simply 
discounted Congressional and Wyoming state interests. There is no doubt 
room for future discussion, but in the absence of serious Congressional 
interest in the legislation, the proponents of drilling feel no need to 
be responsive.
    Thank you Mr. Chairman, members of the Committee and especially 
Senator Barrasso.

    Senator Wyden. Governor, it's quite obvious why you are 
racking up these huge vote pluralities in the State of Wyoming.
    We thank you for an excellent presentation, we're going to 
start our questioning with Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Governor, you and I have talked, and you may want to share 
with others--you know, what happens to the Wyoming Range long 
term if we don't have this legislation?
    Governor Freudenthal. In the absence of this legislation, 
if you look out over the long term--particularly, multi-
generational term--essentially what will happen is it will, 
through a series of individual actions, it will be eroded in 
terms of its value, both for tourism, recreation, and the other 
things that we care about in Wyoming.
    But more importantly, you lose the opportunity to take a 
holistic view about what this area--the entire acreage, the 1.2 
million, that acreage--what its contribution is, not just to 
Wyoming, but to this country. It is a national treasure.
    Those of us in Wyoming treasure it most immediately because 
we're there. But it is a national treasure, which we believe 
needs national protection.
    Senator Barrasso. One last question. There's been some 
question raised about possibly decreased tax revenue by not 
going out and exploring in that area, and I've heard that a bit 
around the State. Any comments in how we respond to that?
    Governor Freudenthal. Senator, thank you. I think you and I 
hear--both hear the same things, is that, you know, somehow 
we're going to lose tax revenues. The truth is, the State's in 
fine position, we're doing fine.
    It's very interesting to me that those same people who say, 
``You need to lease this because you might lose tax revenues,'' 
are very quick to come back in and say, ``But, oh, by the way, 
you can reduce my taxes, or you can give me some other kind of 
a break.'' So, I end up with a terribly unsympathetic heart 
with regard to an argument that essentially is premised on, 
``Please let use pay taxes,'' because they're saying that on 
one side, and on the other side they're saying, ``Give us a 
break.''
    Senator Barrasso. Sounding more like Ronald Reagan every 
day.
    [Laughter.]
    Senator Barrasso. Governor, we appreciate that, we 
appreciate you being here, I think some of the other panel 
members may have a question or two. Thank you very much.
    Senator Wyden. Senator Smith, any questions?
    Senator Smith. No, thank you.
    Senator Wyden. Governor, I'm going to let you go in just a 
second, and certainly you've done excellent work, and I want to 
commend my friend, Senator Barrasso--we're going to try to move 
on your legislation, you know, quickly. Chairman Bingaman has 
asked that we look at this in the subcommittee, and there may 
be some questions about one provision or another. But certainly 
you've done some very good, good work.
    But I can't let you go without talking to you about the 
procedural snafus that, unfortunately, stand in front of us. 
Senator Smith and I, for example, have been working to 5 years 
to pass legislation, much like what you've done--a consensus 
bill with various industry groups, and environmental 
organizations, others, on the Mt. Hood Wilderness legislation. 
It has just been very difficult getting over some of the 
procedural hoops.
    So, we all hope that we can get environmental legislation--
important environmental legislation, like the legislation that 
you and Senator Barrasso are moving--out of the Senate. Thus 
far, it has been very hard to do it on Senate-originated bills; 
the legislation has had to come from the House. But, we're 
hopeful we'll be able to clear it.
    I bring this up only by way of highlighting the fact that, 
particularly in the West, we've got an awful lot of thoughtful 
people who understand that it's possible to protect treasures, 
and be sensitive to economic development at the same time. They 
go out, without a lot of shouting, and without a lot of 
fanfare, and they put together sensible initiatives, like you 
and Senator Barrasso have done. Then it comes to Washington, 
and then somehow it gets caught in some of these sort of 
procedural battles that don't seem very important to anybody 
except a handful of concerns in Washington, DC.
    So, I hope that we can get your legislation addressed, just 
as we're trying to get the Mt. Hood Wilderness legislation 
address, and unless you'd like to add anything further, we'll 
excuse at the time, and let you try to figure out how to get 
through the friendly skies to Wyoming.
    Governor Freudenthal. Senator, fortunately, I have an 
airplane that the Republican legislature bought for me.
    Senator Wyden. This is good.
    Governor Freudenthal. This is good, I find it to be useful.
    [Laughter.]
    Governor Freudenthal. I want to, I do want to tell you, I 
appreciate the fact that you're willing to take a look at this. 
I watch from afar what all of you, on both sides of the aisle 
deal with, on trying to get anything done back here. Obviously 
at a distance it's not quite as frustrating for us as it is for 
you on the front line.
    But, I think that any Governor will tell you that a lot of 
the difficulty we have--and particularly for public land 
States--is that even when we can figure something out, and get 
it put together, it somehow--as you point out--gets lost in a 
labyrinth of values that are unrelated to what we're trying to 
get done.
    So, if there's anything that I can do, or that--frankly, I 
think you'd find other western Governors who would also help--
but if there's anything that we can do--other than send you 
aspirin, or something--I mean, I'm not quite sure how--I, 
frankly, am not sure how you guys deal with it, because at 
least in our context, we get a decision made one way or the 
other, and yours seems to be a delay, and delay. As the Supreme 
Court once said, you know, justice delayed is justice denied.
    But I do appreciate your time, I appreciate the committee's 
indulgence, and we'd be glad to help work out any questions in 
any way possible.
    Senator Wyden. You're being logical, and Heaven forbid that 
logic prevail on all of these kind of matters.
    Chairman Bingaman and Senator Domenici have been 
exceptionally helpful, in terms of this committee trying to go 
forward in bipartisan efforts, and we'll pursue your cause in 
just that kind of fashion. We'll excuse you.
    Governor Freudenthal. Thank you.
    Senator Wyden. OK.
    Governor Freudenthal. Thank you, Senator.
    Senator Wyden. Our next panel will be Melissa Simpson, 
Deputy Under Secretary of Natural Resources and Environment in 
the Department of Interior, and Luke Johnson, Deputy Director 
of the Bureau of Land Management. Let us have those two come 
forward. Thank you.
    We'll make your prepared remarks as part of the hearing 
record in their entirety, and if you could take a few minutes 
and summarize your views, that would be helpful
    Why don't we begin with you, Ms. Simpson.

 STATEMENT OF MELISSA SIMPSON, DEPUTY UNDER SECRETARY, NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Ms. Simpson. Good afternoon.
    Mr. Chairman, and members of the committee, thank you for 
the opportunity to testify today on three bills that pertain to 
the U.S. Department of Agriculture, Forest Service.
    We'll begin with the Wyoming Range Legacy Act of 2007. S. 
2229 would provide for the establishment of the Wyoming Range 
Withdrawal Area, consisting of 1.2 million acres of the 
Bridger-Teton National Forest, withdrawn from all forms of 
appropriation or disposal, under the public land laws; 
location, entry and patent under the United States mining laws, 
and disposition of laws related to mineral and geothermal 
leasing or mineral materials.
    The bill would also allow for the retirement and repurchase 
of existing oil and gas leases, and other mineral leases within 
the withdrawal area.
    The Administration supports this bill, and looks forward to 
working with the Congress to address issues, such as the 
potential budgetary impacts, and necessary offsets.
    The Department of Agriculture does have concerns with the 
bill, as drafted, and would like to work with the Department of 
Interior, and the committee, to address those concerns.
    Because of the national need for energy, the Department 
supports the appropriate development of energy resources on 
National Forest System lands, in collaboration with 
stakeholders, while effectively protecting the environment. The 
Administration is committed to cooperative conservation, as is 
reflected in Executive Order 13352.
    In this case, we recognize the interest of a wide variety 
of stakeholders in the goals of this bill--the list of 
supporters within Wyoming is long and varied, including local 
government officials, and the Governor, nearly 30 hunting and 
angling groups, over 60 trade unions, a network composed of 
local landowners and businesses, as well as conservation 
groups.
    The Forest Service shares authority with the BLM to varying 
extents, to ensure the management goals and objectives for 
mineral exploration and development activities are achieved; 
that operations are conducted to minimize effects on natural 
resources; and that the land affected by the mineral operations 
is reclaimed.
    All the existing leases in the area covered by this 
legislation are consistent with the Bridger-Teton Land and 
Resource Management Plan. However, there are a number of 
pending leases--oil and gas leases--in this area, that have 
been sold at competitive sales, but are awaiting final decision 
on issuance, due to an Interior Board of Land Appeals ruling; 
and the need for supplemental environmental analysis under 
NEPA.
    We recommend the following clarifications on the sections 
of the bill: Section 2(b) of the bill sets out the purposes of 
the Act, including the withdrawal of areas in the Wyoming Range 
from local entry, leasing, and patent on the United States 
mining laws. However, the language in Section 3(a), which 
affects the withdrawal, withdraws those areas from the laws 
governing mineral leasing, geothermal resource leasing, and 
disposition of mineral materials. We recommend that the 
language in Sections 2 and 3 be aligned.
    Section 3(a) of the bill also provides that the withdrawal 
under S. 2229 is subject to ``valid rights in existence on the 
date of enactment,'' for the oil and gas leases that have 
already been issued by the BLM.
    Current supplemental environmental analysis efforts are 
being conducted by the Bridger-Teton National Forest to 
determine new, excuse me, to analyze new information to meet 
the direction of the Interior Board of Land Appeals.
    The committee should modify this section to clarify that 
those leases which have been sold, but have not been issues, 
may be issued notwithstanding the withdrawal following 
completion of the ongoing environmental analysis.
    In Section 3(a)(3), we suggest that mineral materials be 
excluded from the withdrawal. Mineral materials include sand 
and gravel, as well as other materials critical to the 
maintenance of Forest Service roads and facilities. Maintaining 
roads and facilities is necessary to ensure proper conditions 
and safety for the public, and Forest Service employees. This 
withdrawal would prohibit the Forest Service from using locally 
obtainable mineral materials for public purposes that are 
consistent with the management of National Forests.
    Section 3(c) of the bill provides that the land for which 
existing rights exist, become subject to the withdrawal's 
effect upon the termination of those rights. We feel that this 
provision is unnecessary. The withdrawal made by the 
legislation already precludes new dispositions by the United 
States. We would like to work with the committee to develop 
technical edits.
    Section 3(e) would provide that the forest plan applies to 
areas in the National Forest that are not withdrawn by the 
bill, or to any leases of the land. By implication, the forest 
plan would not apply to areas that are withdrawn. We recommend 
that subsection (e) be deleted, so that there would be no 
uncertainty that the forest plan applies to the withdrawn area.
    Section 4 would allow for retirement and repurchase of 
mineral leases, including oil and gas leases, for lands within 
the Wyoming Range. We recommend that the language be modified 
to also permit the retirement and repurchase of mining claims 
within the Wyoming Range, located pursuant to the United States 
mining laws, if those mining claims constitute valid, existing 
rights. There are currently 26 mining claims in existence 
within the proposed withdrawal area.
    When lands are withdrawn from mineral energy, the Forest 
Service prepare mineral examination reports to determine 
whether a mining claim embracing National Forest System lands 
constitutes a valid, existing right under the operation of the 
United States mining laws.
    This Department recommends that the appropriations for the 
administrative cost of conducting validity exams, and 
performing appraisals for any mining claims which constitute 
valid existing rights, if those are necessary, be included in 
section 4, so as to not create a financial burden upon the 
government.
    We look forward to working with the bill's sponsors in the 
committee in clarifying those sections of the bill.
    I'll move on to the other two bills: H.R. 1285 and S. 
2601--this testimony concerns H.R. 1285, as passed by the U.S. 
House of Representatives.
    Sure, OK--that's very fine.
    Our position on this bill is that, we're currently opposed, 
because there is not a requirement for the fire district to pay 
a fee for the land. We've got two current statutes in play 
where we can--through either the Townsite Act, or for the 
General Exchange Act--where we can convey this property for 
fair market value to the fire district. We understand their 
desire to have a fire station closer to their community, and we 
support that effort. We would like to continue to work with 
them.
    On the Colorado Northern Front Range Mountain Backdrop 
Protection Study Act, S. 2508, we'd just like to work with 
Senator Salazar and let him take a look at what has already 
gone on with the Forest Service with respect to their Forests 
on the Edge report that they've done recently, as well as their 
open space strategy. We feel that there's a lot of information 
in there that's already been done that fits very nicely within 
the proposed legislation, and we don't want to reinvent the 
wheel, we would be certainly happy to work with the Senator and 
the committee.
    Thank you.
    [The prepared statements of Ms. Simpson follow:]
Prepared Statement of Melissa Simpson, Deputy Under Secretary, Natural 
          Resources and Environment, Department of Agriculture
                         s. 2601 and h.r. 1285
    This testimony concerns both S. 2601 and H.R. 1285, as passed by 
the U.S. House of Representatives. The bills would require the 
Secretary of Agriculture to convey, without consideration, 
approximately 1.5-acres of land on the Wenatchee National Forest to the 
King and Kittitas Counties Fire District #51 for use as a site for a 
new Snoqualmie Pass fire and rescue station.
    The Fire District currently has a fire station located on National 
Forest System lands under a special use permit, several miles away from 
the property covered by this legislation. We understand that the Fire 
District wants to construct an updated facility situated at an 
interchange on Interstate 90 to improve response times to the many 
emergency situations that occur in that area. We agree that the 
proposed 1.5-acre parcel will meet this need. Among other 
administrative procedures necessary to facilitate the conveyance, a 
land survey will be needed to properly locate and describe the 
property. As is required under the Townsite Act and exchange 
authorities, the Fire District would normally be expected to pay 
administrative costs of making the conveyance, such as the survey.
    The Department does not support the bills in their present form. We 
appreciate that the acreage has been reduced from the original House 
proposal of 3 acres to 1.5 acres. We do not object to conveying the 
lands, but we oppose the bills because they do not require market value 
compensation for the conveyance, although the bill does require the 
District to cover the survey costs associated with the conveyance. It 
is long-standing policy that the taxpayers of the United States should 
receive market value for the sale, exchange, or use of their National 
Forest System lands.
    We also believe that this legislation is unnecessary because the 
Forest Service can meet the bill's objectives through current statutes 
that allow the Forest Service to convey this parcel to the Fire 
District for land or cash value. For example, under the Townsite Act, 
the Secretary of Agriculture may convey, for market value, up to 640 
acres of land to established communities located adjacent to National 
Forests. Under the General Exchange Act, the Secretary of Agriculture 
can conduct a land for land exchange with non-Federal entities, 
including State and Local governments. These laws require the Secretary 
of Agriculture to obtain market value for exchanges or sales of 
National Forest lands.
    Although we can not support the bills, we are eager to continue 
discussions with the sponsors, the Fire District, and the committee, in 
the hopes of assisting the District in achieving its desire to improve 
its capacity to provide necessary fire and rescue services.
                                s. 2508
    This testimony concerns both this bill and H.R. 2110 for which 
previous testimony was provided on March 9, 2006, before the House 
Subcommittee on Forests and Forest Health. S. 2508 provides for a study 
of options for protecting the open space characteristics of certain 
lands in and adjacent to the Arapaho and Roosevelt National Forests in 
Colorado. In addition, the Secretary of Agriculture, acting through the 
Chief of the Forest Service and in consultation with appropriate State 
and local agencies, would review the lands within a study area and 
report to Congress on the present ownership of undeveloped lands, 
identify the undeveloped lands that may be at risk of development and 
identify and recommend actions that could be taken by all parties to 
preserve the open and undeveloped character of the lands.
    The Department does not oppose the bills. We would like to work 
with the Committee and the sponsors on amendments to specify Federal, 
State, and local entities cooperating in the study and to provide that 
recommendations for actions outside of National Forest boundaries would 
be made by state government or the appropriate local land use planning 
and zoning authority, rather than the Secretary. The Department is also 
concerned the study boundary is not delineated on a geological or 
ecological feature but instead on human created boundaries identified 
in Section 2(b)(1). Moreover, the Department is particularly concerned 
with the cost associated with the bill which, if enacted, could be 
significant and would be funded at the expense of other work within the 
region or elsewhere within the Forest Service.
    Loss of open space was identified by former Chief Dale Bosworth as 
one of the Four Threats to our Nation's forests. Loss of open space 
poses a tremendous challenge to effective land management. It causes 
loss of biodiversity and contributes to the degradation and loss of 
wildlife habitat. Loss of open space has three aspects:

  <bullet> Habitat fragmentation--the division of habitats in forest 
        and rangeland ecosystems into small isolated patches;
  <bullet> Ownership fragmentation--the conversion of large acreages 
        into smaller parcels; and
  <bullet> Use fragmentation--the transformation of large single tracts 
        used for forestry, farming, and ranching converted into 
        multiple-use small tracts.

    The Forest Service recently completed the ``Forests on the Edge'' 
(FOTE) report which highlights the threat to private forests from 
housing development. Based on the FOTE research, some 44.2 million 
acres (over 11 percent) of private forest across the conterminous 
United States could experience substantial increases in housing density 
by 2030. In September 2007, the Forest Service completed phase two of 
the FOTE which assessed housing density projections up to 10 miles from 
the edge of each National Forest and Grassland boundary. The report 
showed that the Arapaho-Roosevelt National Forest is projected to 
experience a moderate increase of residential development on 10% to 
24.9% of adjacent private lands.
    In December 2007, the Forest Service also announced the release of 
an ``Open Space Conservation Strategy.'' The objective of the Strategy 
is to facilitate, encourage, and galvanize voluntary land conservation 
to help ensure that forests and grasslands across the landscape can 
continue to provide valued services and benefits for society. The 
Strategy allows the Forest Service to be a more effective partner in 
open space conservation. Open space benefits American citizens by 
providing clean air, abundant water, outdoor recreation, connected fish 
and wildlife habitat, scenic beauty, improved human health, renewable 
resource products, and quality of life. The Forest Service plans to 
achieve these benefits through collaboration and partnerships by 
working with willing landowners, conservation groups and state and 
local governments to promote voluntary land conservation. The study 
being proposed in this bill would be a local example of the Forest 
Service's Open Space Conservation Strategy.
    This concludes my testimony. I would be happy to answer any 
questions you may have.
                                s. 2229
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today on this bill that pertains to the U.S. 
Department of Agriculture (USDA), Forest Service.
    S. 2229 would provide for the establishment of the Wyoming Range 
Withdrawal Area, consisting of 1.2 million acres of the Bridger-Teton 
National Forest withdrawn from all forms of appropriation or disposal 
under the public land laws; location, entry, and patent under the 
United States mining laws; and disposition under laws relating to 
mineral and geothermal leasing or mineral materials. The bill would 
also allow for the voluntary retirement and repurchase of existing oil 
and gas leases and other mineral leases within the withdrawal area.
    The Administration supports this bill, and looks forward to working 
with the Congress to address issues such as the potential budgetary 
impact and necessary offsets. The Department of Agriculture does have 
concerns with the bill as drafted, and would like to work with the 
Department of the Interior and the Committee to address those concerns. 
I would like to offer some suggested amendments for the Committee to 
consider.
    Because of the national need for energy, the Department supports 
the appropriate development of energy resources on National Forest 
System lands, in collaboration with stakeholders, while effectively 
protecting the environment. This Administration is committed to 
cooperative conservation, as reflected in Executive Order 13352, 
Facilitation of Cooperative Conservation. In this case, we recognize 
the interest of a wide variety of stakeholders in the goals of this 
bill. The list of supporters within Wyoming is long and varied, 
including local government officials and the Governor in a state that 
has been very supportive of energy development in other areas.
    The Forest Service shares authority with the Bureau of Land 
Management (BLM), to varying extents depending upon the minerals in 
question and the lands on which they are found, to ensure that 
management goals and objectives for mineral exploration and development 
activities are achieved, that operations are conducted to minimize 
effects on natural resources, and that the land affected by minerals 
operations is reclaimed.
    All the existing leases in the area covered by this legislation are 
consistent with the Bridger-Teton's Land and Resource Management Plan. 
However, there are a number of pending oil and gas leases in this area 
that have been sold at competitive sales but are awaiting a final 
decision on issuance due to an Interior Board of Land Appeals ruling 
and the need for supplemental environmental analysis under the National 
Environmental Policy Act.
    We recommend the following clarifications to the proposed bill 
language. Section 2(b) of the bill sets out the purposes of the Act, 
including the withdrawal of areas in the Wyoming Range from location, 
entry, leasing, and patent under the United States mining laws. 
However, the language in Section 3(a), which effects the withdrawal, 
withdraws those areas from the laws governing mineral leasing, 
geothermal resource leasing and disposition of mineral materials. We 
recommend that the language in Sections 2 and 3 be aligned. We would 
like to work with the Committee to more accurately determine boundaries 
and acreage associated with the withdrawal.
    Section 3(a) of the bill also provides that the withdrawal under S. 
2229 is subject to ``valid rights in existence on the date of 
enactment,'' for the oil and gas leases that have already been issued 
by BLM. The term ``valid rights'' may have been intended to include the 
oil and gas leases that have been sold, but not issued, but that would 
not be consistent with Interior Board of Land Appeals precedent. 
Current supplemental environmental analysis efforts are being conducted 
by the Bridger-Teton National Forest to determine if it is appropriate 
to issue those leases. The Committee should modify this section to 
clarify that those leases which have been sold, but have not been 
issued, may be issued notwithstanding the withdrawal, following 
completion of the ongoing environmental analysis.
    In Section 3(a)(3), we suggest that ``mineral materials'' be 
excluded from the withdrawal. Mineral material supplies are critical to 
the maintenance of Forest Service roads and facilities on the forest. 
Mineral materials include sand and gravel as well as other materials 
utilized in the construction and maintenance of Forest Service roads 
and facilities. Maintaining roads and facilities is necessary to ensure 
proper conditions and safety for the public and Forest Service 
employees. This withdrawal would prohibit the Forest Service from using 
locally obtainable mineral materials for public purposes--including 
access to hunting and fishing--that are consistent with the management 
of the national forests. Replacement would be at greatly increased 
cost.
    Section 3(c) of the bill provides that land for which valid 
existing rights exist becomes subject to the withdrawal's effect upon 
the termination of those rights. This provision is not necessary. The 
withdrawal made by the legislation already precludes new dispositions 
by the United States.
    Section 3(e) would provide that the forest plan applies to areas in 
the National Forest that are not withdrawn by the bill or to any leases 
of that land. By implication, the forest plan in its entirety would not 
apply to areas that are withdrawn. We recommend that subsection (e) be 
deleted so that there would be no uncertainty that the forest plan 
applies to the withdrawn area. Alternatively, we would like to work 
with the Committee to develop technical edits.
    Section 4 would allow for retirement and repurchase of mineral 
leases, including oil and gas leases, for lands within the Wyoming 
Range. We recommend that the language be modified to also permit the 
retirement and repurchase of mining claims within the Wyoming Range 
located pursuant to the United States mining laws if those mining 
claims constitute valid existing rights. There are 26 mining claims in 
existence within the proposed withdrawal area. Those claims may 
constitute valid existing rights if they were properly located, a 
discovery of a valuable locatable mineral deposit was made within the 
confines of the claim prior to the date that the claimed lands are 
withdrawn from appropriation under the United States mining laws, and 
those mining claims are thereafter properly maintained.
    By agreement with the Department of the Interior, the Forest 
Service prepares mineral examination reports to determine whether a 
mining claim embracing National Forest System lands constitutes a valid 
existing right following the withdrawal of those lands from the 
operation of the United States mining laws. The Department of 
Agriculture recommends that the appropriations for the administrative 
costs of conducting validity examinations and performing appraisals of 
any mining claims which constitute valid existing rights, if those 
actions are necessary, be included in Section 4 so as to not create a 
financial impact on the Government.
    We look forward to working with the bill's sponsor and the 
committee to clarify the bill.
    This concludes my testimony. I would be happy to answer any 
questions you may have.

    Senator Wyden. Very good, thank you.

  STATEMENT OF LUKE JOHNSON, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Johnson. Mr. Chairman and members of the committee, 
thank you for inviting me today to testify today on a number of 
bills of interest to the BLM. In the interest of time, I'd just 
like to summarize my testimony.
    S. 832, regarding the proposed land sale, the Turnabout 
Ranch in Utah--the BLM support S. 832, which provides for the 
sale of the 25 acres of BLM-managed lands within the Grand 
Staircase-Escalante National Monument to Turnabout Ranch, north 
of Escalante, Utah.
    The legislation will resolve an inadvertent trespass and 
will not undermine the purposes for which the Monument was 
established. Therefore, we support this legislative remedy.
    The Administration supports S. 2229, the Wyoming Range 
Legacy Act, and looks forward to working with the Congress to 
address issues such as the potential budgetary impact and 
necessary offsets.
    The Department does have concerns with the way the bill is 
drafted and would like to work with our sister agency, the U.S. 
Forest Service, and the committee, to address those concerns.
    This area contains significant energy resources and we're 
concerned that a withdrawal from mineral development that is 
too broad could significantly impact the Administration's 
efforts to ensure access to important energy resources.
    The Department is also concerned that it would leave these 
Federal resources vulnerable to drainage, without appropriate 
compensation to the Federal Treasury and the State if 
development occurs on adjacent private lands.
    There are other issues, as well, outlined in my full 
statement, that we'd like to work with the committee to 
resolve.
    S. 2379, the Cascade-Siskiyou National Monument Voluntary 
and Equitable Grazing Conflict Resolution Act--BLM supports 
many of the goals of the bill, but cannot support some of the 
specific provisions. The legislation provides for a Federal 
buyout of grazing preferences within the Monument, a land 
exchange within the Monument between the BLM and a private 
landowner, and the designation of approximately 23,000 acres of 
land within the Monument as wilderness.
    We would like the opportunity to work with the sponsor and 
the committee to address the issues described more fully in the 
testimony. BLM is opposed to Federal Government buyouts of 
grazing permits, and the permanent retirement of those permits. 
However, the BLM also recognizes the value of working 
cooperatively and collaboratively with local stakeholders to 
fulfill its multiple use mission on BLM lands.
    BLM is committed to working with the committee, the 
sponsors and stakeholders, in the spirit of cooperative 
conservation within our existing authorities.
    H.R. 523, the Douglas County, Washington PUD Conveyance 
Act--BLM supports enactment of the Act. In testimony last year, 
a number of the concerns that had previously been raised were 
addressed, and we support the bill.
    H.R. 838, Park City, Utah Land Conveyance bill--in general, 
we support the goals of H.R. 838, which directs the conveyance 
of four parcels of BLM-managed land within Park City, Utah. We 
would like to work with the subcommittee to address a number of 
the issues raised in my full testimony. Under the legislation, 
two parcels of land would be conveyed to Park City for open 
space purposes, at no cost. In addition, the BLM would be 
directed to sell at auction, two important parcels of land to 
the highest bidder. We should note that these lands have some 
complicating encumbrances, and are also considered to be high-
value lands.
    I appreciate the opportunity to testify, and I'd be happy 
to answer any questions.
    [The prepared statements of Mr. Johnson follow:]
                                h.r. 523
    Thank you for the opportunity to testify on H.R. 523. This 
legislation directs the Secretary of the Interior to convey certain 
public lands located wholly or partially within the boundaries of the 
Wells Dam Hydroelectric Project [Federal Energy Regulatory Commission 
Project No. 2149-19795] (Project) to Public Utility District No. 1 of 
Douglas County, WA (PUD). The Bureau of Land Management (BLM) supports 
this conveyance. During consideration of H.R. 523 by the House 
Committee on Natural Resources in the 1st session of this Congress, the 
BLM raised several concerns. These were resolved to our satisfaction in 
the legislation passed by the House of Representatives on October 22, 
2007, and referred to the Senate. The BLM therefore supports H.R. 523.
    Since 1998, the PUD has expressed a strong desire to purchase all 
BLM-managed public lands within the Project boundaries. Some of the 
public lands the PUD wishes to acquire are located within the 
boundaries of the Project. These were reserved for power site purposes 
by order of the Federal Power Commission (FPC Order dated July 12, 
1962, for Power Project No. 2149). Also, the PUD has requested some 
public lands that lie outside (but contiguous to) the designated 
project boundary. The PUD's 50-year license for the project expires on 
May 31, 2012. Its application for relicensing must be filed with the 
Federal Energy Regulatory Commission (FERC) by 2010. The BLM, with 
management responsibilities for land located within Project boundaries, 
is in the initial stages of preparing to participate in the section 
4(e) [Federal Power Act, 16 U.S.C. 797(e)] relicensing process.
    In testimony on H.R. 523 before the House Natural Resources 
Subcommittee on National Parks, Public Lands, and Forests (May 10, 
2007), the BLM raised two concerns. The Subcommittee subsequently 
adopted an amendment in the nature of a substitute that addressed our 
concerns, as follows:

  <bullet> Resource safeguards.--BLM had encouraged the sponsor and the 
        Subcommittee to provide safeguards to protect the known 
        resource values on these lands, which include Bald Eagle roosts 
        and approximately two miles of Columbia River shoreline 
        currently open to the public. The amendment adopted by the 
        Subcommittee added assures this protection will be provided 
        through the relicensing process. The amendment added a new 
        ``Retained Authority'' provision under which the Secretary of 
        the Interior's role and participation in the relicensing action 
        for the PUD is preserved even though the Federal government 
        would no longer own land within the Project boundary. The BLM 
        does not object to Section 5; as noted previously, we are 
        already in the initial stages of preparing for the relicensing 
        process and will fulfill that obligation.
  <bullet> Disposition of Funds.--BLM recommended that Section 3(f) of 
        the legislation be amended to direct that the proceeds from the 
        sales be deposited in the ``Federal Land Disposal Account'' 
        established by P.L.106-248, the Federal Land Transaction 
        Facilitation Act (FLTFA). This recommendation was adopted.

    Thank you for the opportunity to testify. I will be glad to answer 
questions.
                                s. 2229
    Thank you for the opportunity to testify on S. 2229, the Wyoming 
Range Legacy Act of 2007. The bill provides for the legislative 
withdrawal of 1.2 million acres of land from mineral development, 
subject to valid existing rights, and offers existing lessees an 
opportunity for the voluntary retirement of their lease.
    The Administration supports this bill, and looks forward to working 
with the Congress to address issues such as the potential budgetary 
impact and necessary offsets. The Department does have concerns with 
the bill as drafted, and would like to work with our sister agency, the 
U.S. Forest Service, and the Committee to address those concerns. This 
area contains significant energy resources, and we are concerned that a 
withdrawal from mineral development that is too broad could 
significantly impact the Administration's efforts to ensure access to 
important energy resources. The Department is also concerned that it 
could leave these Federal resources vulnerable to drainage, without 
appropriate compensation to the Federal Treasury and the State, if 
development occurs on adjacent private lands. We would like to work 
with the Forest Service and the Committee to determine appropriate 
boundaries and acreage associated with the withdrawal. For example, one 
issue to consider is whether there could be restrictions on surface 
disturbance, while allowing the Federal resources to be extracted from 
adjacent BLM lands.
    There are currently 76 oil and gas leases held by production and 26 
hardrock mining claims located within or adjacent to the proposed 
withdrawal area. We note that S. 2229 contains language in section 3(a) 
that preserves valid existing rights, a provision we support and 
consider very important for two reasons. First, those companies that 
have existing leases and mining claims should be able to rely upon the 
certainty of those underlying documents in making investment decisions 
critical to the development of the resources. Second, the resources at 
issue are potentially significant. BLM estimates that the 1.2 million 
acre area covered by the bill contains 8.8 trillion cubic feet of 
natural gas and 331 million barrels of oil that are technically 
recoverable using today's technology. The natural gas alone amounts to 
roughly one-third of a year's annual natural gas consumption for the 
entire nation. This production could have a substantial impact on 
royalty revenues that would otherwise be shared by the Federal Treasury 
and the State of Wyoming for the benefit of taxpayers.
    While the bill recognizes valid existing rights for issued leases, 
the bill does not recognize the importance of those oil and gas leases 
that have already been sold at competitive sale, but are awaiting a 
final decision. These leases were offered in accordance with the land 
use planning process. We believe the Federal Government needs to be a 
reliable partner when companies make major financial investments.
    With regard to the provisions in S. 2229 concerning the voluntary 
retirement of leases using non-federal funds, we do not object to the 
concept. However, we have concerns about the methods and processes set 
forth in the bill and suggest a number of amendments. We stand ready to 
work with the Forest Service, the bill sponsors, and the Committee to 
find a solution that will meet the needs of the American public and the 
citizens of Wyoming.
    S. 2229 provides for the withdrawal of approximately 1.2 million 
acres of the Bridger-Teton National Forest (BTNF) from location, entry, 
leasing and patent under the mining law, mineral leasing laws, and 
public land laws, subject to valid existing rights. Also, the bill 
offers existing lessees the opportunity to voluntarily submit a written 
request for the retirement and repurchase of their lease and directs 
that the purchase price be based on the fair market value of the lease 
as determined by an agreed-upon appraisal.
    The bill authorizes the Secretary to accept donations of lease 
interests and to use non-Federal funds to pay for the purchase of the 
lease. It specifies that the Act is not meant to limit compensation 
from a private, State or other source in lieu of, or in addition to, 
receiving compensation under the Act. Presumably, these provisions were 
intended to allow lessees to receive monies directly from outside 
groups and then donate or waive their claim to compensation from the 
Secretary. The acquired leases would be cancelled and made subject to 
the withdrawal.
              mineral resources within the withdrawal area
    The Forest Service is responsible for the surface management of 
National Forest System land; however, the Secretary of the Interior and 
BLM have a vital interest in mineral development as the agency 
responsible for administering the 700 million acres of subsurface 
estate under the Mining Law of 1872 and various mineral leasing acts. 
BLM issues mineral leases upon concurrence of the surface management 
agency and works cooperatively with the agency to ensure that 
management goals and objectives for mineral exploration and development 
activities are achieved, that operations are conducted to minimize 
effects on natural resources, and that the land affected by minerals 
operations is reclaimed.
    The Bridger-Teton National Forest issued the Record of Decision for 
their revised Forest Plan on March 2, 1990. The revised Forest Plan 
provided for leasing of the areas proposed for withdrawal under the 
bill. While the BLM has leases dating back to 1964 within the Wyoming 
Range, approximately 40 leases have been issued under the revised plan. 
Within the proposed withdrawal area, there are 143 issued or pending 
oil and gas leases covering more than 197,000 acres; 76 of these leases 
are currently under production. Bonus bids collected in 2006 on 12 
competitive leases totaled almost $2.6 million. The withdrawal 
provisions in the bill preserve valid rights ``in existence on the date 
of enactment.'' In 2006, twelve parcels were leased with bonus bids 
totaling nearly $2.6 million. Those leases are currently suspended, 
awaiting further NEPA analysis following an IBLA ruling. An additional 
23 leases were sold in Fiscal Year 2006 with bonus bids totaling 
approximately $2.2 million. Those leases were not issued and have been 
placed in a pending status with the money in escrow until the 
additional NEPA work required by the IBLA decision is completed. We 
recommend that the bill be amended to preserve the opportunity for the 
23 leases in pending status to be issued and developed, and that the 
voluntary retirement provisions also apply.
    In addition to oil and gas leases, as noted earlier, there are 26 
mining claims located within or adjacent to the proposed withdrawal 
area as well as one 160-acre sodium lease. While no activity is 
currently taking place on existing claims and the lease described 
above, the claimants are continuing to pay annual maintenance fees and 
the lessee is continuing to pay rental fees to preserve options for 
future development.
                          proposed amendments
    We suggest a number of amendments to the provisions providing for 
the voluntary retirement of existing leases. Section 4 (b) of S. 2229 
states, ``The Secretary may use non-Federal funds to purchase any lease 
from a lessee who requests retirement and repurchase of the lease under 
subsection (a).'' There is no clear indication that the Secretary has 
discretion in whether to purchase the lease if non-Federal funds are 
not available. Furthermore, the bill does not specify who would be 
responsible for funding the appraisals. It is our understanding that 
the intent of the bill is to provide a process by which outside groups 
could fund the voluntary retirement of the leases. We suggest that the 
bill be amended to allow the Secretary to accept the relinquishment by 
lessees of their lease interest and subsequently provide for their 
retirement. The bill should make clear that there is no duty for the 
Secretary to purchase any lease without a donation or other non-Federal 
funds being made available in advance. The Secretary should not be 
involved in the actual collection of donated funds or the repurchasing 
of leases. Compensating a lessee for the voluntary relinquishment of a 
lease should be handled using only private funding, and the Federal 
Government should not be involved in those transactions. We are also 
concerned about the advisability of retiring leases that have already 
been placed into production.
    We would like to point out that the retirement and repurchase 
provisions in the bill only apply to leased minerals. However, the bill 
provides for the withdrawal of this area from location, entry, and 
patent under the mining laws and mineral leasing laws. Thus, these 
mining claimants would not be provided the same option for purchase of 
their interest under the bill.
 environmental best management practices and the technology of mineral 
                           development today
    Our Nation faces a great challenge in meeting its energy needs. We 
consume much more than we produce; this is especially true for oil. We 
are importing about 60 percent of our oil from foreign sources--a 
percentage that is expected to increase to 68 percent by 2025. We need 
to protect our economic and national security by increasing our ability 
to produce more of our energy domestically in a prudent and 
environmentally sensitive way. In 2007, Federal production in Wyoming 
was 34.4 million barrels of oil and 1.36 TCF of natural gas. During 
this same time period, total Federal onshore production was 104.7 
million barrels of oil and 2.8 TCF of natural gas. We appreciate the 
tremendous contribution the state of Wyoming makes to our Country's 
energy security.
    The BLM also appreciates the non-energy uses and values that our 
public lands provide to the American people, such as outstanding 
hunting and fishing opportunities, diverse recreational activities, and 
habitat to a wide array of wildlife. While one option of retaining 
habitat and recreational values in the Bridger-Teton National Forest is 
to withdraw the land from mineral development, other possibilities 
exist. Across the country, hunting and fishing and other recreational 
activities occur side by side with energy and other resource 
development activities. When properly planned, energy development 
activities and resource protection are not mutually exclusive concepts. 
To the contrary, our experience shows that sound stewardship can be 
achieved contemporaneously with energy development. To this end, we 
would like to take this opportunity to highlight the cooperative 
efforts by BLM, surface management agencies, the states, and industry 
to employ new technologies and environmental best management practices 
(BMPs), which have been successful in decreasing the footprint of 
energy development and mitigating the impact of operations on important 
natural resource values.
    For example, the energy industry's drilling technology has now 
evolved to the point where 22 or more deep gas wells can typically be 
drilled side-by-side, 7 feet apart, on a well pad that is no larger 
than the traditional single well pads of the past. This new practice 
significantly reduces the surface footprint of new development by 
eliminating, in this example, the other 21 well pads, roads, and sets 
of utilities. When combined with the use of centralized offsite 
production facilities, the need for roads, well pads, and truck traffic 
is greatly reduced. This is extremely important when it comes to 
protecting wildlife habitat and recreational resources.
    To further reduce the visual footprint of development, new 
facilities can also be screened, painted, and even camouflaged. Full 
interim reclamation of nearly all disturbed areas can help to ensure 
soils stay in place and habitat values are protected during the life of 
development. When further protection is needed, development can also be 
slowly phased, one site at a time, without moving to a new area until 
the first area is operational, gated, and has undergone successful 
interim reclamation. Today's practices are a major advancement from 
those of even three years ago, and we expect the trend to continue.
    Other tools are also available besides withdrawal to ensure non-
surface occupancy of areas with significant environmental and 
recreation values. Moreover, we believe it is possible to consider 
withdrawals more selectively, rather than as a blanket approach.
    These examples of BMP's and the use of continuously evolving 
technology indicate that environmentally conscious development of 
energy resources can occur in a multiple use environment.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                                 s. 832
    Thank you for the opportunity to testify on S. 832, a bill to 
convey approximately 25 acres of lands managed by the Bureau of Land 
Management (BLM) to Turnabout Ranch in Utah. The BLM supports this 
legislation.
                               background
    Turnabout Ranch is both a working ranch and a residential treatment 
center for troubled teens. Located north of Escalante, Utah the ranch 
is adjacent to Grand Staircase-Escalante National Monument (Monument). 
Several years ago, the owners of Turnabout Ranch realized that they 
were using a field that is on BLM-managed lands within the Monument for 
pasture and a corral and approached the BLM about purchasing these 
lands. It is clear that this long-standing trespass was inadvertent. 
(These lands were originally owned by the state of Utah and were 
exchanged to the BLM following the Monument designation under the 
provisions of Public Law 105-335.) These approximately 25 acres, which 
are on the edge of the Monument, are critical to the effective 
functioning of the ranch and treatment center. The BLM cannot undertake 
a sale of this parcel to the Ranch because the acres are within the 
Monument boundary.
    S. 832 provides for a legislated sale of the 25 acres on which 
Turnabout Ranch is in trespass to the ranch for appraised fair market 
value. The bill specifies that the appraisal be completed in accordance 
with the Uniform Appraisal Standards for Federal Land Acquisitions and 
the Uniform Standards of Professional Appraisal Practice. It further 
provides that all costs related to the sale be borne by Turnabout 
Ranch. Finally, following the sale of the land, the boundary of the 
Monument is modified to exclude just these 25 acres from the edge of 
the Monument.
    The BLM has taken a close look at the land proposed for sale to the 
Ranch under S. 832. It is our belief that sale of these lands will not 
undermine the purposes for which the Monument was established. 
Therefore, we support this legislative remedy to clear title issues 
with a suggestion for one very technical modification.
    Thank you for the opportunity to testify.
                                s. 2379
    Thank you for the opportunity to testify on S. 2379, the Cascade-
Siskiyou National Monument Voluntary and Equitable Grazing Conflict 
Resolution Act. While we support the goals of this legislation we 
cannot support some of the specific provisions. We would like the 
opportunity to work with the sponsor and the Committee to address these 
issues.
                               background
    The Cascade-Siskiyou National Monument (Monument) was established 
by Presidential Proclamation on June 9, 2000. Encompassing nearly 
53,000 acres of Federal land managed by the Bureau of Land Management 
(BLM), the Monument is a place of great biological diversity due to its 
location at the confluence of three converging mountain ecoregions--the 
Cascade, Klamath and Eastern Cascade. The proclamation withdrew these 
public lands from a number of uses and limited commercial harvest of 
timber within the Monument ``except when part of an authorized science-
based ecological restoration project.'' Additionally, the proclamation 
directed the Secretary of the Interior to undertake a study of 
livestock grazing within the Cascade-Siskiyou National Monument and the 
effects of grazing on the Monument with specific attention to 
sustaining the natural ecosystem dynamics.
    The BLM has been managing the Monument consistent with the 
proclamation for nearly eight years. A comprehensive management plan is 
currently pending final approval. Additionally, the BLM recently 
completed the mandated studies of livestock impacts within the Monument 
and released them to the public. The findings of these studies are 
currently being evaluated by the BLM, along with other available data, 
to determine whether grazing is occurring consistent with the 
Presidential Proclamation establishing the Monument. Currently 11 
ranchers hold grazing leases within the Monument that authorize use of 
2,714 active animal unit months (AUMs).
    S. 2379, the Cascade-Siskiyou National Monument Voluntary and 
Equitable Grazing Conflict Resolution Act, provides for: a Federal 
buyout of grazing preferences within the Monument; a land exchange 
within the Monument between the BLM and a private landowner; and, the 
designation of approximately 23,000 acres of land within the Monument 
as wilderness. The bill as introduced references maps without dates. It 
is our understanding that it is the sponsor's intention to reference a 
map created by the BLM at the request of his office. This testimony is 
based on that map dated December 12, 2006.
    Section 4 of S. 2379 establishes a program to buy out grazing 
lessees within the Monument, requiring the Secretary (subject to the 
availability of funds) to offer payment of $300 an AUM to ranchers with 
authorized grazing within the Monument. If an individual rancher 
accepts the payment, the Secretary then must terminate the grazing 
lease and permanently end grazing in the allotment or portion of the 
grazing allotment. Donation of grazing leases, and subsequent mandatory 
grazing closures, are also contained in the bill. In addition, the BLM 
is obligated under the bill to construct and maintain fencing to 
exclude livestock from grazing allotments where the BLM may no longer 
lease grazing use. Finally, three grazing allotments that have been 
vacant for over a decade are permanently retired from grazing by the 
legislation.
    The BLM is opposed to Federal government buyouts of grazing permits 
and the permanent retirement of those permits. However, the BLM also 
recognizes the value of working cooperatively and collaboratively with 
local stakeholders to fulfill its multiple use mission on BLM lands. 
The BLM is committed to working with the committee, the sponsors, and 
stakeholders in the spirit of cooperative conservation within our 
existing authority.
    In addition, we are opposed to language obligating the Federal 
government to both construction and maintenance of fencing. Typically, 
fencing decisions are made cooperatively by the BLM and the permittee, 
and the BLM encourages cooperative cost sharing. The BLM's range 
improvement policy requires that the BLM assign maintenance of 
structural range improvements, such as fences, to the permittee who is 
obligated to maintain them. This legislation represents a serious 
divergence from two decades of land management practices.
    Section 5 of the bill provides for a land exchange between the BLM 
and the Box R Ranch. We believe that the public interest would be 
served by this exchange; however, we recommend that the bill be amended 
to ensure that the exchange is consistent with section 206 of the 
Federal Land Policy Management Act regarding government land exchanges, 
including appraisals and equal value exchange. Appraisals should follow 
nationally recognized appraisal standards, such as the Uniform 
Appraisal Standards for Federal Land Acquisitions and the Uniform 
Standards of Professional Appraisal Practice. The owner of Box R Ranch 
is obligated under Section 5 to donate his grazing lease to the Federal 
government. It is unclear if the intent is to value the grazing lease 
as part of the exchange. As noted above, we believe the exchange should 
independently stand on its own.
    The BLM-managed land proposed for exchange is an isolated parcel of 
land surrounded by the Box R Ranch. The private land proposed for 
exchange to the Federal government is important habitat for Jenny Creek 
suckers and redband trout (both sensitive fish species), and its 
acquisition is consistent with the goals of the Monument. We should 
note that both parcels are within the Monument boundary.
    Section 6 of S. 2379, designates approximately 23,000 acres of BLM-
managed land within the Monument as the Soda Mountain Wilderness (this 
includes the present Soda Mountain Wilderness Study Area (WSA)). The 
proposed Soda Mountain Wilderness hosts an unusually high variety of 
species in a geographically small area due to several complex 
biological and geological factors and processes operating 
simultaneously. Ranging from 2,300 feet to 6,000 feet, the proposed 
wilderness area is a jewel of biological variety and encompasses some 
of the most diverse vegetation in the Cascade-Siskiyou National 
Monument. Plant communities include open grassy slopes and meadows, 
hardwood and shrub woodlands, as well as dense mixed conifer and white 
fir forests. The Oregon Gulch Research Natural Area, with its mixed 
conifer Douglas-fir and Ponderosa forest with large Sugar Pine and 
incense cedar, and Scotch Creek Research Natural Area, with steep-sided 
drainages and waterfalls, are within the proposed wilderness. Along 
with one of the highest diversities of butterfly species in the United 
States (as many as 112 different species have been identified within 
the Monument), the area is also home to an extensive population of 
small and large mammals (including black-tailed deer, elk, bear, 
mountain lions and bobcats), as well as widespread fish species in the 
many creeks. The area provides critical habitat for several sensitive, 
rare, threatened, and/or endangered species such as peregrine falcons, 
northern spotted owls, Greene's mariposa lily, Gentner's frittilary, 
Bellinger's meadow foam, redband trout, and the Mardon skipper 
butterfly.
    Congress has the sole authority to designate lands to be managed 
permanently as wilderness. We believe these areas are manageable as 
wilderness, and we support the designation. There are some technical 
issues related to section 6 that we would like the opportunity to 
clarify. In particular, we would like the opportunity to work with the 
sponsor and the Committee on possible minor boundary adjustments to 
ensure efficient manageability and avoid conflicts.
    Section 8 of the bill authorizes appropriations for compensation 
for grazing buyouts, fencing and other costs to exclude cattle from 
allotments that are retired. We oppose this section, and note that the 
amounts authorized appear insufficient to complete the work anticipated 
by the bill and that the BLM does not have alternative sources of 
funding. In addition, the authorized amounts are not included in the 
FY2009 President's Budget request and are not available within current 
Congressional appropriations.
    In addition to the specific issues we have raised, there are a 
number of minor or technical modifications (including mapping issues) 
that we would like to discuss with the sponsor, as well as the 
Committee, before this legislation moves forward.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                                h.r. 838
    Thank you for the opportunity to testify on H.R. 838 which provides 
for the disposal of four parcels of Bureau of Land Management (BLM) 
managed lands in Park City, Utah. As a matter of policy, we support 
working with states and local governments to resolve land tenure and 
land transfer issues that advance worthwhile public policy objectives, 
and we have no objection to the transfer of these specific lands out of 
Federal ownership. The Department of the Interior is mindful that 
legislated land transfers often promote varied public interest 
considerations; part of our role is to help inform Congress and the 
public about the tradeoffs associated with such transfers. In general, 
we support the goals of the legislation, but would be able to support 
the bill only if amended to address a number of issues raised in this 
testimony, particularly the proposed transfer of high-value land 
without compensation to taxpayers.
                               background
    Originally founded as a silver mining town in the 1860s, the last 
of Park City's mines closed in the early 1970s. Today, Park City is 
recognized as one of the premier ski destinations in the country. Many 
of the events for the 2002 Winter Olympics were held in Park City which 
is home to three elite resorts: Park City Mountain Resort, Deer Valley 
Resort and the Canyons Resort. Growth in Park City and Summit County 
has been monumental over the last few decades, and housing and land 
prices are among the highest in Utah.
    The BLM manages four parcels of Federal land within Park City, in 
the Deer Valley area. They range in size from a half acre to just over 
91 acres. These parcels are interspersed with high end housing and have 
encumbrances on them including old unpatented mining claims, rights-of-
way, and old mining houses in trespass. Additionally, the BLM has a 
Recreation & Public Purposes (R&PP) lease with the city on the largest 
of the parcels (Parcel 16, the Gambel Oak Parcel). This lease was first 
issued to the city in 1985 for the purpose of the planned development 
of recreational facilities. That lease is currently a source of 
contention between the BLM and Park City because the City's R&PP 
development plans have not been completed, and there is no legal public 
access to the parcel. The BLM understands that Park City has 
reconsidered its plans and wishes to maintain the land for open space, 
not public recreation. Open space that does not provide any additional 
public value, such as recreational facilities, is not an allowed use 
under the R&PP Act.
    Section 1 of H.R. 838 proposes to convey to Park City, Utah all 
right, title and interest of the United States to two parcels of land 
in the Deer Valley area. These parcels are generally known as the White 
Acre Parcel (Parcel 8) and the Gambel Oak Parcel (Parcel 16); together, 
they comprise just over 112 acres. The White Acre Parcel is public land 
currently identified for disposal through BLM's land use planning 
process, while the Gambel Oak Parcel is currently under an R&PP lease 
to the city. The bill directs that the lands be maintained by the city 
as ``open space and used solely for public recreation purposes . . .''. 
Finally, this section requires Park City to pay the Secretary of the 
Interior an amount consistent with recreational pricing under the R&PP 
Act. Under the R&PP Act, a conveyance to governmental entities for 
recreational purposes is without cost.
    We should note that if the lands were to be administratively 
patented to Park City under the R&PP Act, ``open space'' would not be 
an acceptable use of the lands unless qualifying recreational 
facilities were part of the proposal. It should be noted that these are 
high value lands. If these lands were sold to Park City for open space 
under authority other than the R&PP Act, the Federal government would 
be compensated at fair market value.
    Furthermore, the legislation appropriately provides for the 
transfer of the lands subject to valid existing rights. The Gambel Oak 
Parcel has 11 unpatented mining claims held by three different 
claimants. No validity exams have been undertaken on these claims under 
a previous agreement with Park City. The BLM rarely conveys land with 
these types of substantial, valid existing rights, but it is not 
unprecedented. We note that the parcel also contains a number of 
rights-of-way. BLM regularly conveys land subject to rights-of-way.
    Furthermore, we recommend the addition of a reversionary clause at 
the discretion of the Secretary. Such a clause would ensure that the 
Federal government retains a reversionary interest in these lands if 
they are not used for the specific purposes for which they are 
transferred.
    Section 2 of the bill directs the sale of two additional parcels, 
Parcel 17 (0.5 acres) and Parcel 18 (3.09 acres) at auction and 
requires that the sale follow the Federal Land Policy and Management 
Act, except for planning provisions in sections 202 and 203. There are 
a number of encumbrances on these parcels. Specifically, Parcel 18 
includes a portion of one mining claim as well as several late 19th 
century buildings that are listed on the National Register of Historic 
Places. Ownership status of these buildings remains unresolved. Several 
of these houses are currently occupied in trespass, and one is the 
subject of an outstanding color-of-title ruling by the Interior Board 
of Land Appeals (IBLA). Last fall an additional color-of-title claim 
was filed against the remaining three buildings. Additionally, the 
parcels contain a number of existing rights-of-way. The legislation 
provides for the auction subject to valid existing rights.
    It is important to note that the existing mining claims, trespass 
actions, title disputes, and related activities on these lands may 
significantly complicate a conveyance. In particular we recommend 
removing from the auction the piece of land in Parcel 18 on which IBLA 
has determined a color-of-title action.
    Section 3 provides for the deposit of the receipts from the sales 
under section 2 into a special account in the Treasury. These funds 
would then be available for reimbursement of costs associated with the 
sales and environmental restoration projects on public lands in the 
general area. We are concerned that disposition of receipts in this 
manner would circumvent BLM's normal budget process which takes into 
account the resource needs of BLM offices in each state. We suggest 
that any receipts from this land transfer either be directed to the 
Federal Treasury or be deposited in the land sale account already 
established under the Federal Land Transaction Facilitation Act 
(FLTFA), where the proceeds could be directed to priority acquisitions 
of inholdings, primarily within the State of Utah.
    In addition, the Administration does not support section 3(b), 
which allows any amounts deposited in the special account to earn 
interest. The Department of the Treasury strongly opposes such 
provisions, which effectively require the Treasury to borrow more funds 
to pay this interest.
    Thank you for the opportunity to testify, I will be happy to answer 
any questions.

    Senator Wyden. Thank you very much, and I know Senator 
Cantwell feels very strongly about her legislation, the 
Snoqualmie Pass Fire Station Conveyance.
    I'm kind of mystified about your opposition on this one, 
Ms. Simpson. My understanding is that this involves an acre and 
a half, is that right?
    Ms. Simpson. That's correct. It went from 3 acres to 1.5 
acres in the transfer from the House over to the Senate.
    Senator Wyden. OK. So, the Department says it opposed the 
conveyance because it doesn't require market value 
compensation, the Fire District was willing to lease the parcel 
at market value from the Forest Service, but was refused.
    So, the question is, why would the Forest Service be 
unwilling to lease the parcel to the Fire District, since that 
would seem to address both the Department's concern about 
market value, and the Fire District's need?
    Ms. Simpson. My understanding from the Forest Service is 
that they are opposed to a lease because they want the Fire 
District to have the property in perpetuity. We already have 
the ability to convey it to them at fair market value.
    Senator Wyden. That's the photo, over there, and boy, this 
sure doesn't look like what Senator Cantwell wants to do is 
going to be the end of Western civilization. So, I sure hope 
that you all can work it out, OK?
    Ms. Simpson. We're working with the District on funding 
sources.
    Senator Wyden. Good.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I'll ask Ms. Simpson, if I could, and then maybe Mr. 
Johnson, too. Are any of you familiar with the similar 
withdrawal that's occurred--this is regarding S. 2229--and the 
Front Range in Montana, or the program in New Mexico, and if 
you could share your impression on how that process worked, as 
perhaps a model for the Wyoming Range?
    Mr. Johnson. I'm not sure that there's a direct comparison 
in terms of what we're trying to, what you've proposed to do 
here, or that we ever were asked to testify on that bill, but I 
think there are obviously some comparisons in terms of your 
intentions of trying to protect the area, and obviously the 
Rocky Mountain Front Range.
    Ms. Simpson. With respect to the Forest Service, at that 
time we advocated very strongly for a continuation of the 
public process that was going on, that would have involved an 
amendment to the forest plan that was underway. We wanted to 
see the outcome of that. Legislation was passed before the plan 
amendment was completed, so there is some similarity, in the 
fact that there is an ongoing public process.
    Senator Barrasso. Mr. Johnson, the S. 2229 allows for valid 
and existing leases to be purchased and retired based on fair 
market value. Does your agency have experience and expertise to 
determine fair market value of existing leases? Do you feel 
that the Department can act with prudence and accountability, 
charged with this?
    Mr. Johnson. Senator, if the intention in the bill would be 
to have a non-Federal transaction with a non-Federal parties, 
it would be the view of the Department that that transaction 
ought to take place outside, without the Secretary playing the 
role of determining what that value might be.
    The Department certainly does have an Office of Appraisal 
Services that plays that role at the Department, but if it is a 
non-Federal transaction with non-Federal parties, we believe 
that the Secretary ought not to play the role of negotiating or 
deciding what that value ought to be.
    Senator Barrasso. Finally, Mr. Chairman, I would say that I 
appreciate hearing from both them the words ``the 
Administration supports the bill.'' There are 40 people behind 
you that if you hadn't said that, they'd have--I'm sure--wanted 
to visit with you and encouraged you to have done that.
    I'll be happy to carefully review your written testimony 
and have my staff work with you to ensure that I completely 
understand your concerns, and see if we can address those.
    Senator Wyden. Senator Smith, any questions?
    Senator Smith. Let me just ask a couple of you, Mr. 
Johnson. As I understand it on the Cascade-Siskiyou Monument--
if the BLM studies show the impact of commercial livestock 
grazing to be incompatible with protecting the Monument's 
native species and natural features, the BLM must retire those 
grazing allotments on the Monument. So, then the agency begins 
this review of the compatibility of grazing within the 
Monument. Can you tell us what you all have picked up about 
this review? In effect, give us a summary of the results?
    Mr. Johnson. We have, Senator, as you know, the 
proclamation does create a unique set of circumstances, you've 
quoted. We recently released the livestock impact studies that 
were conducted and made those available to the public. We are 
in the process of analyzing some of the data, and the process 
that we will proceed with is to subsequently conduct rangeland 
health assessments, which is currently ongoing based upon some 
of that data, and then proceed with a NEPA process, and then 
ultimately a determination of grazing compatibility.
    Senator Wyden. One other question for you about the 
Cascade-Siskiyou, Mr. Johnson. Some folks from Lincoln, our 
community of Lincoln, have contacted us about a boundary issue 
that was recently identified, but dating back to the 1920s that 
could be resolved by a land exchange. This, again, is another 
very small one--something like under 2 acres--between the 
landowners and the Monument. They're aware that BLM land 
exchanges normally are expensive and time-consuming, and my 
question is, are you aware of this particular land exchange, 
and if you are, would you support it, and support our getting 
it done in a timely kind of fashion?
    Mr. Johnson. I think the city--is the Deerfield Learning 
Center, I think? Just recently I was made aware of that, and I 
think we can work with you and your staff to make sure that we 
find a resolution of that, so certainly.
    Senator Wyden. Great. We want to be able to move on this 
quickly. Could you do that within, say, the next 2 weeks?
    Mr. Johnson. Yes, Senator, we will work with you on that.
    Senator Wyden. OK, very good. Anything either of you would 
like to add further?
    We'll excuse you at that time, thank you both for your 
service.
    Our next panel, Andy Kerr, Consultant, Soda Mountain 
Wilderness Council, Mike Dauenhauer of Ashland, Oregon, Claire 
Moseley, Executive Director of the Public Lands Advocacy, Gary 
Amerine, Citizens Protecting the Wyoming Range, and Chris 
Caviezel, and I hope I'm pronouncing that right. If you all 
will come forward.
    Welcome to all of you, and I didn't get a chance to give a 
formal welcome to you, Andy Kerr, and Mike Dauenhauer. We're 
really glad both of you are here.
    I also want to note that Dave Willis, who many call the 
Father of the Cascade-Siskiyou National Monument was taken ill, 
wasn't able to come here today, but he has just put hours and 
hours and hours into working for this particular vision.
    Andy, we really appreciate your good work.
    Mike, your efforts--I think this is exactly the kind of 
partnership that the Governor of Wyoming was talking about--the 
Western-style partnerships that bring people together.
    So, why don't the two of you start, take your 5 minutes, 
we'll go right down the row, and we've got folks from 
throughout the West, and we're always glad in this committee to 
have Westerners, so, let's begin with you, Mr. Kerr.

  STATEMENT OF ANDY KERR, CHAIRMAN, CONSULTANT, SODA MOUNTAIN 
                WILDERNESS COUNCIL, ASHLAND, OR

    Mr. Kerr. Thank you, Mr. Chairman--to the Soda Mountain 
Wilderness Council, and Dave Willis would want to have me pass 
on his regrets that he couldn't make it, and his appreciation 
to both you and Senator Smith for your work on this 
legislation, and he'll be back in the saddle soon.
    This legislation--we're obviously in support of it. It has 
three major elements--the designation of the Soda Mountain 
Wilderness land exchange, to consolidate public ownership in 
the Monument, and to enhance the Monument values, and the big 
part of it is the voluntary and equitable resolution of what I 
would view as the inherent incompatibility of livestock grazing 
in a--one of the Nation's premier National Monuments, set aside 
for ecological purposes.
    So, all three of those components are important, and would 
further the purposes of the National Monument and be in the 
public interest.
    My written statement has detailed background materials on 
the proposed Soda Mountain Wilderness. I will summarize that 
it's kind of where East meets West, and North meets South, and 
that means that where the Cascades, and the Coastal Forest, and 
the California Chaparral, and the Oregon desert, and the dry 
forests of the Klamath and Siskiyou Mountains come together. As 
a result of this ecological collision, there's a lot of 
biological diversity and important natural value.
    This proposed wilderness also includes 7 miles of the 
Pacific Crest Trail, it's the home to 10 endangered species. It 
has one of the highest diversities of butterflies--which is 
related to the diversity of flowers. It has a very high mollusk 
diversity, it's habitat for a unique sub-species of redband 
trout, the Jenny Creek red-band trout, and it is the location 
of Pilot Rock, which is a landmark used by people in the area 
of the Memorial.
    So, the wilderness is--there's not a lot of conflicts, 
there's no private in-holdings, there's--it's already dedicated 
to non-commodity purposes inside the National Monument. There 
aren't any mining claims to worry about, grazing would be 
resolved by another part of the bill. The area is closed by the 
Monument Proclamation to off-road vehicles and to industrial 
logging. So, the Wilderness is very valuable, ecologically and 
recreationally, and it doesn't have a lot of resource 
conflicts.
    There's been editorial support by Oregon's largest daily, 
The Oregonian, but also The Register Guard, The Portland 
Tribune, the Daily Tidings, and other newspapers, so we think 
there's a lot of support for that.
    The Soda Mountain Wilderness Land Exchange is the second 
component of the bill. More information in my statement--in 
summary, we believe--conservationists believe that it is in the 
public's interest. It furthers the purposes of the Monument, it 
provides more essential spawning habitat for the Jenny Creek 
redband trout, it would protect the Jenny Creek Canyon, and it 
would also be a way to resolve the livestock grazing issue on 
the Sandy Creek grazing. So, the land exchange is a good idea.
    The grazing lease retirement, we also think is very 
important. It's, we think, ecologically imperative and 
economically rational, and also fiscally prudent and socially 
just, and politically pragmatic.
    The Monument Proclamation requires that if grazing is found 
to be in conflict, that the grazing must end. However, we fear 
that BLM will take a different view, and they will seek to 
modify the leases, by limiting the intensity of the duration, 
or the timing, or the frequency of the method of the livestock 
grazing in an attempt to both preserve objects of biological 
interests as required by the Monument Proclamation, and to 
continue livestock grazing. We think that is not what the 
Proclamation requires, and we also believe--the ranchers, when 
they tell us, that they say that additional restrictions on 
this livestock grazing will make it infeasible to continue.
    So, we have come together with a solution that we think can 
work, that can provide for permanent retirement of the 
livestock grazing at the rancher's voluntary acceptance, in 
exchange for Federal compensation. This has been done before by 
Congress--in extraordinary circumstances--Congress has bought 
out grazing leases before.
    It has done it in Capitol Reef National Park, as recently 
as 1998 it did it in Idaho in the expansion of a bombing range, 
and it did it in--the chair and Senator Smith are both involved 
in the Scenic Mountain legislation, where a grazing buyout of a 
grazing permit was wrapped up in a rather complicated land 
exchange.
    So, it's been done--it's been done in extraordinary 
circumstances, and I would argue that this is an extraordinary 
circumstance in that the Presidential Proclamation for the 
National Monument changed the rules on a small set of ranchers. 
It's not a broad change in grazing policy, or something, that 
applies to all ranchers, but this is a narrow set.
    So, we think that it is appropriate for Congress to 
compensate them, and it would be cheaper for the taxpayers to 
do that. It would avoid litigation, the cost to the government, 
the cost to the parties--so we think that they should, we think 
that the price of $300 in AUM is fair, because it's--while it's 
above market value, it's comparable to replacement value.
    I'll use an analogy of when you're--you total your car, you 
get the market value of the car, but when you total your house, 
through a hurricane or a flood or something like that, you get 
replacement value. Because it's more likely that you're going 
to total your car, that it is--the totaling of your house is a 
much rarer event, and more serious. We think this is a serious 
event for the ranchers, in that they deserve something 
approximating replacement value.
    So, in conclusion, you know, thanks both to Senator Smith 
and Senator Wyden for introducing this legislation, thank you 
for the hearing today. We've heard the testimony of the BLM 
and, I think that their concerns--many of them, at least--can 
be addressed without much work.
    So, thank you.
    [The prepared statement of Mr. Kerr follows:]
   Prepared Statement of Andy Kerr, Consultant to the Soda Mountain 
                     Wilderness Council, on S. 2379
          With towering fir forests, sunlit oak groves, wildflower-
        strewn meadows, and steep canyons, the Cascade-Siskiyou 
        National Monument is an ecological wonder, with biological 
        diversity unmatched in the Cascade Range. This rich enclave of 
        natural resources is a biological crossroads--the interface of 
        the Cascade, Klamath, and Siskiyou ecoregions, in an area of 
        unique geology, biology, climate, and topography . . . . The 
        monument is home to a spectacular variety of rare and beautiful 
        species of plants and animals, whose survival in this region 
        depends upon its continued ecological integrity.

            Proclamation Establishing the Cascade-Siskiyou National 
        Monument\1\
---------------------------------------------------------------------------
    \1\ The Proclamation Establishing the Cascade Siskiyou National 
Monument is included here as Attachment 1.
---------------------------------------------------------------------------
            June 9, 2000 (Attachment 1)*
---------------------------------------------------------------------------
    * Attachments 1-5 have been retained in subcommittee files.

    My name is Andy Kerr. I am a consultant to the Soda Mountain 
Wilderness Council on matters relating to the proposed Soda Mountain 
Wilderness, as well as livestock grazing and other issues in the 
Cascade-Siskiyou National Monument. I am filling in today in place of 
Dave Willis, who has contracted the flu.
    The Klamath-Siskiyou ecoregion in southwest Oregon and northwest 
California is the most botanically diverse coniferous forest in North 
America, if not the world--a veritable Noah's Ark of botanical 
diversity. The ecoregion is relatively undeveloped and relatively high 
elevation. It serves as a land bridge between the Cascade Mountains and 
the Great Basin, and it genetically connects the mountainous Klamath-
Siskiyous with the rest of the West. The Cascade-Siskiyou National 
Monument area is the ecological loading dock for the botanically 
diverse Klamath-Siskiyou ark--that is the scientific object of interest 
for which the monument was proclaimed. And that is why the monument 
Proclamation refers to the area as ``an ecological wonder'' and ``a 
biological crossroads.''
    The Cascade-Siskiyou Monument's Proclamation states that the area 
``is home to a spectacular variety of rare and beautiful species of 
plants and animals whose survival in this region depends upon its 
continued ecological integrity.''
    Thank you, Chairman Wyden and Senator Smith, for introducing S. 
2379, the Cascade-Siskiyou National Monument Voluntary and Equitable 
Grazing Conflict Resolution Act. If enacted into law, this legislation 
will improve ecological and watershed protection and restoration within 
the national monument. The legislation includes three major components:

          1. designation of the Soda Mountain Wilderness;
          2. a land exchange to consolidate public ownership in the 
        monument and enhance monument values; and
          3. voluntary and equitable resolution of the inherent 
        incompatibility of livestock grazing in one of our nation's 
        premier wild areas.

    All three components are politically inter-dependent and all three 
further the purposes for which the Cascade-Siskiyou National Monument 
was established.
                      the soda mountain wilderness
    One of the most striking features of the Western Cascades in this 
area is Pilot Rock, located near the southern boundary of the monument. 
The rock is a volcanic plug, a remnant of a feeder vent left after a 
volcano eroded away, leaving an outstanding example of the inside of a 
volcano. Pilot Rock has sheer, vertical basalt faces up to 400 feet 
above the talus slope at its base, with classic columnar jointing 
created by the cooling of its andesite composition.
    Proclamation Establishing the Cascade-Siskiyou National Monument 
June 9, 2000
    Background materials about the proposed Soda Mountain Wilderness 
are attached to this statement (Attachment 2).*

  <bullet> The proposed Soda Mountain Wilderness is:

    --at the intersection of many divergent ecosystems and landscapes, 
            including the Siskiyou and Cascade mountain ranges, the 
            Oregon Desert, California chaparral, and High Cascade and 
            coastal westside forests;
    --home to ten rare, threatened or endangered species, including 
            northern spotted owl, Greene's Mariposa lily, Genter's 
            fritillary, Ashland thistle, pygmy monkey flower, clustered 
            lady's slipper, green-flowered wild ginger and Siskiyou 
            fritillary;
    --host to 7 miles of the Pacific Crest National Scenic Trail;
    --renowned for one of the highest diversities of butterflies in the 
            country (120+ species);
    --noted for one of the highest diversities of mollusk species in 
            the country;
    --habitat for Jenny Creek redband trout, western pond turtle, elk, 
            black bear, bobcat, golden eagle, goshawk, prairie falcon, 
            and peregrine falcon;
    --critical deer winter range (``best of the last'' in the region);
    --remarkably botanically diverse; and
    --home to Pilot Rock (elev. 5,910'), a columnar basalt landmark 
            visible from throughout the region.

  <bullet> Major tree species in the proposed wilderness include 
        Douglas-fir, ponderosa pine, Oregon white oak, California black 
        oak, incense cedar, western juniper, bigleaf maple, sugar pine, 
        madrone, Douglas hawthorn, shining and arroyo willows, mock-
        orange, Douglas-spirea, Oregon ash, white alder, black 
        cottonwood, birch leaf mountain mahogany, and quaking aspen.
  <bullet> Establishing the Soda Mountain Wilderness would benefit 
        current and future generations of Oregonians.
  <bullet> Congress has designated backcountry Wilderness in numerous 
        other national parks and monuments.
  <bullet> Designating the wilderness would conflict with few, if any, 
        commodity or other uses. The proposed wilderness is:

    --entirely federal public land (no private inholdings);
    -- 23,000 acres entirely within the 53,000-acre Cascade-Siskiyou 
            National Monument in Oregon (already dedicated to non-
            commodity purposes);
    --already withdrawn from potential mineral development (per CSNM 
            proclamation; and there are no historic mineral claims);
    --would not conflict with livestock grazing (grazing would be 
            eliminated via voluntary grazing lease retirement);
    --already closed to off-road vehicles (per CSNM proclamation);
    --already closed to commercial logging (per CSNM proclamation); and
    --is little-used by mountain bikers (the CSNM proclamation closed 
            the former Schoheim Jeep ``Road'' to all ``mechanized'' 
            vehicles and the CSNM management plan closes most of the 
            remainder of the trails in the area to mechanized use).

  <bullet> Designating the Soda Mountain Wilderness would have no 
        effect on the Northwest Forest Plan.
  <bullet> The proposed Soda Mountain Wilderness includes:

    --Oregon Gulch Research Natural Area (1,056 acres);
    --Scotch Creek Research Natural Area (1,800 acres);
    --Pacific Crest National Scenic Trail (7 miles); and
    --a BLM-Recommended Wilderness Area endorsed by President George 
            H.W. Bush (6,447 acres).

  <bullet> Wilderness designation is favored by editorials published by 
        the Ashland Daily Tidings, Medford Mail-Tribune, Eugene 
        Register-Guard and the Portland Oregonian.
                       the rowlett land exchange
          All Federal lands and interests in lands within the 
        boundaries of this monument are hereby appropriated and 
        withdrawn from all forms of entry, location, selection, sale, 
        or leasing or other disposition under the public land laws, 
        including but not limited to withdrawal from location, entry, 
        and patent under the mining laws, and from disposition under 
        all laws relating to mineral and geothermal leasing, other than 
        by exchange that furthers the protective purposes of the 
        monument. (emphasis added)

            Proclamation Establishing the Cascade-Siskiyou National 
        Monument
            June 9, 2000

    Background information about the proposed Rowlett Land Exchange is 
attached to this statement (Attachment 3).* In summary, the proposed 
land exchange:

  <bullet> is in the public interest;
  <bullet> furthers the purposes for which the national monument was 
        established;
  <bullet> adds approximately two-thirds of a mile of essential 
        spawning habitat for the Jenny Creek redband trout in Keene 
        Creek and Lincoln Creek to the national monument (the trout is 
        an object of biological interest identified in the monument 
        proclamation).
  <bullet> would protect the very scenic and highly visible Keene Creek 
        Canyon;
  <bullet> has the added benefit of retiring livestock grazing on the 
        Box R Allotment.

    The parcel sought for public ownership is generally forested and is 
contiguous with BLM land to the north.
                        grazing lease retirement
          The Secretary of the Interior shall study the impacts of 
        livestock grazing on the objects of biological interest in the 
        monument with specific attention to sustaining the natural 
        ecosystem dynamics. Existing authorized permits or leases may 
        continue with appropriate terms and conditions under existing 
        laws and regulations. Should grazing be found incompatible with 
        protecting the objects of biological interest, the Secretary 
        shall retire the grazing allotments pursuant to the processes 
        of applicable law. Should grazing permits or leases be 
        relinquished by existing holders, the Secretary shall not 
        reallocate the forage available under such permits or for 
        livestock grazing purposes unless the Secretary specifically 
        finds, pending the outcome of the study, that such reallocation 
        will advance the purposes of the proclamation. (emphasis added)

            Proclamation Establishing the Cascade-Siskiyou National 
        Monument
            June 9, 2000

    The Cascade-Siskiyou National Monument Voluntary and Equitable 
Grazing Conflict Resolution Act provides that--if eligible lessees 
voluntarily relinquish their interest in federal public land livestock 
grazing in and near the national monument--the federal government will 
compensate them and permanently close the allotments, or portions 
thereof, to livestock grazing.
    To local public lands ranchers, the proposed grazing lease 
retirement program is the most important component of this legislation. 
The Soda Mountain Wilderness Council supports a fair and equitable way 
to end livestock grazing in and near the national monument.
    Grazing lease retirement in and near the national monument is 
ecologically imperative, economically rational, fiscally prudent, 
socially just and politically pragmatic.
              proclamation-required grazing impacts study
    The monument proclamation states:

          The Secretary of the Interior shall study the impacts of 
        livestock grazing on the objects of biological interest in the 
        monument with specific attention to sustaining the natural 
        ecosystem dynamics . . . . Should grazing be found incompatible 
        with protecting the objects of biological interest, the 
        Secretary shall retire the grazing allotments pursuant to the 
        processes of applicable law.

    The government grazing studies are complete, as are additional 
studies by the National Center for Conservation Science and Policy. The 
scientific findings are clear: livestock grazing is incompatible with 
the protection of objects of biological interest and sustaining natural 
ecosystem dynamics in the monument. (See Attachment 4* for a summary of 
the grazing impact studies.) To conservationists, the language of the 
proclamation is clear: if continued livestock grazing conflicts with 
protecting monument values, the former must end.
    However, BLM is likely to have a different view. The agency will 
probably seek to modify the grazing leases by limiting the intensity, 
duration, timing, frequency and/or method of livestock grazing in an 
attempt to both preserve objects of biological interest in the monument 
and continue livestock grazing. New grazing restrictions would render 
continued grazing more costly and difficult, and perhaps untenable, in 
the monument.
                 ``permanent'' grazing lease retirement
    The proclamation also states:

          Should grazing permits or leases be relinquished by existing 
        holders, the Secretary shall not reallocate the forage 
        available under such permits or for livestock grazing purposes 
        unless the Secretary specifically finds, pending the outcome of 
        the study, that such reallocation will advance the purposes of 
        the proclamation.

    This language provides for grazing lease retirement, but it does 
not necessarily mandate permanent lease retirement. The modification of 
grazing leases to reduce grazing impacts in the monument will be 
controversial--and interminable. Congress should make clear that, if 
grazing lessees voluntarily waive their interest in their federal 
grazing leases, domestic livestock should never again darken the door 
of the loading dock to nature's ark.
 congressional policy for voluntary grazing permit/lease retirement in 
                      extraordinary circumstances
    Congress has authorized and funded voluntary grazing permit/lease 
retirement in extraordinary circumstances in the past (see Attachment 
5).* Congress has compensated ranchers for the loss of federal grazing 
permits/leases in a national park, a bombing range, and a unit of the 
National Landscape Conservation System:

  <bullet> Capitol Reef National Park, Utah
  <bullet> Juniper Butte Bombing Range, Idaho
  <bullet> Steens Mountain Cooperative Management and Protection Area, 
        Oregon

    The possibility of continued grazing in the Cascade-Siskiyou 
National Monument is at least as extraordinary as the examples of 
Congressionally authorized permit/lease retirement cited here.
    In addition, for more than 50 years, whenever the Department of 
Defense has taken public lands for national security purposes, a 
statute has required that the Department compensate any affected 
grazing permittee/lessee for lost grazing privileges. The military has 
also bought out federal grazing permits/leases on public land to 
mitigate for harm caused to endangered species from military activities 
on military reservations.
                         to pay or not to pay?
    In other cases, Congress has only provided that grazing permits/
leases voluntarily relinquished to the federal government would be 
permanently retired--Congress did not provide compensation to 
participating ranchers. In these cases, a third party compensated the 
ranchers. The Soda Mountain Wilderness Council believes that it is fair 
and just for Congress to pay grazing lessees who voluntarily waive 
their interests in grazing leases in and near the Cascade-Siskiyou 
National Monument. While munificent to the affected ranchers, it still 
cheaper for the taxpayers--considering the amount of ongoing subsidies, 
defending against future litigation, and other costs associated with 
continued grazing.
                            how much to pay?
    S. 2379 would compensate participating lessees at a rate of $300/
AUM. While this amount is above market value, it is comparable to 
replacement value of the lost forage. When a car is totaled, the 
insurance company pays the owner market value. When a hurricane or a 
flood wipes out a house, the insurance company pays replacement value. 
The choice between market value and replacement value is based on the 
likelihood of occurrence of the associated event. Cars are totaled far 
more often than houses. The federal government rarely cancels federal 
grazing leases. Voluntary grazing lease retirement is a rare event.
                          a fair and just act
    Many of the families that have ranched in and near the Cascade-
Siskiyou National Monument have done so for generations. With the 
monument proclamation, the federal government has changed the rules on 
this group of public lands ranchers. Some would like to reconfigure 
their operations to rely solely on private land; others are near (or 
past) retirement. It's not just a business for them, but a way of life. 
Voluntary lease retirement would allow each ranching family to realize 
their own goals.
                               conclusion
          The Soda Mountain area is more than just botanically 
        interesting; it is an important link for migration, dispersion, 
        and the process of evolution in the Northwest.

            Dr. Tom Atzet, U.S. Forest Service
            Southwest Oregon Area Ecologist
            March 22, 1994

    Senator Smith, with the cooperation of Senator Wyden, has crafted 
S. 2379 in a way that can work for the local conservation and livestock 
grazing communities. The legislation furthers the public interest and 
the purposes for which the Cascade-Siskiyou National Monument was 
established. Enactment of S. 2379 will enhance the protection and 
restoration of a botanically diverse ecoregion that serves as a loading 
dock to the Klamath-Siskiyou ark. The legislation is fair to ranchers 
and it will benefit future generations of Oregonians and all Americans.
    Thank you.

    Senator Wyden. Thank you very much.
    What we're going to do is break from our order. Senator 
Cantwell is here, and it is really a hectic day, even by Senate 
standards, and the Senator has been a very valuable member of 
this subcommittee and we have already talked a bit, Senator, 
about your fine piece of legislation, and how it is that the 
Administration somehow is under the judgment that this 1.5 acre 
effort is so difficult to consummate.
    But, I think you will say it much better than any of us 
possibly could, so why don't we let you hold forth with your 
opening statement, and glad you could make it.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and I thank you 
for holding this hearing, and for that indulgence.
    We are at a hearing today on a bill that would transfer an 
acre and a half of forestland to the Snoqualmie Pass Fire 
District, to help them build a new fire station, and we're--I 
want to welcome the Fire District Commissioner Mr. Chris 
Caviezel here, and thank you for working so hard on behalf of 
the people of Snoqualmie Pass.
    People may have seen Snoqualmie Pass in the news lately, 
because we got about 15 feet of snow there, and we've had--for 
the first time in a long time, we actually had to close the 
Pass to cross-traffic just to make sure that the residents of 
our State weren't subject to avalanche conditions.
    So, I also want to thank the chairman for holding this 
hearing on H.R. 523, a bill that would help Douglas County PUD, 
as well.
    But, back the Snoqualmie Pass--obviously it serves a 
portion of two counties on both sides of the Cascade, and it's 
along Interstate 90, but it's a really a small community, only 
350 people. But when it's ski season, it goes much bigger, and 
the estimates are that it could be 20,000 patrons, on a busy 
weekend. So, the Department of Transportation estimates that 
60,000 vehicles travel through that Fire District on a busy 
day, so it makes it one of the busiest mountain highways, 
really, in the country.
    The area is a major transportation corridor for goods and 
services between eastern and western Washington, that's why 
when this shutdown of I-90 at the Pass caused--I don't know 
what the estimates were, but it was something well into the 
millions a day of lost economic revenue because of that.
    So, the all-volunteer fire department averages, I think 
something like 300 calls--not to steal from your testimony--
but, with about a 10 percent annual increase in the volume of 
calls, which is more than triple the amount of calls, a typical 
all-volunteer fire department would have to respond to in a 
year.
    So, 84 percent of those incidents are from non-taxpaying 
residents, and consequently the fire district has a 
characteristic, really, of a large city; and the limited 
resources of a small community.
    So, that's the challenge that we face and this--in the 
recent years--this area has been a scene of major winter 
storms, multi-vehicle accidents and--as I mentioned--
avalanches. So, the first--the fire district here is the first 
responder, and that means that it's not uncommon for the 
community, really, to be isolated, because of those avalanches 
and problems, for hours or even days at a time. So, they have 
to have the resources to respond to this swollen community.
    So several thousand people can be stranded at the Pass 
during these periods, when the Pass is closed, and while the 
Department of Transportation works quickly to try to get the 
roads back open--it can be very taxing on local resources.
    For decades the fire district has been leasing its current 
site from the Forest Service, and they operate out of an aging 
building, which really wasn't even designed, I think, as a fire 
station. So, through their hard work and dedication, they have 
served the community, and I think the fire district, what we 
need to do is, step up here and resolve this issue.
    The parcel is on Forest Service property, immediately 
adjacent to a freeway interchange, between Frontage Road, and 
the Interstate itself. So, it's right in the middle of already 
developed land. The parcel was formerly a disposal site, during 
the construction of the freeway, and is now a gravel lot.
    So, it's my understanding that there are offers to support 
the construction of the new fire station, so I appreciate the 
attention to this issue. My colleagues here, from the 
Northwest, along with my colleague Senator Murray, in reviewing 
this legislation before us, and continuing to work with this 
community to try to help get a resolution for a community that 
is trying to deal with its own problems, but needs the 
resources of being located right in the middle of this forest 
area.
    Thank you.
    Senator Wyden. I thank the Senator. I and Senator Bingaman 
will do everything we can to help you, and to move this 
quickly. You and your constituents have done a good job--you 
look at that picture and it is hard to see why the Federal 
Government is making such a commotion out of something that 
really looks like a parking lot. What you want to do is get 
this conveyance up and in place.
    We appreciate your good work, and we'll try to get this 
moving quickly.
    OK, our next speaker, Mike Dauenhauer, and Mike--thanks for 
coming, a long trip, and please take your 5 minutes, or so, and 
tell us your thoughts.

  STATEMENT OF MIKE DAUENHAUER, DAUENHAUER RANCH, ASHLAND, OR

    Mr. Dauenhauer. Thank you very much for having me.
    My name is Mike Dauenhauer, and I'm here today as one of 16 
ranchers who hold valid grazing leases in and near the Cascade-
Siskiyou National Monument in Jackson County, Oregon.
    I've been a cattle rancher my whole life, and I currently 
serve as the president of the Jackson County Stockman's 
Association. I'm here to urge Congress to enact S. 2379 into 
law, and resolve the conflicts that arose with the creation of 
the Monument in June 2000.
    The affected ranchers have the support of the County 
Commissioners, State and local Cattlemen's Association, State 
representatives, our Senators and our Governor. Evidence of 
that is attached to my written statement.
    Since the designation of the Monument in 2000, our future 
as cattle rangers in and near the Monument has become 
uncertain, at best. The Proclamation signed by President 
Clinton, requires a unique, first-of-its-kind Grazing Impact 
Study, to determine if cattle grazing is compatible with the 
objects of biological interest in the Monument.
    The language used in the Proclamation is not found anywhere 
else, at least that I can find. The language used in the 
Proclamation leaves the ranchers in a no-win situation.
    The Proclamation states that if--the grazing leases can be 
canceled by the Secretary of the Interior, if grazing is found 
to be incompatible. The environmental community interprets the 
Proclamation to say that if any conflicts occur, than all 
grazing must cease. The BLM states that if conflicts are found, 
changes could be made, without ending all grazing.
    The problem with the BLM's idea is the fact that if I lose 
any more of my AUMs, it won't be economically feasible for me 
to go out there anymore.
    My point is this--regardless on your stance on this, 
whether you're Andy or me--we believe it will end up in court. 
This bill is a solution that will save everyone time and money, 
and it will also keep the ranchers somewhat whole.
    The bill also includes a $300 per AUM payment to the 
affected ranchers. In return, we give up our grazing leases. 
The payment is far below what it will cost us to replace the 
grazing allocated to us in the Taylor Grazing Act, but it will 
help us change our operations and resolve, once and for all, 
the Monument grazing conflicts.
    I know that ownership and payment for grazing privileges is 
a contentious issue. The courts have interpreted grazing on 
Federal lands as a privilege, rather than a right. However, 
revoking these privileges will cost us real money. While the 
government won't compensate without passage of the bill, our 
grazing privileges, when they change hands, are taxed by the 
IRS. In addition, Oregon taxes them as real property.
    If Congress agrees that we should be paid, then the 
question becomes, at what price? I would hope the Congress--as 
Andy stated--would look at compensation in terms of replacement 
value, and whether you figure on buying or renting replacement 
forage, it is more expensive than the $300 we're asking for in 
the bill.
    I would also hope that Congress would be willing to find a 
way to pay the ranchers before the Wilderness designation was 
made. This would ensure fairness, and it would also make the 
environmentalists and the ranchers come to the finish line at 
the same time.
    The bill also includes a property change, which Andy 
alluded to--I don't need to go over that. There is also fencing 
costs and provisions included in the bill that are necessary to 
protect grazing lands from the unique and specific protections 
stated in the Proclamation. Without these, undue hardships will 
be placed on nearby ranchers.
    Both sides of this conflict agree that the passage of this 
bill is a win-win solution. We would not be here today if it 
weren't for Senator Gordon Smith's efforts and commitment.
    His willingness to help us in any way, proved invaluable. 
We are also greatly appreciative of the efforts of Senator Ron 
Wyden who co-sponsored the bill.
    But the most amazing part of this journey has been the 
coming together of the environmental and the ranching 
communities, and as you well know, we don't agree on much, and 
this was no exception. But after 4 long years of negotiations, 
and some fairly heated debates, here we are, both supporting 
the same bill. It proves, once again, that anything is 
possible.
    I would like to conclude by saying that it is truly an 
honor to speak to you today, and for a cowboy from Southern 
Oregon, it's quite a thrill and something I never thought I'd 
get the opportunity to do. I hope that I can look back on this 
someday, and know that I had a small part in the passage of 
this bill.
    Thank you.
    [The prepared statement of Mr. Dauenhauer follows:]
 Prepared Statement of Mike Dauenhauer, Dauenhauer Ranch, Ashland, OR, 
                               on S. 2379
    My name is Mike Dauenhauer. I am here today as one of sixteen 
cattle ranchers that hold valid livestock grazing leases in and near 
the Cascade-Siskiyou National Monument (CSNM) in Jackson County Oregon. 
I have been in the ranching business all my life. I currently serve as 
President of the Jackson County Stockmen's Association. I urge Congress 
to enact S. 2379 into law to resolve conflicts created by the unique 
regulatory and statutory restrictions placed on traditional grazing 
practices by the creation of the national monument. The affected 
ranchers have the support of our county commissioners (attached),* both 
the state (attached)* and local (attached)* cattlemen's associations, 
our state representative (attached),* our state senator (attached)* and 
our governor (attached),* our local newspaper (attached),* the state's 
largest newspaper (attached)* other concerned groups and individuals. 
Evidence of support is attached to my written statement.*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    Since the designation of the Monument, June 2000, the future of 
economically viable livestock grazing has become increasingly uncertain 
in and near the monument. The designation proclamation specifically 
requires a unique, first of its kind, grazing impact study to try to 
determine if livestock grazing is ``compatible'' with ``the objects of 
biological interest'' in the monument. Furthermore, the proclamation 
states that existing grazing leases can be cancelled by the Secretary 
Of Interior should grazing be found to be incompatible.
    The environmental community interprets the proclamation to say that 
if any conflicts occur, then all grazing must cease. Presently BLM 
contends that if conflicts are shown, possibly changes in grazing 
practices could be made without the end of all grazing. The 
Proclamation language leaves these opposing viewpoints to be solved in 
court if the conflict is not resolved by other means. This avenue 
promises to be a very long and costly process for the government, 
ranchers, environmental interests and taxpayers. I enclose an opinion 
piece* that appeared in the local paper that will give you a flavor of 
what we are up against.
    This situation also leaves the ranchers in a very insecure position 
as to the viability and continuity of their ranching operations 
dependent upon the grazing leases they have used for generations. Even 
if our livestock grazing is merely reduced or changed, such 
modifications may well make continued grazing impossible.
    S. 2379 is a solution worked out between the ranching and 
environmental communities to resolve the Monument grazing conflicts in 
a much cheaper, positive, effective and timely manner. It benefits 
taxpayers, cattlemen, environmental interests and society in general. 
While the Monument proclamation gives the cattlemen the right to 
rescind their leases for future grazing allocation, no government 
compensation would be provided. S. 2379 provides some compensation for 
the ranchers that voluntary rescind their leases and try to restructure 
their lives without the uncertainty of many years of lawsuits and 
conflicts to determine if they can continue to graze in and near CSNM 
lands.
    Cattlemen feel that creation of the national monument and specific 
proclamation language has and will change traditional methods of 
operation--not found in similar grazing areas--to provide for 
environmental and political concerns specific to grazing on monument 
lands. These changes in grazing practices will unfairly restrict our 
ability to use monument forage resources to provide an economical 
business atmosphere to make a living and do what we love. Whether it is 
right or wrong for the environment, Monument grazing is a contentious 
political issue, due for a very long and expensive conflict, if not 
resolved by S.2379.
    The $300.00/Animal Unit Month (AUM) payment in S.2379 is a bargain 
for the government, considering alternative costs of litigation, 
manpower devoted to court battles, continuing studies and specific 
monument grazing management. It is far from enough to replace the 
grazing allocated to ranchers by the Taylor Grazing Act and harvested 
for generations from the federal lands, but it will help ranchers to 
change operations and resolve, once and for all, the monument grazing 
conflicts.
    I know that ownership and payment for grazing privileges is a 
contentious issue. The courts have interpreted grazing on public lands 
as a privilege rather than a right. However, revoking that privilege 
will cost us real money. While BLM won't compensate us without 
enactment of S. 2379, our grazing privileges, when they change hands 
are taxed by the IRS. In addition, Oregon taxes them as real property.
    If Congress agrees that we should receive compensation for our 
grazing leases in and near the national monument, then the question is 
at what price. Even if--and I think it would take a miracle--BLM did 
allow us to continue grazing, my grazing lease--because it is tied up 
in the national monument--no longer has any market value. It has turned 
from an asset to a liability.
    The current market value of monument grazing leases is near zero. I 
urge Congress to consider compensation in the context of replacement 
value. The table at the end of my statement examines two methods of 
determining the cost of forage that we ranchers will have to acquire to 
replace the loss of our federal grazing leases and compares them to the 
proposed $300/AUM federal payment in S. 2379. Whether it is figured on 
renting forage annually or buying pastureland to replace the lost 
government forage, the cost is far in excess of the $300/animal unit 
month specified in S. 2379. As you can see, private forage costs a lot 
more than federal forage. If $300/AUM federal government payment were 
received and safely invested, such would only go part way toward 
acquiring replacement forage for lost federal AUMs due to the monument 
proclamation.
    S. 2379 also includes a common-sense property exchange. The Rowlett 
exchange will further the monument purposes and also consolidate both 
government and private ownership. Mr. Rowlett has agreed to donate his 
interest in his federal grazing lease to the federal government after 
the exchange is completed.
    The fencing costs and provisions in S. 2379 are necessary to 
protect other grazing lands from the proclaimed unique and specific 
protection desired on Monument lands. Without these provisions, the 
monument proclamation places undue hardship on nearby livestock 
ranches.
    The most amazing part of this journey has been the coming together 
of the environmental and the ranching communities. As you well know we 
don't agree on much, and this was no exception. Four years of 
negotiations and some heated debate, and here we are both supporting S. 
2379. That proves again that anything is possible.
    Both sides of the conflict agree, the passage of this bill is a 
win-win solution. We would not be here today if it weren't for Senator 
Gordon Smith's efforts and commitment. His willingness to help in any 
way possible proved invaluable. We also greatly appreciate the efforts 
of Senator Ron Wyden, co-sponsor of S. 2379.
    I would like to conclude by saying that it truly is an honor to 
speak to you today. For a cowboy from Southern Oregon, this is quite a 
thrill, and something I never thought I'd get the opportunity to do. I 
hope I can look back on this someday, knowing that I had a small part 
in the passage of S. 2379.
    Thank you for your time. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Wyden. Mike, well said. You've made the Senate's 
Cowboy Caucus proud. So, thank you.
    [Laughter.]
    Senator Wyden. We've got another Senator with a time 
crunch, and that's my colleague from Oregon. If our other 
witnesses from Wyoming and Washington--it's acceptable to 
them--let's let Senator Smith ask his questions of the Oregon 
witnesses, and then let us excuse him, because he's got a heavy 
schedule.
    Senator Smith. Thank you, Mr. Chairman, and my colleagues, 
I appreciate your indulgence.
    Mike, I know that the many cattlemen organizations have had 
heartburn over this. Can you give me an update on where they 
are in terms of support or opposition to this bill?
    Mr. Dauenhauer. We have support. The main problem that 
we've had is, it's a very unique situation. I'm not in favor of 
buyouts, it's just not the way we are. But, in this situation, 
in this very specific, unique situation, it is our only 
solution. So, our support is good.
    Senator Smith. So, the opposition is, at least, quiet at 
this point, and really understand the uniqueness of this?
    Mr. Dauenhauer. I think they do.
    Senator Smith. Mike, how long has your grazing operation 
been around?
    Mr. Dauenhauer. My dad bought the Ranch in 1961.
    Senator Smith. Sixty-one.
    Andy, I was going to ask you a question but you already 
answered it in your testimony. Some of the opposition--not 
opposition, but concern expressed by some of my colleagues 
relates to compensation for giving up grazing rights. You made 
the point I was going to make, which is that those who are 
expressing a degree of opposition, anyway, have had these 
similar arrangements done in their own States, and that is 
true.
    Mr. Kerr. There's a history of Senators from both sides of 
the aisle obtaining compensation for ranchers under--you know, 
they made the case to Congress.
    You know, I think I'll take one exception with the term--I 
think it's illuminating, of this debate. You said ``grazing 
rights,'' that's what ranchers say, and conservationists say 
``grazing privileges.'' So, the idea of a right is that if it 
is taken, it is subject to compensation under the 5th 
amendment.
    There's a long history of court cases, since 1905, many 
Supreme Court cases, and others, that say it's not a right.
    But there is--while there is not a property right, I think 
that most conservationists will recognize there is a property 
interest. As Mike noted, when--at taxable events, such as the 
sale of ranches that are associated with public lands grazing--
the IRS recognizes the value of these grazing permits. Not that 
the Forest Service or the BLM, if it chooses to revoke those 
permits, has to compensate, as a matter of law.
    But, there's also another case--since 1950, when the 
military takes public lands for national security purposes, 
they have routinely compensated ranchers for their lost grazing 
permits, associated with that military expansion.
    So, this is--it's not, in one sense, a new idea here.
    Senator Smith. No, of course not.
    Mr. Kerr. So, you know, I would argue that national 
security also includes our natural security of protecting wild 
places and nature, and this is an extraordinary circumstance, 
but it's not an unheard-of circumstance.
    Senator Smith. Right. I agree with your characterization, 
in terms of natural security, as well, and I appreciate the way 
environmental groups have worked with our cattlemen on this 
issue, and I note that environmental groups have supported 
ranchers receiving bonus incentives for relinquishing these 
permits--whether they're rights or privileges--environmental 
groups are supporting these incentives.
    Mr. Kerr. Yes, we're--many groups are. Some groups favor 
retiring their permits, but favor the use of private money, if 
it's available. Other groups are comfortable with a government 
payment. You know, it's a kind of a threshold issue is, you 
know, are these permits--do they have market value? I think 
they do.
    Now, the permits in the Cascade-Siskiyou National Monument, 
since they've become a National Monument, essentially have junk 
value. No other rancher would come to Mike and say, ``I want to 
buy your grazing permits,'' or, ``buy your ranches associated 
with these grazing permits,'' so----
    Senator Smith. But, since 1961, they've had a value to 
Mike's family.
    Mr. Kerr. When they bought them, they bought this base 
property--and that's a term under the Taylor Grazing Act--that 
has these allotments on Federal lands, these AUMs tied to it, 
and they have used them, and now if they tried to sell them, 
they get nothing for them.
    Senator Smith. Andy, can you give the Congress--and 
specifically the Senate--assurance that once this bill is 
enacted and wilderness is created, that environmental groups 
will follow through on their commitments?
    Mr. Kerr. Yes, I think we certainly can, and we want to. 
The--we believe in this legislation, and the understandings 
that we have with these ranchers, we are fully committed to 
following through on, and we're going to do everything we can 
to fulfill those commitments, and I have no reason to believe 
that we will not.
    Senator Smith. Great, well, I know you and Mike to be 
people of integrity, and Ron and I are counting on that, 
because we want to pass this, and get this behind us, and leave 
the world a better place, economically and environmentally, 
so--thank you, Mr. Chairman.
    Senator Wyden. Very, very good. I'll have some additional 
questions, Senator Smith said it very well.
    You Wyoming folks have been very patient, Ms. Moseley--
you've heard about our fire stations, and our monuments--and 
let's make your prepared remarks as part of the record in their 
entirety, and if you could summarize your main concerns, that 
would be helpful.

  STATEMENT OF CLAIRE M. MOSELEY, EXECUTIVE DIRECTOR, PUBLIC 
  LANDS ADVOCACY, PETROLEUM ASSOCIATION OF WYOMING, DENVER, WY

    Ms. Moseley. Certainly.
    Mr. Chairman, members of the subcommittee, I'm Claire 
Moseley, Director of Public Lands Advocacy, and I'm here today 
representing not only Public Lands Advocacy, but also the 
Petroleum Association of Wyoming.
    I guess I appreciate the dubious honor of being the one to 
present balance to the panel, since unfortunately our--my 
industry, the oil and gas industry--does not necessarily 
support Senator Barrasso's bill, S. 2229. We do support Senator 
Barrasso's goal of preserving the natural beauty that is an 
integral part of Wyoming's heritage. However, we believe those 
can be achieved while preserving the access needed to develop 
oil and gas resources beneath the Wyoming Range.
    I find it interesting, the rhetoric surrounding this issue. 
I think it's somewhat disingenuous--the energy industry does 
not seek out to lease new resources from Federal lands that are 
already withdrawn, such as Wilderness, National Parks, 
Wilderness Study Areas, et cetera, et cetera.
    I have to point out that 50 percent of Federal lands are 
already completely withdrawn from oil and gas activity, as a 
result of these designations.
    I would also like to point out that 25 percent of the 
Federal lands in Wyoming are already withdrawn from oil and gas 
development and leasing.
    Most of the Wyoming Range, as you've noted in my testimony, 
is located on top the Wyoming Overthrust Belt. According to a 
national study done by the Department of Energy, estimates are 
that the Wyoming Range holds over 12 trillion cubic feet of 
natural gas. Few places exist within the United States that 
have that kind of potential, but I also would like to point out 
that, according to the 2006 Environmental Policy Conservation 
Act review of this area, 69 percent of that Federal land in the 
Wyoming Range is already--excuse me, 69 percent of the land in 
the Wyoming Overthrust Belt--is unavailable for leasing.
    The bill that Senator Barrasso has introduced would put the 
remaining areas that are available off limits, as well.
    The Wyoming Range falls within the Bridger-Teton National 
Forest, it's 3.4 million acres. Out of that acreage only--less 
than 500,000 acres are available for oil and gas leasing, and 
I'm talking about available. As far as leases issued, we're 
looking at maybe around 60,000 to 100,000 acres. So, we're not 
talking about a huge amount. It's the only area on the Bridger-
Teton National Forest that has been made available for leasing. 
The rest of the half million acres that the Forest Service has 
made--has declared available for leasing--has never been 
leased.
    The fact that recreation and a wide diversity of wildlife 
and habitat thrive throughout the southern end of the Wyoming 
Range, along with the rest of Wyoming, is a testament to 
industry's commitment to protecting Wyoming's world-class 
wildlife, and scenic beauty.
    Energy producers are committed to working with Federal land 
managers to reduce their environmental impacts. Operators have 
a long history of commitment to working with the Wyoming Game & 
Fish Department, local landowners and citizens, to reach win-
win outcomes that meet energy and environmental objectives. 
That working together, we will lead to a stable economy for 
Wyoming, over the long term, while preserving environmental 
values, cherished by our citizens.
    New technology advancements make it possible to minimize 
industry's footprint in sensitive areas--such as directional 
drilling, horizontal drilling techniques, which allow producers 
to drill wells--multiple wells--from a single pad.
    We're concerned that opportunities to make use of these 
improved technologies would be precluded under this bill, 
because in order to access the minerals, you have to have a 
lease.
    We appreciate Senator Barrasso's decision to structure the 
bill's lease buyback concept as a voluntary option for 
operators. We also appreciate the Senator's commitment to 
protecting the rights of existing leaseholders. To successfully 
accomplish these goals, we recommend adopting an amendment that 
would strengthen and clarify the rights of leaseholders. In 
addition, language is needed which clarifies that any buyback 
sum be specific--must specifically include the value of the 
resource under the lease.
    With respect to the term, the Wyoming Range, we would ask 
that the bill's provisions be limited to the Wyoming Range, as 
defined by topography and maps of the area.
    I'll hurry up, I've only got another couple of points, if 
that's OK.
    Senator Wyden. Sure.
    Ms. Moseley. Finally, we support the Senator's provisions 
and prohibitions in section 3 of the bill, which preclude 
establishment of a buffer area, adjacent to the boundaries of 
withdrawn land. We also support the bill's direction that the 
Bridger-Teton forest plan will apply to land that is not 
withdrawn. However, we believe that language needs to be added 
to subsection 3 of the bill, to protect field development, 
recognizing that future technology will extend the ability to 
reach out with a well borer, underlying minerals that are 
adjacent to existing, producing fields, to ensure that the 
ability of field operators in the Wyoming Range to access and 
development these critical resources in the future.
    Finally, we are currently working on language to address 
the concern, with respect to valid, existing rights. I'm sure 
you can appreciate that within my industry, in particular, it's 
very difficult to reach a consensus, so we're still working on 
language that we would like to provide for the subcommittee, in 
that regard.
    Thank you for allowing PLA, and Petroleum Association of 
Wyoming to present our views.
    [The prepared statement of Ms. Moseley follows:]
  Prepared Statement of Claire M. Moseley, Executive Director, Public 
  Lands Advocacy, Petroleum Association of Wyoming, Denver, WY, on S. 
                                  2229
    Chairman Wyden and members of the Subcommittee, my name is Claire 
Moseley, Executive Director of Public Lands Advocacy (PLA), and I am 
here today representing not only PLA, but also the Petroleum 
Association of Wyoming (PAW). PLA is a national nonprofit trade 
association whose members include independent and major oil and gas 
producers as well as nonprofit trade and professional organizations 
that have joined together to foster environmentally sound exploration 
and production on public lands. PAW, a member of PLA, is Wyoming's 
largest and oldest oil and gas trade organization, the members of which 
account for over ninety percent of the natural gas and over eighty 
percent of the crude oil produced in the State. I would like to thank 
the Senate Committee on Energy and Natural Resources Subcommittee on 
Public Lands and Forests for the opportunity to testify at this hearing 
on S. 2229, the Wyoming Range Legacy Act. We also thank Senator 
Barrasso and his staff for seeking industry's views on this legislation 
and ensuring our concerns are heard.
    Our members are committed to developing their federal oil and gas 
leases in ways that benefit Wyoming's and the nation's interests. The 
petroleum industry, as America's energy producers, contributes to the 
nation's energy supply while at the same time providing comprehensive 
protection of Wyoming's environmental resources. The members of PAW and 
PLA support Senator Barrasso's goal of preserving the natural beauty 
that is an integral part of the heritage of the great State of Wyoming. 
However, we believe this goal can be achieved while preserving the 
access necessary to develop the very significant natural gas resources 
that lie beneath the Wyoming Range. Therefore, we oppose S. 2229 as 
drafted.
    The petroleum industry has been exploring for and developing oil 
and gas in Wyoming for 124 years. Members of PLA and PAW are taking a 
keen interest in S. 2229 because it would place much of the Wyoming 
Range and adjacent areas off-limits to future mineral leasing. We are 
concerned because this legislation would close the door to all future 
opportunities to explore for and produce much needed energy resources 
that are believed to occur there.
    Natural gas is extremely important to the nation, not just to the 
petroleum industry or the states where the resources are produced. 
According to the Energy Information Administration (EIA), the states 
with the highest demand for natural gas are: Texas, California, 
Louisiana, New York, Illinois, Michigan, Ohio, Florida, Pennsylvania, 
and New Jersey. Conversely, the Rocky Mountain States (or Public Land 
States) produce much of the natural gas required to sustain the 
standard of living and economies of the rest of the nation at the 
levels they expect. Meeting American consumer demands for energy, which 
is expected to increase 23 percent by 2025, requires investments by 
both industry and the Federal government to find and produce oil and 
gas, as well as refining, processing distributing and marketing the 
wide variety of products derived from them.
    According to the United States Geological Survey (USGS) an 
estimated 69 percent of the nation's undiscovered oil and 51 percent of 
its natural gas resources lie beneath Federal public lands. However, 
for much of the last century, most of the oil and gas was produced from 
state and private lands. As these resources became depleted, industry 
has been forced to seek out new sources on public lands to meet 
escalating demand for energy supplies.
    It is important to our discussion today to put America's energy 
producers' activities on the public lands into proper context. The 
energy industry does not seek out new resources from federal lands that 
are already withdrawn such as wilderness areas, national parks, 
national monuments, wilderness study areas (WSA), wild and scenic 
rivers or national wildlife refuges. These lands comprise nearly 50 
percent of all federal land. Industry's attention is focused on those 
lands available for oil and gas leasing and development as determined 
through the federal land use planning process. In order to put our 
concerns in a more detailed perspective specifically to S. 2229, as of 
January 2007 approximately 7.74 million acres (25%) of the federal land 
in Wyoming are already permanently withdrawn from oil and gas leasing 
due to designated wilderness, wilderness study area designations, or 
because they are in national parks or wildlife refuges.
    Our members are concerned by the scope of S. 2229 because most of 
the Wyoming Range is located atop a geologic feature known as the 
Wyoming Overthrust Belt. PAW and PLA members, along with the Bureau of 
Land Management, the U.S. Geological Survey, and the Department of 
Energy, participated in a natural gas resource assessment, Balancing 
Natural Gas Policy, which was published in 2003 by the National 
Petroleum Council. Estimates from that study indicate the Wyoming Range 
is projected to hold 12 trillion cubic feet (TCF) of technically 
recoverable natural gas. Few places exist in the US with that kind of 
potential, which is why access to the Wyoming Range is acutely 
important from the perspectives of Wyoming's economic well-being and 
the nation's energy security. Despite the potential significance of 
this region, the 2006 Energy Policy and Conservation Act (EPCA) Phase 
II study, Scientific Inventory of Onshore Federal Lands' Oil and Gas 
Resources and the Extent and Nature of Restrictions or Impediments to 
Their Development, found that approximately 69 percent of the Federal 
lands throughout the Wyoming Thrust Belt is already unavailable for 
leasing. S.2229 would place the few areas that remain off limits, thus 
making it even more difficult for industry to tap these critical 
reserves.
    It must be recognized that of the 3.4 million-acres encompassed by 
the Bridger-Teton National Forest, which includes the Wyoming Range, 
all but 520,384 acres are currently closed to oil and gas leasing, 
including approximately 93,116 leased acres that have been suspended. 
The remaining 460,186 acres for which a site-specific leasing decision 
has been made have not been leased. As such, only 60,198 acres have 
been leased and are available for exploration and development 
activities. Furthermore, lessees will only be allowed to develop their 
prospects on this small number of leases provided surface occupancy is 
allowed and they can conduct their construction and drilling operations 
during certain times of the year. It is also important to note that 
both BLM and the Forest Service require NEPA analyses to be performed 
that fully consider public concerns and potential impacts of proposed 
drilling projects. These analyses specifically provide the basis for 
identifying mitigation measures designed to protect sensitive 
resources.
    For the record, the southern part of the Wyoming Range has enjoyed 
production since 1986. The fact that recreation and a wide diversity of 
wildlife and habitat thrive throughout the southern end of the Range, 
along with the rest of Wyoming, is a testament to industry's commitment 
to protecting Wyoming's world class wildlife and scenic beauty. Energy 
producers are committed to working with federal land managers to reduce 
their surface and environmental impacts on current federal leases. As 
such, operators have a long history of commitment to working with WGFD, 
local landowners and citizens to reach win--win outcomes that meet 
energy and environmental objectives; that working together will lead to 
a stable economy for Wyoming over the long term while preserving 
environmental values cherished by her citizens.
    In a time of rapidly escalating demand for natural gas in the 
United States, the elimination of 12 TCF from future access would be an 
enormous loss not only to the citizens of the US; such a loss would be 
even greater to the State due to foregone lease bonuses, rentals, 
production royalties and other revenue associated with exploration and 
production such as sales, use, ad valorem and income taxes. Lack of 
access to reserves in the Overthrust Belt would make it more difficult 
for producers to meet consumer and industrial demand for energy 
resources in Wyoming and across the country, which will lead to higher 
prices.
    As the members of this committee may be aware, significant 
technological advancements in recent years have made it possible to 
minimize industry's footprint in sensitive areas. Directional and 
horizontal drilling techniques allow producers to drill multiple wells 
from a single drill pad. However, opportunities to make use of these 
improved technologies would be precluded under S. 2229 because access 
to federal minerals is prohibited without a valid lease. Other advances 
include increased production through improved well completion 
techniques and faster, more effective reclamation of disturbed areas 
after production ceases. These improvements greatly enhance the 
compatibility of oil and gas with wildlife, other uses and users of the 
public lands, and facilitate recovery of energy resources that might 
otherwise be foregone.
    As the Senate moves forward in refining S. 2229, PLA and PAW urge 
that the bill's focus be limited to specific areas of concern rather 
than encompassing the entire Wyoming Range and adjacent federal lands. 
In addition, all existing leases previously awarded through federal 
government public lease sales should be excluded from the bill. These 
active leases represent a contractual agreement between industry and 
the federal government, which must be honored. As such, we urge that 
the bill exclude:

  <bullet> Leases that do not yet have active production
  <bullet> Leases that have been issued but administratively suspended 
        by the BLM pending the completion of additional NEPA analysis 
        (e.g., leases issued by BLM pursuant to the December 2005 and 
        April 2006 lease sales)
  <bullet> Leases for which BLM has a binding commitment through a 
        lease sale, but have yet to be issued pending completion of 
        additional NEPA analysis (e.g., the parcels auctioned at the 
        June and August 2006 lease sales).
                          proposed amendments
    PLA and PAW appreciate Senator Barrasso's decision to structure the 
bill's lease buyback concept as a voluntary option for operators. We 
also appreciate the Senator's commitment to protecting the rights of 
existing lease holders. To successfully accomplish these goals, 
however, we recommend adopting an amendment that would strengthen and 
clarify the rights of lease holders. In addition, language is needed 
which explicitly clarifies that any buyback sum must specifically 
include the value of the resource under any lease as well as provide 
lessees the means to demonstrate the value of the resource.
    As mentioned earlier, S. 2229 goes beyond simply withdrawing lands 
within the Wyoming Range from being leased in the future. PAW and PLA 
remain concerned about the bill's effect on leases located on lands 
adjacent to the proposed withdrawals. The term ``Wyoming Range'' has 
been used in an uncertain and overly broad manner in this debate. There 
are a number of leases adjacent to the area under discussion that are 
not actually in the ``Wyoming Range'' as identified on USGS topographic 
maps. Despite this fact, S. 2229 was written in such a way to draw 
these leases into the debate. S. 2229 needs to clearly distinguish 
those adjacent lands to ensure active leases remain unencumbered. At a 
minimum, it is important that the bill's provisions explicitly exclude 
adjacent lands from the scope of the withdrawal by limiting the bill's 
focus to the Wyoming Range as defined by topography and maps of the 
area.
    Finally, we support the prohibitions in Section 3(d) of the bill 
which preclude establishment of a protective perimeter or buffer area 
outside the boundaries of lands withdrawn or any prohibition on 
activities that can be seen or heard from within the boundaries of the 
withdrawn land. We also support the bill's direction that the Bridger-
Teton National Forest Land and Resource Management Plan (including any 
revisions) shall apply to all land within the Bridger-Teton National 
Forest that is not withdrawn under this section.
    However, we believe it is critical that language be added as 
Subsection 3(f) to protect field development, recognizing that future 
drilling technology will extend the ability to ``reach out'' with a 
wellbore to underlying minerals that are adjacent to the existing 
producing fields. As mentioned previously in this testimony, it may be 
feasible for operators to drill directionally or horizontally and 
produce from surface locations that allow multiple wells from an 
existing pad. In many instances this technology allows producers to 
expand their production efforts without creating additional surface 
disturbance. As drafted, however, the bill would permanently prevent 
the ability of field operators in the Wyoming Range to access and 
develop these critical resources in the future.
    Following is specifically recommended language for inclusion in S. 
2229 with respect to the determination of fair market value and the 
protection of future development of existing fields.
                          i. fair market value
    Add the following language to Section 4 (c) (1):

          Section 4(c) (1)--Any buyback sum will include the fair 
        market value of the mineral resource under a lease utilizing 
        the lessees' demonstration of the resource value being forgone.
                              ii. buffers
    Add the following language to Section 3:

          Subsection 3(f)--A one-mile development buffer zone is 
        established around producing fields to allow for future 
        expansion of these fields.
                       iii. valid existing rights
    An additional issue of concern relates to the protection of rights 
associated with existing leases. PLA and PAW's members are currently 
working on language that appropriately addresses this issue. We ask 
that Senator Barrasso afford us the opportunity to provide him with an 
additional amendment to S. 2229 at a later date.
    Thank you again for allowing PLA and PAW to share our thoughts on 
this important measure. We look forward to continuing to work with 
Senator Barrasso and the members of the subcommittee to address our 
concerns as S. 2229 moves forward.

    Senator Wyden. Thank you very much.
    Ms. Moseley. Thank you.
    Senator Wyden. I was particularly pleased you mentioned 
that point of technological ways to get more oil from existing 
wells. Craig Thomas was such a wonderful man, and such a 
terrific guy.
    Ms. Moseley. He definitely was.
    Senator Wyden. He really led me and a lot of us--
particularly on the Senate Finance Committee, to try to change 
the tax laws, to do just that. So that's a very valid point, 
and we'll--I'm sure Senator Barrasso and Senators may have some 
questions for you in a minute, and we're glad you're here.
    Mr. Amerine, Citizens Protecting the Wyoming Range.

  STATEMENT OF GARY AMERINE, CITIZENS PROTECTING THE WYOMING 
                       RANGE, DANIEL, WY

    Mr. Amerine. Thank you.
    Chairman Wyden, Senator Barrasso, and members of the 
subcommittee, thank you for the opportunity to speak to you.
    My name is Gary Amerine, and I own and operate Greys River 
Trophies with my wife, Jenny. Our business is a hunting, 
fishing, horseback riding outfit in the Wyoming Range of 
Western Wyoming. Jenny is here with me today.
    These mountains provide our livelihood, and a safe 
environment where we have lived for many years, and have raised 
three wonderful daughters.
    I'd like to tell you a little bit about this special place. 
From our living room, we can look out across our horse pasture, 
and see the spine of the Wyoming Range to the West. Wyoming 
Peak--the tallest mountain in the range, is one of many over 
11,000 feet. It dominates our view.
    These mountains have streams with rare cutthroat trout, 
forests and meadows full of elk, mule deer and moose.
    The first time I came to the Wyoming Range, I was 20 years 
old. At that time, I was on a mission to hunt in as many 
Western States as I could--from Idaho, to Colorado, to Montana. 
Then I came to the Wyoming Range. Something took hold of me. I 
came back every year, and then finally got tired of the 
commute, and I stayed.
    People from all over the world come to enjoy the Wyoming 
Range. They come to hunt, they come to fish, and they come to 
just relax. Nearly every type of recreation is there--back 
country skiing, snowmobiling, horseback riding, backpacking, 
canoeing, and much more.
    There are two men I'd like to thank who recognize the 
values of this special place. The first is Senator Craig 
Thomas, who passed away last summer. Senator Thomas loved 
Wyoming, and he loved the Wyoming Range. He wanted to see it 
stay the way it is now in its pristine state.
    The other man I'd like to personally and publicly thank at 
this time is Senator John Barrasso.
    Senator, thank you for your vision, your leadership, and 
your courage.
    Last year, I got on an airplane for the first time in about 
20 years to come visit Senator Thomas, and talk about the 
Wyoming Range. I don't like flying, but I'll tell you, this is 
important. It's important enough for me to swallow my dislike 
of flying, and come to speak to you today.
    The Wyoming Range Legacy Act sets aside 1.2 million acres 
of Public National Forest from future oil and gas leasing. It 
draws a circle around these mountains and says, ``Oil and gas 
are important to our Nation's energy needs, but not here.'' 
This is a place where other uses, and other diverse businesses 
contribute to other segments of our economy, in particular, 
ranching and tourism. These are aspects of our economy that are 
sustainable and renewable--oil and gas are not.
    I am not against oil and gas development, I'm not a 
hypocrite. I heat my home with natural gas, I burn fossil fuels 
when I haul my horses into the mountains. But I do think there 
are places that are too special to drill. Come out and see for 
yourself, I'll have a horse saddled for you.
    Wyoming is leading the way in energy production. Sublette 
County, where I live, is a big part of it. Two of the country's 
largest gas fields--the Pinedale Anticline and the Jonah 
Field--are within a short drive of my house.
    These gas fields provide jobs, and they provide many other 
benefits to the local and State economy. But energy development 
is also having a negative impact on our wildlife.
    We Wyoming people are a practical lot. We know that 
sometimes it is tough to live here, far away from shopping 
malls and interstates. But we also love our wildlife, and our 
wild country. We know that there is a place for balance, and 
the Wyoming Range Legacy Act is a step toward that balance. I 
am not alone. Thousands of people from all over Wyoming, and 
across this country--from all walks of life--support this 
legislation.
    Today, 26 million acres of about 30 million acres of 
Federal land in the State of Wyoming are available for energy 
leasing. We'd like to keep the Wyoming Range for our kids, for 
their kids, for your kids, for balance.
    Thank you.
    [The prepared statement of Mr. Amerine follows:]
  Prepared Statement of Gary Amerine, Citizens Protecting the Wyoming 
                     Range, Daniel, WY, on S. 2229
    Chairman Wyden, Senator Barrasso and members of the Subcommittee, 
thank you for the opportunity to speak to you.
    My name is Gary Amerine and I own and operate Greys River Trophies 
with my wife Jenny. Our business is a hunting, fishing and horseback 
riding outfit in the Wyoming Range of western Wyoming. Jenny is here 
with me today. These mountains provide our livelihood and a safe 
environment where we've lived for many years and have raised three 
wonderful daughters.
    I'd like to tell you a little bit about this special place. From 
our living room, we can look out across our horse pasture and see the 
spine of the Wyoming Range to the west. Wyoming Peak, the tallest 
mountain in the range, is one of many over 11,000 feet. It dominates 
our view. These mountains have streams with rare cutthroat trout, 
forests and meadows full of elk, mule deer and moose.
    The first time I came to the Wyoming Range, I was 20 years old. At 
that time, I was on a mission to hunt in as many western states as I 
could, from Idaho to Colorado to Montana. Then I came to the Wyoming 
Range. Something took hold on me. I came back every year and then I 
finally got tired of the commute and I stayed.
    People from all over the world come to enjoy the Wyoming Range. 
They come to hunt, they come to fish, and they come to just relax. 
Nearly every type of recreation is there--backcountry skiing, 
snowmobiling, horseback riding, backpacking, canoeing and much more.
    There are two Wyoming men who I'd like to thank who recognized the 
values of this special place. The first is Senator Craig Thomas who 
passed away last summer. Senator Thomas loved Wyoming and he loved the 
Wyoming Range. He wanted to see it stay the way it is now in its 
pristine state.
    The other man I'd like to personally and publicly thank at this 
time is Senator John Barrasso. Senator, thank you for your vision, your 
leadership, and your courage.
    Last year, I got on an airplane for the first time in about twenty 
years to come visit Senator Thomas and talk about the Wyoming Range. I 
don't like flying. But I'll tell you, this is important. It's important 
enough for me to swallow my dislike of flying and come to speak to you 
today.
    The Wyoming Range Legacy Act sets aside 1.2 million acres of public 
national forest from future oil and gas leasing. It draws a circle 
around these mountains and says--oil and gas are important to our 
nation's energy needs, but not here. This is a place where other uses 
and other diverse businesses contribute to other segments of our 
economy--in particular ranching and tourism. These are aspects of our 
economy that are sustainable and renewable. Oil and gas are not.
    I am not against oil and gas development. I'm not a hypocrite. I 
heat my home with natural gas. I burn fossil fuels when I haul my 
horses into the mountains. But I do think that there are places that 
are too special to drill. Come on out and see for yourself, I'll have a 
horse saddled for you.
    Wyoming is leading the way in energy production. Sublette County 
where I live, is a big part of it. Two of the country's largest gas 
fields, the Pinedale Anticline and the Jonah Field, are within a short 
drive of my house. These gas fields provide jobs and they provide many 
other benefits to the local and state economy. But energy development 
is also having a negative impact on our wildlife.
    We Wyoming people are a practical lot. We know that sometimes it is 
tough to live here, far away from shopping malls and interstates. But 
we also love our wildlife and our wild country. We know that there is a 
place for balance and the Wyoming Range Legacy Act is a step toward 
that balance. I am not alone. Thousands of people from all over Wyoming 
and across this country, from all walks of life, support this 
legislation.
    Today, 26 million acres of about 30 million acres of federal land 
in the state of Wyoming are available for energy leasing. We'd like to 
keep the Wyoming Range for our kids. For their kids and for your kids. 
For balance.

    Senator Wyden. Well said. I just noted, you are talking 
about 1.2 million acres, and Mr. Caviezel is now going to talk 
about one and a half acres.
    [Laughter.]
    Senator Wyden. We've got everything in the universe before 
the committee today. Welcome.

     STATEMENT OF CHRIS CAVIEZEL, CHAIRMAN, BOARD OF FIRE 
COMMISSIONERS, SNOQUALMIE PASS FIRE & RESCUE, SNOQUALMIE PASS, 
                               WA

    Mr. Caviezel. Thank you, Mr. Chairman.
    My name is Chris Caviezel, I'm the Chairman of the Board of 
Fire Commissioners for Snoqualmie Pass Fire & Rescue, Volunteer 
Fire Department serving the Greater Snoqualmie Pass.
    This unincorporated area has 350 full-time residents. In 
addition, we have a wintertime ski area which sees an estimated 
20,000 people a day during the peak of the season.
    The Washington State Department of Transportation also 
estimates that up to 60,000 vehicles will travel through our 
fire district on a busy day, tying us as the most heavily 
traveled mountain pass highway in the country.
    Snoqualmie Pass has an enormous amount of snowfall, with an 
average of 32 feet of snow each year over the last 10 years, 
which makes the region an appealing destination, recreational 
area. However, this also results in avalanches and rockslides 
on both sides of the Pass, creating difficulty, accessibility 
and emergency service issues.
    These unique demographics challenged local resources to the 
limits. Our fire department averages over 300 calls a year, 
nearly a 10 percent annual increase in call volumes.
    Snoqualmie Pass is completely surrounded by Forest Service 
land. To the north and south of us are the Cascade Mountains, 
and along the Interstate-90 corridor, Forest Service land 
extends to the east and west of us, well beyond our seven and a 
half response area in each direction.
    While our primary mission is to fight fires and provide 
emergency medical services in our local residential setting at 
nearby Interstate highway, the impacts of the surrounding 
Forest Service land definitely affect our mission.
    The Forest Service has the primary responsibility for 
putting fires out on their land. However, the nearest Forest 
Service resources are nearly 30 miles away, in the town of 
North Bend.
    Though Snoqualmie Pass's all-volunteer fire station is not 
obligated to respond to any fires on Forest Service land, we 
gladly do so. We are usually the ones in the position to get to 
the fire first, giving us a better chance at containing the 
fire before it can get out of hand and present a much larger 
problem.
    It is also important to note that our all-volunteer fire 
department must respond quickly to prevent fire from spreading 
onto Forest Service land. The nearest career department is also 
in North Bend, and during the recent fire we've had support 
come to us from over an hour away.
    Two years ago, our fire department was contacted by the 
Forest Service to ask if we would be interested in purchasing 
the land that we currently lease. We were very surprised, 
because we did not know it was possible to acquire Forest 
Service land. Yes, we were interested, but no, we did not have 
the money.
    We have long-recognized the pressing need to build a new 
fire station. Our current fire station as originally built in 
the 1930s as a maintenance shed for the Department of 
Transportation. The current station has numerous safety, 
utility, structural and operational deficiencies that cannot be 
resolved in the existing structure.
    One problem of note is that, due to the slope of the roof 
it sheds snow in front of the apparatus base. This is 
especially significant when we are dispatched for an emergency, 
the fire station sounds when we get a call, which can trigger 
the release of the snow off the roof, leaving up to a 4-foot 
ridge of snow and ice in front of our rigs, preventing a 
response until the path is cleared.
    Over the past 12 years, we have looked at numerous 
properties, and we have determined that this property fits our 
needs best, because it is centrally located, easily accessible 
to east and westbound Interstate 90, as well as highway 906.
    The centrality of the site not only provides for faster, 
more efficient responses, once the apparatus are on the road, 
but it also allows the volunteers to travel to the station 
quicker, for a shorter turnout time.
    Furthermore, it is a level site with no significant 
construction issues, which will enable the district to build 
the station for less than other sites. This will also make the 
construction of the helipad possible, creating a safe area to 
land helicopters, as we currently have no dedicated helipad for 
airlift patients.
    Monies received through fire department-levied property 
taxes this year will equate to around $217,000. This money is 
barely enough to sustain current operations and required 
programs. Since Snoqualmie Pass is surrounded by Forest Service 
land, and because we cannot levy a tax against the U.S. Forest 
Service, we are severely prohibited from expanding our tax 
base, we must rely upon outside assistance for continued 
operation. Unlike almost all of the other fire departments in 
the State of Washington, most of our customers--up to 80 
percent--are non-taxpaying residents; rather, they are people 
that are driving through the area, visiting the ski area, or 
visiting U.S. Forest Service land.
    I know that while Federal land isn't often given to local 
agencies, there is a precedence, as long as it's a relatively 
small acreage, as well as being used for a public purpose, and 
not leading to private profit.
    S. 2601, introduced by Senator Cantwell, would convey land 
without cost to our fire department. I realize that this is not 
done very often but I believe our unique circumstances more 
than justify this to be done, and it would ease the burden of 
building a new fire station.
    A companion bill, H.R. 1285, passed the House of 
Representatives by a voice vote on July 23, 2007.
    [The prepared statement of Mr. Caviezel follows:]
     Prepared Statement of Chris Caviezel, Chairman, Board Of Fire 
 Commissioners, Snoqualmie Pass Fire & Rescue, Snoqualmie Pass, WA, on 
                                S. 2601
    Hello, my name is Chris Caviezel. I am the Chairman of the Board of 
Fire Commissioners for Snoqualmie Pass Fire & Rescue, a volunteer fire 
department serving the greater Snoqualmie Pass community in the State 
of Washington.
    This un-incorporated area has 350 full-time residents. In addition, 
we have a winter-time ski area which sees an estimated 20,000 people a 
day during the peak of the season. The Washington State Department of 
Transportation also estimates that up to 60,000 vehicles will travel 
through our fire district on a busy day, tying us as the most heavily 
traveled mountain pass highway in the country.
    Snoqualmie Pass has an enormous amount of snowfall with an average 
of 32 feet of snow each year over the last ten years, which makes the 
region an appealing destination recreational area. However, this also 
results in avalanches and rock slides on both sides of the pass 
creating difficult accessibility and emergency service issues.
    These unique demographics challenge local resources to the limits. 
Our Fire Department averages over 300 calls a year and is seeing a 
nearly 10 percent annual increase in call volumes.
    Snoqualmie Pass is completely surrounded by Forest Service land. To 
the North and South of us are the Cascade Mountains and along the 
Interstate-90 corridor, Forest Service Land extends to the east and 
west of us, well beyond our 7\1/2\ mile response area in each 
direction.
    While our primary mission is to fight fires and provide emergency 
medical services in our local residential setting and nearby inter-
state highway--the impacts of the surrounding Forest Service Land 
definitely affect our mission. The Forest Service has the primary 
responsibility for putting fires out on their land, however, the 
nearest Forest Service resources are nearly 30 miles away in the town 
of North Bend. And though Snoqualmie Pass's all volunteer fire station 
is not obligated to respond to any fires on Forest Service Land, we 
gladly do so. We are usually the ones in the position to get to the 
fire first, giving us a better chance at containing the fire before it 
can get out of hand and present a much larger problem.
    It is also important to note that our all-volunteer fire department 
must respond quickly to prevent fire from spreading on to Forest 
Service Land. The nearest career department is also in North Bend and 
during a recent fire we have had support come to us from over an hour 
away.
    Two years ago our Fire Department was contacted by the Forest 
Service to ask if we would be interested in purchasing the land that we 
currently lease. We were very surprised because we did not know it was 
possible to acquire Forest Service Land. Yes, we were interested, but 
no, we did not have the money.
    Through a series of discussions with the Forest Service, we also 
learned that there is a different parcel of land that they would be 
willing to consider. This other parcel would allow us to build a new 
station with less impact to current operations and the new location, 
due to its location and accessibility, would meet all of our 
operational needs. Also, it should be noted, that the land that we 
desire is a parking lot used occasionally in the winter. From a 
wildlife connectivity standpoint, the MP 53 location would be located 
exactly half way in between the wildlife crossing at MP 54.5 that DOT 
is scheduled to build in the near future as part of the highway re-
construction and the connectivity corridor proposed at MP 51.5 in the 
USDA Forest Service report by Singleton and Lehmkuhl (2000).
    We have long recognized the pressing need to build a new fire 
station. Our current Fire Station was originally built in the 1930's as 
a maintenance shed for the Department of Transportation. The current 
station has numerous safety, utility, structural, and operational 
deficiencies that can not be resolved in the existing structure. One 
problem of note is that, due to the slope of the roof, it sheds snow in 
front of the apparatus bays. This is especially significant when we are 
dispatched for an emergency. The Fire Station siren sounds when we get 
a call, which can trigger the release of the snow off the roof, leaving 
up to a four foot ridge of snow and ice in front of our rigs preventing 
a response until the path is cleared.
    Over the past 12 years we have looked at numerous properties and 
have determined that this property fits our needs best because it is 
centrally located, easily accessible to east and west bound Interstate-
90, as well as Highway 906. The centrality of this site not only 
provides for faster, more efficient responses once the apparatus are on 
the road, but it also allows the volunteers to travel to the station 
quicker for a shorter turnout time. Furthermore, it is a level site 
with no significant construction issues, which will enable the District 
to build the station for less than other sites. This will also make the 
construction of a helipad possible creating a safe area to land 
helicopters as we currently have no dedicated heli-pad for airlift 
patients.
    Monies received through fire department levied property taxes this 
year will equate to around $217,000. This money is barely enough to 
sustain current operations and required programs. And since Snoqualmie 
Pass is surrounded by Forest Service land (and because we can not levy 
a tax against the U.S. Forest Service) we are severely prohibited from 
expanding our tax base and must rely upon outside assistance for 
continued operation. And unlike almost all of the other fire 
departments in the State of Washington, most of our customers, up to 
80%, are non-taxing paying residents. Rather, they are people that are 
driving through the area, visiting the Ski Area, or visiting U.S. 
Forest Service Land.
    I know that while Federal land isn't often given to local agencies, 
there is precedence as long as it's a relatively small acreage as well 
as being used for a public purpose and not leading to private profit.
    Once the property is acquired we will need to fund the project to 
build the new Fire Station. Funding for the entire project is not 
expected to come from any one source. The Snoqualmie Pass Land 
Conveyance Act would overcome the first hurdle that has seemed to 
plague this department for over ten years. Funding sources for building 
the actual fire station are being pursued with the help of State 
Representative Bill Hinkle, the Washington State Fire Fighter's 
Association, Washington State Fire Chiefs Association, the Washington 
State Legislature, the Governor's Office, Federal Sources, and Homeland 
Security Grants. None of these processes have been found to allow 
funding for the purpose of purchasing property alone.
    Senate Bill 2601, introduced by Senator Cantwell would convey land, 
without cost to our Fire Department. I realize that this is not done 
very often, but I believe our unique circumstance more than justify 
this to be done and it would ease the burden of building a new fire 
station. A Companion bill, HR 1285, passed the House of Representatives 
by voice vote on July 23, 2007.

    Senator Wyden. Good.
    We'll start our questioning with Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Ms. Moseley, just two questions. We had talked earlier 
today in the hearing about the similar Front Range issue in 
Montana, and then New Mexico--do you think those were good 
models for lease buybacks?
    Ms. Moseley. I have to be perfectly honest, Senator, no, I 
don't. I have to say that, with respect--you know, there is so 
much opposition to natural gas development, and yet it can be 
done in an environmentally sensitive way.
    The lands up on the Rocky Mountain front were a long trend 
with the Canadian gas field up there, it had similar potential, 
as the Wyoming Range. I feel that it's short-sighted to try to 
withdraw those lands.
    So, if you're asking me if I think it's a good model--no. I 
actually filed a lawsuit on the Lewis and Clark, so----
    Senator Barrasso. I was primarily asking about the model 
for--for doing it----
    Ms. Moseley. The model for buying back?
    Senator Barrasso [continuing]. For the buying back. Because 
if I heard your testimony right, and I read on page 5, you had 
the recommendation of the fair market value----
    Ms. Moseley. Absolutely.
    Senator Barrasso. We heard the Administration testify, I 
think it was Mr. Johnson, said that he felt that the government 
should not interfere with agreements between private 
individuals, and if they could come up with a price and an 
agreement that the government shouldn't get in there to 
negotiate what the potential long-term prospects would be.
    Ms. Moseley. I understand where they're coming from on that 
perspective. Clearly, the government will not be buying back 
the property. Therefore it would be done, you know, with a--
essentially a private citizen.
    But I think that there needs to be language included in the 
bill that directs how you reach a determination of fair market 
value. It needs to include the resources that are being 
foregone. So, from that perspective, I think it's important to 
have language in the bill--whether Congress needs to get 
involved every time fair market value is determined is, of 
course, not very bright.
    Senator Barrasso. Or, if Congress would be involved every 
time two individuals----
    Ms. Moseley. Absolutely--it's not necessary.
    Senator Barrasso. Mr. Amerine, first, I'm glad you got on 
that airplane to come here today and share your story, and 
thank you for being here, thank you for bringing your wife 
along.
    Where you work is not that far north of the Jonah Field, 
the Pinedale Anticline, you work with--and you're out there, 
I'm sure you're running into people who work in the oil fields, 
but also come to recreate in the Wyoming Range. I'm sure your 
paths cross.
    Anything you can, kind of share with us, in terms of many 
of the people who really work in the oil patch, and the impact 
that they have, and their beliefs about the Wyoming Range?
    Mr. Amerine. As the Pinedale Anticline and Jonah Field has 
developed, more and more new residents into the area from 
various States--Louisiana, Texas, wherever--are coming to that 
area. They like to recreate just like anybody else does, and 
the Wyoming Range is a pretty intriguing place to them. I get 
numerous hunters from other States, that have either moved to 
Wyoming to participate in energy development, or they're on 
short-time basis to take them on hunting trips during the fall. 
So, we have had that meeting, you know, there's people that 
enjoy that country.
    Also, we have oil and gas families that enjoy--I see them 
camped up there, along various roads, fishing, picnicking or 
whatever--the wife and family is in another State, they come up 
for a week or two to visit their husband who's working out on 
one of the developments and they end up there--it's a nice 
place to get away. We've taken some of those people on 
horseback rides during the summer, to explore those areas.
    Senator Barrasso. Anything you want to add about the 
importance of wildlife fisheries of the Wyoming Range?
    Mr. Amerine. You know, obviously wildlife is the basis of 
my business, whether it be hunting in the fall, or summer 
horseback rides--everybody wants to see that mule deer buck or 
that large elk bull or moose. So, wildlife is crucial to my 
occupation.
    These areas that they're anticipating drilling, and the 
areas we're looking at setting aside through this withdrawal 
are the areas that these fawns--mule deer fawns--and elk 
calves, and moose calves are born. This is where they start 
life. We're already encroaching on some of their winter range 
with energy development, and now we're basically in their 
nursery. That could be, in the long run, that could be 
detrimental to my business.
    Senator Barrasso. Gary, I want to thank you for being here.
    Claire, I want to thank you, and appreciate you being here 
today.
    Thank you, Mr. Chairman.
    Senator Wyden. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Mr. Caviezel, if 
I could ask you a few questions about the current situation--
you're currently in a leased situation, is that right?
    Mr. Caviezel. That is correct.
    Senator Cantwell. But there are issues here, obviously, 
with response time and better location?
    Mr. Caviezel. The Forest Service came to us a couple of 
years ago, asking us if we wanted to get out of the--or, excuse 
me, if we would like to purchase the land. They were looking to 
absolve the lease, basically.
    Senator Cantwell. Yet, have you asked them about leasing 
this new----
    Mr. Caviezel. I have asked them about leasing them the new 
land, and they said that they would not consider it.
    Senator Cantwell. Why not?
    Mr. Caviezel. They didn't give a reason.
    Senator Cantwell. But, they want you off of this particular 
property?
    Mr. Caviezel. Right, and they're not kicking us off, like, 
tomorrow, so--but they do want--they do want--because of, I 
think part of it has to do with we own the building that's 
currently on the land. So, for whatever reason, they don't want 
that situation to occur anymore. Because we have to--once we 
vacate the land, we have to take care of that--take the 
building with us, or demolish it, correctly.
    Senator Cantwell. What other alternatives have you looked 
at for funding?
    Mr. Caviezel. For funding?
    Senator Cantwell. Yes.
    Mr. Caviezel. For purchase? Or for----
    Senator Cantwell. Anything else. I mean what do you think 
the market----
    Mr. Caviezel. For the----
    Senator Cantwell [continuing]. Value is we're talking 
about?
    Mr. Caviezel. For the land?
    Senator Cantwell. Yes.
    Mr. Caviezel. Probably a half million to a million dollars.
    Senator Cantwell. OK, and so what funding sources, 
additionally, have you looked at?
    Mr. Caviezel. We have done a lot of research in terms of 
trying to find money for property. It's in terms of grants, and 
in terms of talking to the legislature. There's--the funding is 
not out there to buy the property. We have had some 
conversations that have said that once we get the land, come 
back to us, we can, you know, talk about building the building.
    Senator Cantwell. Which--and that doesn't even include 
getting rid of the other building, right?
    Mr. Caviezel. That's--exactly. Fire Chief Matt Cowan and 
I--we went to a fire building design workshop last June, and 
one of the questions we kept asking is--where can we find money 
to buy property? The consistent answer we got was, ``Good 
luck.''
    Senator Cantwell. You're this small community of what, a 
couple of hundred people? But yet, you have this 
responsibility, you know, in the wintertime, for 20,000 people 
on a given day who are roaming around, and 60,000 people who 
are passing by.
    Mr. Caviezel. Exactly.
    Senator Cantwell. Every day.
    Mr. Caviezel. Exactly.
    Senator Cantwell. But you're--those few hundred people are 
supposed to come up with a solution to meet the needs of all of 
those people?
    Mr. Caviezel. That's what we're being told.
    Senator Cantwell. OK, well, anyway--that's why we have the 
legislation and working with you, but thank you for 
illuminating that on the testimony.
    But you did say, but it does--does this new spot give you a 
better response time?
    Mr. Caviezel. It does. I mean the current location's OK. 
This new location would be the absolute best location.
    In the fire service, you know, you're talking, you know 10 
or 15 seconds can make a huge difference in trying to save a 
life. You know, if we're going to make a change, we want to do 
it the best that we can. So, this is the best location from a 
fire response standpoint.
    Senator Cantwell. How far down on both sides of the Pass do 
you go?
    Mr. Caviezel. We got from mile post 42, to mile post 60, 
which is about 18 miles. I would gather, that's probably the 
largest response area along I-90 for any fire department.
    Senator Cantwell. OK. Thank you, Mr. Chairman.
    Senator Wyden. You've made a very good case, Mr. Caviezel. 
I mean, why the government is putting you through all of this 
is sort of beyond me, but I thank you for coming.
    I have only a couple of questions for our Oregonians who 
came. Mike--to start with, with you--you've obviously ranched 
the land here for a long, long time. Your family--very deep 
roots there. Every time I have a town meeting at, you know, 
home, ranchers come and talk about all of the challenges that a 
ranching family now faces. How is this legislation going to 
help ranching families, for the long term, in the area?
    Mr. Amerine. The 16 of us that are involved, it's going to 
keep us whole. If we can get what we consider this small 
payment, we can reconstruct our operations and continue to 
ranch.
    If we don't get this legislation, not only do we not run 
cattle on open range anymore, but the value of our base 
property is affected, as well. As you know, with the land-use 
laws in Southern Oregon--or in Oregon, in general--it's a 
ranch. You can't subdivide it, and we don't want to subdivide 
it. We want to keep ranching, or at least have the opportunity 
to. This legislation gives us the chance to continue to do 
that. If we choose to sell our ranch in the future, if we can 
replace that summer forage with something else, then our ranch 
is still whole.
    Senator Wyden. Andy, you've been doing this awhile, and I 
think we were all smiling when Mike had said earlier in his 
prepared comments--you know, we don't necessarily agree 100 
percent of the time on all of these kinds of issues. But this 
looks to me, like a textbook case of how it ought to be done at 
the local level--I mean, it's homegrown, it's got a broad base 
of folks--how did this all come together? I'm sure that, you 
know, Dave Willis, with his incredible energy and passion for 
working with people was a huge catalyst in this, but how did 
this come--how many years have you all been at this?
    Mr. Dauenhauer. Four years. I think part of giving Dave 
kind of a left-handed compliment; his intense disdain for cows 
is how we got to.
    [Laughter.]
    Mr. Dauenhauer. But no, Dave's worked really hard at this, 
and it was--it's just, it was the only solution we could figure 
out. Andy approached me a long time ago and when he first did 
I--my first answer was no, I don't want anything to do with it. 
But, as you, you know, look with a little bit of common sense, 
and realize that your future on that mountain is not good, you 
look for other alternatives, and that's how we got here.
    Senator Wyden. Andy, you want to add anything else?
    Mr. Kerr. I first broached the subject with Mike and other 
ranchers, actually, before the Monument was designated, but 
they didn't want to hear it then. But I think as the import of 
the Monument Proclamation sunk in, we started talking.
    It was not easy. You know, we are traditional opponents on 
a lot of things. But, you know, learning to understand each 
others' positions and the position they're in, the positions 
we're in, the course that we were on, which was going to end up 
in the courts was going to be very costly for all of us, and we 
think this solution provides more certainty to all of our 
interests.
    So, it's not easy, but sometimes you can work things out, 
and this is another example of something that's been worked out 
locally, and it has to be brought to the national legislature, 
and you know, national conservation organizations, national 
cattle interests--they're very wary of this. You know, so we 
have this national versus local kind of tension.
    But, we think that there is the critical mass of support, 
among the conservation community and the livestock industry to 
get this done, and we hope that even Senator Smith can prevail 
upon your colleagues--some of which have, on this committee 
that have gotten buyouts such as this for others who have 
tried, and were not successful.
    They've all been--they've had constituents in this similar 
boat, and they've tried to help them, and some have been 
successful, and some haven't.
    Senator Wyden. Thank you for all of your efforts to find 
common ground, and I know it's been hard, and Senator Smith and 
I will follow up with Chairman Bingaman, and Senator Domenici 
very quickly. I think, especially in this committee and in this 
subcommittee, we've been very proud of the fact that--on the 
two major forestry issues that have actually passed in the last 
20 years--the County Payments legislation, and the Forest 
Health legislation, we haven't approached this kinds of things 
in a partisan kind of way, the staff folks in back of me work 
in a bipartisan fashion, and I think we can address these two 
bills--these three bills--that you all represent here, and the 
others that have come before us expeditiously.
    With that, safe travels back to the West, and the 
subcommittee is adjourned.
    [Whereupon, at 4:21 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Andy Kerr to Questions From Senator Barrasso
    Question 1. Mr. Kerr in an April 4, 2005 article in High Country 
News you advocated that all federal grazing permits be bought out for a 
price of $175 per AUM. Yet in your testimony supporting S. 2379 you are 
advocating for a $300 per AUM buy out.
    What makes these AUMs so much more valuable than what you called 
for just two years ago?
    Almost all declarations of new National Monuments limit, eliminate, 
or restrict one or more resource uses. Yet the Federal government has 
not been required to buyout the permit holders or lease holders of 
those permits that get restricted.
    Answer. Proposed compensation of either $175/AUM or $300/AUM far 
exceeds market value for any federal public lands grazing permit in the 
West. The average westwide market value of a grazing permit may be $35-
$100/AUM.\1\ Forage value is based on location, quality, and multiple 
other factors. Abundant high elevation summer forage in the Northern 
Rockies may be worth $100+/AUM, while ephemeral forage in the hot 
deserts of the Southwest may only be worth $5/AUM. The rate of $175/AUM 
was first proposed in H.R. 3324, (108th Cong.), the ``Voluntary Grazing 
Permit Buyout Act,'' introduced by Representatives Christopher Shays 
(R-CT-4th) and Raul Grijalva (D-AZ-7th). Later, Rep. Mike Simpson (R-
ID-2nd) introduced H.R. 5343 (108th Congress), the Central Idaho 
Economic Development and Recreation Act. Title IV of that bill proposed 
a voluntary grazing permit retirement program for certain federal 
grazing permits in Idaho. While the rate of compensation was unstated 
in the legislation, Rep. Simpson was on the record in favor of $300/
AUM. As I noted in my testimony, for purposes of social equity, I 
recommend Congress consider compensating grazing permittees at 
replacement value for their federal AUMs, rather than market value. 
Since federal forage is heavily subsidized by the government, it is not 
possible to find replacement forage on private lands for a price 
comparable to market value. Replacement value makes affected grazing 
permittees whole and allows them to lease substitute forage on nearby 
private lands. Rancher Mike Dauenhauer's testimony included rationales 
to estimate replacement value.
---------------------------------------------------------------------------
    \1\ Bartlett, E.T., L.A. Torell, N.R. Rimbey, et al. 2002. Valuing 
grazing use on public land. J. Range Manage. 55: 426-438 (reporting 
permit values are between $35-$75 in seasonal grazing states, and 
higher rates in states where yearlong grazing occurs) (citations 
omitted); Torell, L.A., N.R. Rimbey, J.A. Tanaka, S.A. Bailey. 2001. 
The lack of profit motive for ranching: implications for policy 
analysis. Proc. Current Issues in Rangeland Resource Economics Symp. 
Western Reg. Coord. Comm. on Rangeland Economics WCC-55. New Mexico 
State University Res. Rep. Ser. 737. New Mexico State University. Las 
Cruces, NM (unpaginated) (reporting average permit value of $40/AUM on 
public lands in Idaho and Wyoming).
---------------------------------------------------------------------------
    Question 2. Why is this case so special that the general public 
would be benefitted in this instance by a buyout, when neither Congress 
nor past Administrations have seen fit to compensate other ranchers who 
have lost access or seen their authorized AUM numbers decreased due to 
other National Monument or Wilderness designations?
    Answer. Never has Wilderness designation and very rarely has the 
establishment of a national monument result in reduced grazing on the 
designated public lands. For Wilderness, Congress has routinely 
restated or incorporated by reference the so-called ``Congressional 
Grazing Guidelines'' into site-specific Wilderness legislation that 
grandfather in existing grazing on designated public lands, and even 
supports increased grazing in Wilderness in some cases.\2\ Grazing has 
declined in some Wilderness areas in the West, but usually only years 
after designation and for reasons unrelated to its status as 
Wilderness, such as the permittee losing the ability or interest in 
continuing, concerns about diminishing native species, water quality 
requirements and other federal policies.
---------------------------------------------------------------------------
    \2\ Kerr, A. and M. Salvo. 2000. Livestock grazing in the National 
Park and Wilderness Preservation Systems. Wild Earth (10)2: 53-56.
---------------------------------------------------------------------------
    In the case of the designation of the Steens Mountain Wilderness in 
2000, 81,359 acres of the 174,744-acre Wilderness was defined by 
Congress as ``livestock-free''. In reality, the affected ranchers were 
compensated by the legislation, though such compensation was ``buried'' 
in accompanying land exchanges.\3\
---------------------------------------------------------------------------
    \3\ Steens Mountain Cooperative Management and Protection Act (Oct. 
30, 2000), Pub. L. 106-399, 114 Stat. 1655, 16 U.S.C. Sec.  460nnn et 
seq. See also M. Salvo. and A. Kerr. 2000. Congress designates first 
livestock-free wilderness area. Wild Earth 10(4): 55 (winter 2000/01).
---------------------------------------------------------------------------
    In the case of national monuments, the Presidents' historic and 
usual practice has been to grandfather in existing livestock grazing on 
the affected public lands. However, the proclamation that established 
the Cascade-Siskiyou National Monument is unique.\4\ It will actually 
result in reduced grazing on monument lands.
---------------------------------------------------------------------------
    \4\ See A. Kerr and M. Salvo. 2001. Evolving Presidential policy 
toward livestock grazing in national monuments. Penn State 
Environmental Law Review (10)1: 1-12.
---------------------------------------------------------------------------
                                 ______
                                 
    Responses of Melissa Simpson to Questions From Senator Barrasso
    Question 1. Other than the estimated million dollar value of this 
land, are there other reasonsthat the Mount Baker-Snoqualmie National 
Forest or the Forest Service believes this parcel has such important 
environmental or management value that it should not be conveyed?
    Answer. The Forest Service does not have an appraisal for the 
property and is not aware of the origin of the million dollar estimate. 
Although land values arc high in the Snoqualmie Pass area, this seems 
like a very high estimated value.
    The environmental value is not evident because the required 
environmental analysis and public review required under the National 
Environmental Policy Act and other laws has not been initiated. 
Pursuing a Townsite Act land purchase application would provide for 
this type of analysis before this parcel could be conveyed out of 
Federal ownership.
    The Forest Service does not object to conveying the lands included 
in the bill. It has been the consistent position of this and prior 
administrations to oppose any legislation that does not require market 
value compensation for land conveyed out of Federal ownership. It is 
longstanding policy that the taxpayers of the United States should 
receive market value for the sale. exchange, or use of their National 
Forest System lands.
    Question 2. When the fire department offered to lease the 13 acres 
being proposed forconveyance, why did the Forest or District reject 
that offer?
    Answer. The Forest Service has no record of an offer or a rejection 
of a lease for the subject property.
    Question 3. I note your concern in your testimony about local land 
use planning and zoning and I would like to better understand the 
changes that you may be asking for.
    Would you recommend eliminating the non-federal lands from this 
study? If not, what precisely do you recommend to address the 
Department's concerns?
    Answer. No, we would not recommend eliminating lands from the study 
area. The Forest Service has conducted similar studies (i.e. New 
Jersey-New York and Connecticut-Pennsylvania Highlands Studies) that 
look across the landscape and jurisdictions on Federal, State, local, 
and private lands. This is done in a way that is sensitive to local 
jurisdictions and decision-making and engages local governments and 
municipalities. The Forest Service recommends engaging and cooperating 
with local communities and stakeholders throughout the study process. 
In addition, any recommendations made in the study would need to be 
tailored appropriately to the different ownerships- Federal, State, 
local government, or private.
    Question 4. If no changes were made to this legislation and the 
Forest Service is directed to complete the study, can you tell me what 
line items in the Region Two budget might be tasked with paying for 
this study? And how much that study might cost?
    Answer. The primary funding code from the Region 2 budget that 
might be tasked with paying for this study would be NFLM (land 
ownership management). Other codes that may also be used are:

  <bullet> SPFH (forest health on federal lands)
  <bullet> SPCH (forest health on co-op lands)
  <bullet> LALW (land acquisition management)

    Based on the work that has already been accomplished, the Forest 
Service estimates that this study could cost $500,000 to $1 million to 
complete. The estimated duration of the study would be 1 year.
    Question 5. Are there any parts of the study called for in this 
bill that have already been accomplished by the Forest Service in its 
``Forests on the Edge'' (FOTE) report?
    Answer. The ongoing Forests on the Edge project does provide 
information on what undeveloped lands in the Front Range Backdrop Study 
Area may be at risk of development. The recent National Forests on the 
Edge report estimates that 11% of rural private lands within 10 miles 
of the Arapahoe-Roosevelt National Forest may see significant increases 
in housing density by 2030. The underlying data used in this report 
could be further analyzed to provide more details on expected 
development in the Study Area. The Front Range study could also 
incorporate and utilize more detailed local data on land ownership, 
zoning, and protected lands available from the State, Counties, 
municipalities, and local land trusts.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Luke Johnson From Senator Bingaman
    Question 1. Your written testimony includes the following--``The 
Department is also concerned that it could leave these Federal 
resources vulnerable to drainage, without appropriate compensation to 
the Federal Treasury and the State, if development occurs on adjacent 
private lands.'' My understanding is that section 17(j) and the BLM's 
regulations on drainage (43 CFR 3100) already provide the Secretary 
with authority to negotiate compensation agreements in cases of 
drainage. Therefore, why are you concerned that that the Federal 
Treasury and the State would not be appropriately compensated in a 
drainage situation?
    Question 2. Your testimony states that, within the proposed 
withdrawal area, 76 leases are currently producing. It is my 
understanding that none of the existing leases within the withdrawal 
area are currently producing. Could you provide more specific 
information about these 76 leases, which you state are currently 
producing, within the withdrawal area?
    Question 3. Your written testimony mentions a ``potential budgetary 
impact'' and ``necessary offsets'' associated with this bill. Given 
that the bill clearly states that the withdrawal is ``subject to valid 
existing rights,'' and, therefore, existing leases within the proposed 
withdrawal area could be fully developed subsequent to enactment of the 
legislation, please explain in more detail what you mean by ``potential 
budgetary impact'' and ``necessary offsets.''
    Question 4. Your testimony states that the BLM estimates that the 
proposed withdrawal area ``contains 8.8 trillion cubic feet of natural 
gas and 331 million barrels of oil that are technically recoverable.'' 
Could you please provide the data source and method used to calculate 
these numbers? My understanding is that the 2003 EPCA report completed 
by the Department of the Interior estimated that the entire Wyoming 
Thrust Belt province harbored only 374 billion cubic feet of 
technically recoverable natural gas underlying federal lands.
            Questions for Luke Johnson From Senator Barrasso
       s.2379--cascade-siskiyou national monument grazing leases
    I know that the BLM is working to complete its report on grazing 
and alternatives on the Cascade-Siskiyou National Monument by the end 
of 2008.
    Question 5. Do you anticipate that the report will be completed on 
time and how long after that will we really know if the BLM recommends 
that these permits be cancelled, modified, or maintained?
    Question 6. Are there real alternatives or modifications available 
to allow grazing to continue in the Monument? If so what are they?
    Question 7. Mr. Johnson, I know the BLM reported it has 18,000 
grazing permits, can you tell me how many AUMs of grazing occurred last 
year for the entire BLM as a result of those permits?
    Question 8. If we had to buy out all BLM grazing permits and AUMs 
that were authorized to be grazed in year 2006 at the price called for 
in this bill ($300.00) that would be about $2.1 billion in total costs, 
is that correct?
    Question 9. On average over the last 10 years how many AUMs were 
permitted and how many AUMs were authorized to be grazed for each year?
    Question 10. I know that authorized animal numbers and AUMs have 
been down over the last several years due to drought; what is the 
maximum number of AUMs that could be allowed in FY 2008 if range 
conditions and moisture would allow the permit holders to maximize 
their numbers?
    Question 11. You have a number of other National Monuments that the 
DOI is responsible for. How many AUMs of grazing occurred last year on 
these Monuments? Have permitted and or authorized AUM numbers decreased 
on those allotments after the Monument was designated? If so how much?
    Question 12. At $300 per AUM, what would it cost to buy out all the 
permitted Department of the Interior AUMs on National Monuments?
    Question 13. I know that the Hanford National Monument in 
Washington State and the Cascade-Siskiyou National Monument in Oregon 
both included language that potentially restricted grazing, are there 
other Monument proclamations that include similar language? If so what 
Monuments?
    Question 14. What other resource uses have been eliminated from 
National Monuments and have any of those resource users been 
compensated for their loss?
                 h.r. 838--land sales to park city, ut
    Question 15. Please provide a detailed list of the non-patented 
mining claims that exist in each of the parcels proposed for disposal.
    Question 16. Are there any historic or cultural sites on these 
lands that are proposed for conveyance or sale to the City?
    Question 17. Have these lands been surveyed for cultural resources 
or potential hazardous conditions that would preclude the federal 
government from conveying or exchanging these lands?
    Question 18. If any hazards have been identified would the federal 
government accept responsibility for clean-up prior to the conveyance 
or exchange?
             Questions for Luke Johnson From Senator Smith
    Burned Area Rehabilitation funding is for three years following a 
fire. For those lands damaged by fires that are unlikely to recover 
their pre-fire condition, function and diversity, rehabilitation will 
begin after stabilization is completed, and continue for up to three 
years following the fires. There was a request by BLM Oregon for 
$587,000 in the Burned Area Rehabilitation Plan for 2008. It includes 
funding for 65 miles of fence, shrub planting, and five guzzlers (a 
man-made catch basin designed to enhance natural waters). To date, BLM 
Oregon has not received any funding to address these issues associated 
with the Egley Fire.
    Question 19. Can you assure me that this funding will make its way 
from the Washington office to the BLM officials on the ground in Oregon 
to complete this work? Why has the money been held up?
    20. Could the BLM address the concerns raised in the attached 
letter from my constituent, J. Gene Johnson?

    [The letter attached separately follows:]

                                          2973 Linden Lane,
                               Central Point, OR, February 6, 2008.
Hon. Gordon Smith,

    My inquiry is to the definition of the word ``public'' by the BLM 
on right. of way agreements on private lands. Medford BLM has explained 
that the word ``public use'' means the BLM only, not the general 
public. I am including a right of way agreement on one of the roads in 
question.
    A large number of gates have been installed on private property on 
BLM right of way agreements blocking access for the public to parts of 
the Monument and the proposed wilderness. The private gate at Randcore 
Pass Road on a BLM right of way blocks access to the public on a road 
that has been open for over 50 years (map included).*
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    A letter from the Ashland Field Manager states the BLM has now 
exclusive rights and has access for administrative use only but leaves 
out for other public use as the agreement states. It would seem that 
this interpretation has far reaching affects on access for the public 
to our National Forest for the future. For the past 25 years I have 
camped for a few days each summer in our wilderness areas of Southern 
Oregon. Years past I camped for a weekend in this area below the gate 
at Randcore Pass Road This is no longer accessible to me and others 
that visited this area in years before the gates.
            Sincerely,
                                            J Gene Johnson.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                Endangered Habitats League,
                                                 February 25, 2008.
Carl Artman,
Assistant Secretary for Indian Affairs, Department of the Interior, 
        1849 C Street, N.W., Room 4162, Washington DC.
Re: Environmental Consequences of Fee-to-Trust Transfers

    Dear Secretary Artman: The Endangered Habitats League (``EHL''), a 
nonprofit Southern California regional conservation organization, 
writes to bring to your attention a significant environmental legal 
issue that essentially eliminates important environmental safeguards 
intended to protect some of California's most sensitive and imperiled 
natural habitats. By virtue of a serious loophole in federal law that 
permits the exploitation of the benefits provided by fee-to-trust 
transfers, the ability of the Bureau of Indian Affairs (``BIA'') and 
the Secretary of Interior (``Secretary'') to effectively carry out 
their mandated duties is being unnecessarily obstructed. The loophole 
assumes particular significance in the Southern California Counties of 
San Diego and Riverside where EHL works, and where some of the most 
biologically diverse habitat in the United States must co-exist with an 
unusually high concentration of tribal jurisdictions.
    While fee-to-trust transfers represent a useful means of 
reconstituting Native American territories and providing tribes with 
further opportunities for self-government, current federal law allows 
for significant abuse of the fee-to-trust transfer process. In some 
instances, Native American tribes have applied for fee-to-trust 
transfers on the grounds that their planned uses of the trust land will 
focus on preservation of the land and its resources. In actuality, 
however, the post-transfer use ends up being significantly different, 
involving development with potentially destructive environmental 
consequences. EHL thus urges the BIA to permit only those uses of fee-
to-trust land that are specifically disclosed and considered in the 
application process.
    EHL has noticed these situations with increasing alarm and wishes 
to publicly document the detrimental impact such transfers have on 
surrounding communities as well as on the federal government's ability 
to meet its obligations under the National Environmental Policy Act. 
Further, in light of this shortcoming in federal regulation, EHL 
requests that the BIA and Secretary engage in a more exacting review of 
applications for fee-to-trust transfers, keeping in mind the 
considerable impact such transfers have on the public's ability to 
remain involved in land use decisions that unquestionably impact them. 
This heightened scrutiny includes ensuring that decisions are made by 
independent agency staff and strictly limiting use of trust lands to 
those uses expressly stated in the fee-to-trust transfer application, 
absent further federal approval.
    EHL is not requesting that the BIA arbitrarily limit the autonomy 
of Native American tribes. EHL is not asking that any Native American 
tribe be required to make a crystal ball prediction of all the possible 
land uses it might suggest for a particular fee-to-trust parcel. Nor is 
EHL asking that the BIA prevent Native American tribes from engaging in 
economically beneficial development of their trust land. EHL is only 
asking that such development be done in a manner respecting the process 
that was always intended by the federal government and the state of 
California to be controlling of these decisions, and that it be done in 
a manner that reflects the spirit of NEPA. EHL is not asking Native 
American tribes to refrain from decisionmaking; we are merely asking 
that when those decisions implicate the health of our collective 
environment, the public be given an opportunity to sit at the table.
          background on the national environmental policy act
    Congress passed the National Environmental Policy Act (``NEPA'') in 
1969\1\ to ensure that all federal agents or agencies (including the 
BIA and Secretary) take environmental impacts into account when making 
any major decision that affects the use of land in the United States. 
Often referred to as the ``Magna Carta'' of environmental laws, NEPA's 
stated purpose is to ``foster excellent action'' and ``help public 
officials make decisions that are based on understanding of 
environmental consequences, and take actions that protect, restore, and 
enhance the environment.'' 40 C.F.R. Sec.  1500.1 (1970).
---------------------------------------------------------------------------
    \1\ President Richard Nixon signed it into law on January 1, 1970.
---------------------------------------------------------------------------
    Congress recognized, however, that in order to make fully informed 
decisions regarding environmental consequences, federal agencies would 
need assistance and input from organizations and individuals who have 
greater knowledge about the impacts of particular actions in specific 
locations as well as greater interest in the ultimate outcome. To 
accommodate this reality, the regulations mandate that ``Federal 
agencies shall to the fullest extent possible . . . Encourage and 
facilitate public involvement in decisions which affect the quality of 
the human environment.'' 40 C.F.R. Sec.  1500.2. Further, agencies must 
``Make diligent efforts to involve the public in preparing and 
implementing their NEPA procedures. . . . [and] [s]olicit appropriate 
information from the public.'' 40 C.F.R. Sec.  1506.6 (b), (d).
             application of nepa to fee-to-trust transfers
    The decision to grant a fee-to-trust transfer is a major federal 
decision with the potential to drastically affect the quality of the 
environment. As you are well aware, granting a fee-to-trust transfer 
effectively removes land from state and local jurisdiction, preventing 
indefinitely the application of any state or local environmental 
regulations. After a tribe acquires a parcel of land in trust, the only 
environmental oversight that exists with regard to that parcel is 
tribal or federal.
    Congress recognized the severity of this result and, therefore, 
explicitly included NEPA in the regulations governing fee-to-trust 
transfers. Before granting a fee-to-trust transfer, the BIA must ensure 
that enough information has been provided in the application to allow 
the agency to comply with its NEPA obligations. See 25 C.F.R. Sec.  
151.10. In other words, the BIA must be provided with enough 
information to: (1) make ``excellent'' decisions, (2) take action that 
will ``protect, restore, and enhance the environment,'' and (3) seek 
the ``appropriate information from the public.''
    To the extent that the BIA fails to make excellent decisions, 
declines to take necessary action to protect the environment or refuses 
to seek appropriate information from the public, affected members of 
the public can take action. Under the Administrative Procedures Act, 
citizens are given a voice and a limited window of opportunity to 
challenge questionable decisions made regarding federal action and this 
transfer of land ownership. See, e.g., 5 U.S.C. Sec.  702. Once land 
has been removed to trust status, however, the ability of citizens to 
comment upon the environmental impacts of proposed land uses or to 
challenge decisions that are environmentally devastating is greatly 
curtailed if not altogether lost.
    EHL contends that the BIA must engage in a more rigorous 
investigation of fee-to-trust transfer applications to guarantee that 
the above three goals of NEPA can be met. While federal and tribal laws 
may be sufficient to address environmental concerns in some situations, 
there are not adequate backstops in place to prevent abuse of the 
current system. The finality of the fee-to-trust transfer process can 
(and does) lead to development projects and major alterations to the 
native environment that will go essentially unmonitored.
       example--proposed preservation site becomes the back nine
    In 2001, the Pechanga Tribe of Luiseno Indians (``Pechanga Tribe'') 
applied for a fee-to-trust transfer of 296.29 acres of land in 
Riverside County.
    As this was a discretionary transfer by the BIA, review under NEPA 
was required. Accordingly, the Pechanga Tribe arranged for the 
preparation of an Environmental Assessment (``EA'') under NEPA, which 
it released in March 2001. In its EA, the Tribe made several assertions 
regarding the use of the land in question, including the following:

  <bullet> ``The Tribe's purpose for taking the 296.29 acres of land 
        into trust is to maintain the existing cultural resources that 
        exist throughout the site.'' Pechanga Tribe Environmental 
        Assessment at 1-1 (March 2001).
  <bullet> ``[T]he site also contains vegetation that has significant 
        cultural value to the Tribe. The project site contains many 
        plants important to the Tribe including elderberry bushes, 
        buckwheat, sage and oaks. This existing vegetation plays an 
        important role in tribal rituals and diet. It is the goal of 
        the Tribal council to preserve and maintain this important 
        vegetation.'' Pechanga Tribe Environmental Assessment at 1-2 
        (March 2001) (emphasis added).
  <bullet> ``Once brought into the trust, the Tribe proposes to 
        maintain and preserve the existing cultural resources found 
        throughout the site. Given the vast occurrence of cultural 
        resources found on the site, no development is proposed.'' 
        Pechanga Tribe Environmental Assessment at 2-1 (March 2001) 
        (emphasis added).
  <bullet> ``The future use of the property involved the continued use 
        of an existing cultural resource center and residential unit 
        together with the preservation of the existing cultural 
        resources on the project site. No development is proposed or 
        anticipated for the subject property.'' Pechanga Tribe 
        Environmental Assessment at 1-1 (March 2001) (emphasis added).

    Based on these representations made by the Tribe regarding its 
planned use of the land, the EA concluded that there would be no 
environmental impacts from the transfer and, therefore, proposed no 
mitigation measures. The EA asserts, in part:

  <bullet> ``There would be no environmental impacts associated with 
        the Proposed Action. The Proposed Action would result in the 
        maintenance of existing uses on the proposed trust parcel . . . 
        Land and Water resources would likewise not be impacted, due to 
        the lack of any proposed development.'' Pechanga Tribe 
        Environmental Assessment at 2-3 (March 2001) (emphasis added).
  <bullet> ``The proposed action will result in no change in use or 
        activity and no alteration to existing conditions at the 
        proposed site. Therefore, the fee-to-trust action will result 
        in no impact to existing biological resources on the proposed 
        site.'' Pechanga Tribe Environmental Assessment at 4-1 (March 
        2001) (emphasis added).

    Based upon the representations made by the Pechanga Tribe regarding 
its planned use of the land and based upon the determination in the 
Tribe's self-commissioned EA that the transfer would result in ``no 
environmental impacts,'' the BIA issued a Finding of No Significant 
Impact on March 22, 2001. In making this finding, Clayton Gregory, 
Regional Director of the Pacific Region, relied on several factors, 
including:

  <bullet> ``The Band's intended use of the property involves the 
        continued use of an existing cultural resource center and 
        residential unit together with the preservation of the existing 
        cultural resources on the property. No change in land use or 
        development is proposed for the property.''
  <bullet> ``The proposed action will result in the long-term 
        protection of cultural resources.''
  <bullet> ``There will be no significant impacts to land resources.''
  <bullet> ``There will be no significant impacts to sensitive plants, 
        wildlife or habitats.''
  <bullet> ``There will be no significant impacts to water resources.''

    Finding of No Significant Impact, Proposed Trust Acquisition of 
Eleven Fee Parcels, Pechanga Indian Reservation Riverside County, 
Calif. (``FONSI'') at 1 (March 22, 2001) (emphasis added).
    As required under NEPA, the BIA published this FONSI, along with 
the Pechanga Tribe's EA, and opened both up to public comment. Given 
that it had been stated and re-stated that no development was proposed 
for the property, the BIA did not receive any adverse comments.
    On January 9, 2003, the BIA noticed its intent to accept the 
property into trust for use by the Pechanga Tribe. On the issue of 
``Proposed Land Use,'' the Acting Regional Director of the BIA found, 
``The sole purpose of the acquisition is the preservation and the 
protection of Luiseno people's natural and cultural resources. The 
Pechanga Band is committed to protecting and preserving the invaluable 
and irreplaceable cultural resources of the Pechanga and Luiseno 
people.'' Bureau of Indian Affairs, Notice of Decision at 4 (Jan. 9, 
2003) (emphasis added).
    While the public was given an opportunity to comment on the EA, 
FONSI and notice of decision, the BIA received no comments because, 
again, ``no change'' in land use and ``no development'' was proposed 
for the parcel. Pechanga Tribe Environmental Assessment at 1-1 (March 
2001), Finding of No Significant Impact, Proposed Trust Acquisition of 
Eleven Fee Parcels, Pechanga Indian Reservation Riverside County, 
California (``FONSI'') at 1 (March 22, 2001).
    In August 2003, the same year its fee-to-trust transfer was 
granted, the Pechanga Tribe released the Pechanga Resort and Casino 
Expansion and Economic Development Project Environmental Study, 
describing the potential environmental impacts of its planned casino 
expansion on the Kelsey tract, a section of the Pechanga Reservation 
that is adjacent to the parcel the Tribe had just acquired in trust. 
This study made passing reference in its cumulative impacts section to 
an 18-hole golf course as a future project related to its planned 
casino expansion.
    Unfortunately, the referenced golf course was neither directly 
addressed in this 2003 tribal environmental study, nor was it fully 
contained within the Kelsey tract. In early 2007, the Pechanga Tribe 
commenced golf course construction through the disruptive grading of 
land on both the Kelsey tract and the adjacent fee-to-trust parcel, the 
same parcel that was to be used for ``maintain[ing] and preserv[ing] 
the existing cultural resources found throughout the site'' and the 
same parcel on which ``no development [was] proposed or anticipated.'' 
Pechanga Tribe Environmental Assessment at 1-1, 2-1 (March 2001).
    This golf course development was especially troubling given the 
parcel's location within ``criteria cells'' in the Western Riverside 
County Multiple Species Habitat Conservation Plan (``MSHCP''). The 
MSHCP was the result of a decade of discussions, negotiation and 
planning among the County of Riverside, all the cities in Western 
Riverside County, the U.S. Fish and Wildlife Service, the California 
Department of Fish and Game, infrastructure providers, various 
landowners, and business and environmental groups. It represents a 
consensus plan, allowing for expedited development and highway and 
other infrastructure while, at the same time, designating the highest 
value habitat areas for conservation. The vast majority of the 296.29 
acres transferred to the BIA in trust for the benefit of the Pechanga 
Tribe in 2003 had been designated under the MSHCP as within criteria 
cells, or areas possessing biological attributes that require specified 
levels of conservation. Application of the criteria during the land use 
process will result in permanent protection of all or portions of such 
cells.
    The grading and construction of a golf course pose several 
potential hazards to wildlife and biodiversity in the fee-to-trust land 
and in adjacent areas. Besides direct loss of habitat, lighting, 
traffic and polluted runoff all may affect the parcel's suitability as 
part of a critical corridor for wildlife movement between nearby 
National Forests in the Santa Ana and Palomar Mountains. And even if 
the golf course alone were consistent with the MSHCP, incompatible 
development may occur on the remainder of the site in the future, 
potentially throwing the regional MSHCP permits into jeopardy. Had the 
land remained under local land use jurisdiction, any development 
application would have undergone a public process through which a 
determination would be made whether to set aside all or a portion of 
the land, via purchase or otherwise, for conservation. The change of 
use following the fee-to-trust transfer, however, deprived the land of 
the protection that the MSHCP afforded. Further, had EHL or other 
interested individuals or organizations known that the Pechanga Tribe 
planned to build a golf course on the parcel, they would have commented 
on, and contested, the BIA's FONSI and Notice of Decision to grant the 
fee-to-trust transfer. Indeed, the entire Riverside County community 
was deprived of the opportunity to participate in any meaningful 
decision-making regarding use of the land, and because the decision to 
build the golf course was made after the fee-to-trust transfer and NEPA 
process became final, the BIA was deprived of the ability to make a 
fully informed and ``excellent'' decision regarding the environmental 
effects of its transfer action.
    EHL explains this situation not to question the Pechanga Tribe's 
motives in seeking its fee-to-trust transfer, nor to suggest any 
wrongdoing on the part of the Tribe. It is quite possible that the 
Pechanga Tribe, after acquiring the land in trust, simply changed its 
mind about the best utilization of the parcel. But this is exactly the 
problem. EHL highlights this situation as an example of the type of 
disconcerting land use changes that are permissible under the current 
scheme, preventing the BIA from making ``decisions that are based on 
understanding of environmental consequences'' and divesting citizens of 
the opportunity to engage in discussions regarding development that 
necessarily impacts their surroundings.
    In response to these and similar concerns subsequently raised after 
the discovery of the construction of this particular golf course and 
its impacts on the sensitive native ecosystems, Pechanga's General 
Counsel John Macarro wrote that ``once the land is placed in trust a 
tribe has complete zoning and planning authority over it, and can 
change land uses just as a county or city can change or update its 
general plan or zoning designations.''
    Mr. Macarro is correct in stating that once land goes into trust, 
the tribe exercises complete zoning and planning authority over it, but 
he is incorrect in analogizing this to the planning authority of 
counties or cities. In California, the majority of cities and counties 
are decidedly not free to arbitrarily change their general plans or 
zoning designations without public oversight. The California 
Environmental Quality Act (``CEQA'') moderates and informs any 
decisions made by local or state agencies that may have ``significant 
environmental effects.'' Cal. Code Regs., tit. 14, Sec.  15002 (as 
amended July 27, 2007). Under CEQA, public agencies have a duty to 
avoid or minimize environmental damage and the regulations note that 
``[p]ublic participation is an essential part of the CEQA process.'' 
Id. at Sec.  15201. Therefore, if a city in California were to decide 
to change its use of city-owned land, or if anyone wanted to buy and 
build on city-owned land, they would likely need to prepare and submit 
an environmental impact report (``EIR'') for public comment before the 
city could approve the land-use change. If the EIR was insufficient, or 
if issues and concerns raised by the public were not adequately 
addressed through discussion of mitigation options in the Master EIR, 
concerned citizens could file a petition for a writ of mandate 
challenging the approval of the project. Id. at Sec.  15232. Further, 
city-and county-owned land is often also subject to community-oriented 
collaborative agreements, such as Riverside County's MSCHP, which 
require community discussion and consensus-building around decisions 
that affect sensitive land use.
    Because trust land has been removed from any local jurisdiction, 
however, Native American tribes are actually endowed with an uber-
autonomy, and have little obligation to connect with the broader 
community when making potentially significant and destructive decisions 
regarding the use (or misuse) of that land. Tribal EIRs cannot 
substitute for state and local regulations because they vary in 
coverage and are enforceable, if at all, only by the state (in the case 
of state-tribal compacts relating to gaming development) or a federal 
agency. Often, if public input is even required by a tribal 
environmental policy act,\2\ the public has no knowledge that it has 
been excluded from the process until it is too late, and is left with 
no recourse.
---------------------------------------------------------------------------
    \2\ Notably, 25 C.F.R. Sec.  151 does not require the Secretary to 
even consider whether a tribal environmental policy is in place before 
granting a transfer.
---------------------------------------------------------------------------
    Federal law previously provided some backstop in 25 U.S.C. Sec.  
81, requiring that the Secretary approve any agreement made by any 
person with any Native American tribe for ``the payment of money . . . 
in consideration of services for said Indians relative to their 
lands.'' Such federal approval over post-transfer development would 
necessarily trigger NEPA, thus imposing an opportunity for public 
comment and surrounding community oversight.
    This section was revised in 2000, however, to apply only to 
agreements or contracts that encumber Native American lands for a 
period of 7 or more years. A few other regulations similarly address 
the federal approval of contracts, but only for specified uses of the 
land, such as mineral rights, timber harvesting and hunting and fishing 
rights. Thus, while there exists a patchwork of regulatory requirements 
regarding changes in the use of trust lands, it does not provide 
coverage sufficient to ensure that the BIA is meeting its charge to 
take ``actions that protect, restore, and enhance the environment.'' 
Indeed, most development activity with the potential to destroy 
surrounding habitat has no public oversight protection whatsoever.
                           proposed remedies
    EHL believes the impact of these regulatory loopholes could be 
significantly diminished by alterations in the BIA's decision-making 
process regarding fee-to-trust transfers. This begins with hiring 
independent BIA staff to review and consider fee-to-trust transfer 
applications; staff whose salaries or career path are not reliant upon 
the tribes themselves.\3\ Beyond this initial step, the BIA must be 
willing to take a ``hard look'' at the proposed uses of trust land and 
consider them not only in the context of the fee-to-trust application, 
but in the larger context of the applicant tribe's current land 
holdings and, potentially, its gaming facilities. Given the increasing 
scarcity of native ecosystems and the dwindling biodiversity of 
southern California, we can no longer afford to simply rubber-stamp 
fee-to-trust transfers.
---------------------------------------------------------------------------
    \3\ In its September 20, 2006 report, the Office of the Inspector 
General of the U.S. Department of Interior reviewed a proposed 
Memorandum of Understanding between the BIA Pacific Regional Office and 
the ``California Fee To Trust Consortium Tribes.'' See Office of 
Inspector General Report of Investigation at 1 (Sept. 20, 2006). What 
the Inspector General found was that tribal members of the consortium 
were willing to give up certain amounts of Tribal Priority Allocation 
(``TPA'') funds so that the BIA could hire ``professional staff'' to 
assist in the processing of their (i.e., the consortium members') fee-
to-trust transfers. Id. at 2. Each tribe that elected to join the 
consortium was required to donate a minimum of $3,000 in TPA funds per 
year, but there was no maximum donation. The redirected TPA funds are 
used to hire full time BIA employees whose sole duty is to review and 
process tribal feeto-trust applications submitted by consortium member 
tribes (including reviewing title status and completing environmental 
reviews of the involved properties). Id. At the end of their review 
process, the consortium staff makes a recommendation to the 
adjudicating official whether they believe the application should be 
accepted into trust or not. Per the report, almost all fee-to-trust 
applications submitted through the consortium are given favorable 
recommendations. Id. After reviewing this system, the Inspector General 
found that ``The ability of an all-tribal body to influence the 
selection, performance awards, and duties and responsibilities of the 
federal consortium staff--coupled with the fact that the tribes control 
the purse strings from which the consortium staffs' salaries are 
dependent--results in a patent perception of a conflict of interest. 
This investigation has found this appearance of a conflict of interest 
to be, in fact, real.'' Id. at 1.
---------------------------------------------------------------------------
    Perhaps most importantly, the BIA should restrict the use of trust 
lands to those uses expressly stated on the face of the fee-to-trust 
application. To the extent that its trustee obligations allow, the 
federal government should be willing to exert its jurisdiction over 
land acquired in a fee-to-trust transfer and should require Native 
American tribes to seek additional BIA approval for any proposed land 
use that was not originally approved in the application. As stated 
above, the federal government already requires additional approval when 
a tribe contemplates certain land uses. By simply requiring tribes to 
utilize the land for the purposes under which it was requested, the BIA 
would ensure that all potentially damaging changes in land use occur 
through the established NEPA framework and would allow for public 
comment and oversight on any alterations that could affect the quality 
of the land or impact neighboring communities.
    We request the opportunity to meet with you and your staff in order 
to further discuss these issues and develop workable solutions.
            Very truly yours,
                                                Dan Silver,
                                                Executive Director.
                                 ______
                                 
                          Soda Mountain Wilderness Council,
                                                     March 5, 2008.
Hon. Ron Wyden,
Chair.
Hon. John A. Barrasso,
Ranking Member.
Hon. Gordon Smith,
Member, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.

    Please enter this letter and the three attachments listed below 
into the hearing record for the February 27, 2008, Public Lands and 
Forests subcommittee hearing on S. 2379, ``The Cascade-Siskiyou 
National Monument Voluntary and Equitable Grazing Conflict Resolution 
Act, '' introduced by Senators Smith and Wyden on November 16, 2007.

    TO FACILITATE EASIER CIRCULATION TO RELEVANT INTERESTED PARTIES, 
THIS SUBMISSION DEALS ONLY WITH THE SODA MOUNTAIN WILDERNESS PROPOSAL 
BOUNDARY PORTION OF S. 2379. THIS IS NOT MY FULL CONTRIBUTION TO THE 
HEARING RECORD.

    Dear Senators Wyden, Barrasso, and Smith, My name is Dave Willis. I 
chair the Soda Mountain Wilderness Council (SMWC), based near Ashland 
(Oregon), and am a charter board member of SMWC, which began in 1984. 
Thank you for the opportunity to submit this information for the 
hearing record. I regret that a bad case of flu prevented me from 
accepting Senator Wyden's invitation to testify in person on February 
27. Please accept my thanks to subcommittee members and staff for 
permitting SMWC's consultant and colleague, Andy Kerr, to testify in my 
place with his own testimony on February 27, which SMWC supports. My 
further deep and grateful thanks to both Senator Smith and Senator 
Wyden for introducing S. 2379.
    Since 1983, I have been involved with many, many others in efforts 
to achieve the best protection possible for the ecologically unique and 
valuable landscape that now has the Cascade-Siskiyou National Monument 
at its core. I am part-owner of property that borders the Monument and 
have lived on this property since 1979. I am probably as familiar with 
the on-the-ground specifics of S.2379's 23,000+ acre Soda Mountain 
Wilderness proposal as anyone. Though some may know a corner or three 
better than I, I believe I have the best general on-the-ground 
knowledge of the whole proposal, based on almost thirty years of 
personal horseback, hiking, and fishing trips into the area by myself 
and with many others. I, the SMWC board, consulting scientists and 
residents, and former Bureau of Land Management (BLM) staff 
cumulatively developed the 23,000+ acre Soda Mountain Wilderness 
proposal boundaries, which encompass only Medford District BLM land 
entirely within, and in the southern backcountry of, Oregon's 53,000 
acre Cascade-Siskiyou National Monument.
    It is utterly normal and necessary (because of the threat of 
``industrial tourism,'' but not only for that reason) for the 
backcountry of National Parks and Monuments to be designated as 
wilderness by Congress. In fact, the National Park Service manages more 
of the National Wilderness Preservation System than any other federal 
agency (-see www.wilderness.net ``General Information: Who Manages 
Wilderness?''). However, the Bureau of Land Management (BLM) is 
relatively new to the task of managing National Monuments. BLM is 
historically accustomed to a ``multiple-use'' approach to land 
management that often tilts toward commodity production and mechanized 
recreation. In western Oregon, only two-thirds of one per cent of BLM 
lands have been congressionally designated as wilderness (-see 
Attachment 1).*
---------------------------------------------------------------------------
    * Attachments 1-3 have been retained in subcommittee files.
---------------------------------------------------------------------------
    The Cascade-Siskiyou National Monument's June 2000 Proclamation 
mandate that Monument public lands `` ... are hereby set apart and 
reserved .. for the purpose of protecting'' the Monument's native 
species and natural features presents a new challenge for a BLM whose 
custom and culture has been institutionally biased in favor of 
commodity production and mechanization. Regardless, congressional 
wilderness designation for the backcountry of a National Monument is 
nothing new (even ifBLM is new to National Monuments)--and 
congressional wilderness designation is fully consistent with the 
specific ``purpose-statement'' protection mandate that is meant to hone 
the management direction for this particular Monument. Indeed, 
wilderness designation for at least 23,000 southern backcountry acres 
of the 53,000 acre Cascade-Siskiyou National Monument will encourage 
BLM to take the Monument Proclamation's protection mandate seriously 
here, at least in the Monument backcountry, as BLM transitions from 
multiple-use management to managing for the purpose of protecting the 
public lands of the Cascade-Siskiyou National Monument.
    Especially because of the paucity of congressionally designated 
wilderness on western Oregon BLM land and on BLM land in Oregon's 2nd 
congressional district in general, we were cautiously pleased and 
encouraged to read the Soda Mountain Wilderness portion of BLM Deputy 
Director Luke Johnson's February 27, 2008, testimony regarding S. 2379. 
BLM Deputy Director Johnson's written testimony states, regarding S. 
2379's provision for ``designation of approximately 23,000 acres ofland 
within the Monument as wilderness'' (p. 1), that ``We believe these 
areas are manageable as wilderness, and we support the designation'' 
(p. 3, italics mine).
    The caution in our pleasure with Deputy Director Johnson's support 
for ``approximately 23,000 acres ofland within the Monument as 
wilderness'' derives from two other portions of his testimony on behalf 
of BLM:

  <bullet> On page one ofhis/BLM's testimony, Mr. Johnson notes that S. 
        2379 ``as introduced references maps without dates.'' He points 
        out that his/BLM's testimony of support for a Soda Mountain 
        Wilderness proposal is based on a BLM map ``dated December 12, 
        2006.''
  <bullet> On page three ofhis/BLM's testimony on S. 2379, Mr. Johnson 
        states: ``There are some technical issues related to section 
        6'' (SEC. 6. SODA MOUNTAIN WILDERNESS.) ``that we would like 
        the opportunity to clarify. In particular, we would like the 
        opportunity to work with the sponsor and the Committee on 
        possible minor boundary adjustments to ensure efficient 
        manageability and avoid conflicts.''
       blm is not using the correct soda mountain wilderness map
    On behalf of SMWC and our members/allies, we most recently 
submitted a wilderness boundary map--via a November 9,2007, e-mail to 
Senator Smith's and Senator Wyden's public lands staff, Matt Hill and 
Michele Miranda (and others) n dated ``November 7, 2007'' (Attachment 
2).* Accompanying our e-mailed ``November 7, 2007'' map was a three-
page memo, entitled ``Narrative for Soda Mountain Wilderness proposal 
map dated 'November 7, 2007''' (Attachment 3)* that explicated portions 
of the ``November 7,2007'' map perhaps not easily discerned from the 
``November 7'' map's level of resolution. The third paragraph of this 
``November 7, 2007'' memo was in bold italics, and read as follows: 
``We request that the .wilderness proposal boundaries on this 'November 
7, 2007' map, as clarified by the narrative below in this memo, be the 
Soda Mountain Wilderness proposal boundaries of reintroduced S. 3858.'' 
(``S. 3858'' was an earlier, 109th Congress, version of S. 2379.)
    In an immediate November 9, 2007, e-mail response to me, Matt Hill, 
Senator Smith's helpful staff in this process, noted his receipt of the 
``November 7, 2007'' map and narrative and wrote: ``Thanks, Dave ... 
The bill is silent on the map reference since we'll need BLM to draft 
up official maps anyway. But we'll use these when we ask them for that 
service.''
    On December 6,2007, I learned from Erik Fernandez at Oregon Wild 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583d3e18372a3d3f37362f31343c76372a3f">[email&#160;protected]</a>) that he had GIS information that could help BLM 
with their ``official'' version of the ``November 7, 2007'' map we had 
submitted. Via a December 6,2007, e-mail, I asked Senator Smith's Matt 
Hill ifMr. Fernandez's GIS information would be helpful to BLM's 
mapping efforts. That same day Mr. Hill e-mailed Mr. Fernandez, asking 
Mr. Fernandez to send the GIS info to Laurie Sedlmayr via 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="064a6773746f63595563626a6b677f7446646a6b28616970">[email&#160;protected]</a> at BLM. Mr. Fernandez e-mailed that GIS 
information to BLM's Ms. Sedlmayr on the same day--December 6, 2007.
    It is not clear to me why, at a February 27, 2008, subcommittee 
hearing on S. 2379, BLM would be referencing a ``December 12,2006'' map 
when it seems BLM was in possession of much more updated mapping 
information at least two and one half months--if not longer--before the 
February 27,2008, hearing.
    BLM's map ``dated December 12,2006'' (referenced in BLM's February 
27, 2008, subcommittee hearing testimony on S. 2379) is an inaccurate 
version of a superceded map SMWC/et.al. had submitted earlier in 2006. 
As well, BLM's ``December 12,2006'' map does not reflect the boundaries 
submitted in SMWC's ``November 7,2007'' map. Personal conversation on 
January 8, 2008, with a BLM staff member familiar with the situation 
indicated a chronic reluctance by BLM to map our submitted wilderness 
boundaries accurately, despite clear direction from Senator Smith's 
office to do so. I was e-mailed by Senator Smith's public lands aide 
Matt Hill on November 9,2007, that our submitted map was to be passed 
on to BLM for BLM to produce an ``official'' map that replicated our 
submitted boundaries. Yet this was not the map BLM referenced in BLM's 
February 27, 2008, subcommittee hearing testimony on S. 2379.
    I am not familiar with all the processes involved in referencing a 
map in a wilderness bill. Please forgive me if I am unduly alarmed at 
BLM's mismapping because of my unfamiliarity with these processes. But 
our ``November 7, 2007'' boundaries are tiered to our agreement with 
Monument area ranchers as to what will constitute an acceptable final 
bill relative to our negotiations with Monument area ranchers. Our 
``November 7,2007'' boundaries were also what we submitted in good 
faith prior to the introduction of S. 2379. We were given to understand 
that that map would be BLM's ``official'' map for use in the 
legislative process. Please take whatever steps are necessary to make 
our ``November 7, 2007'' map the ``official'' starting point for any 
boundary discussions regarding S. 2379's proposed Soda Mountain 
Wilderness. Unless I am mistaken, BLM's subcommittee hearing reference 
to their ``December 12, 2006'' map, ``created at the request of' the 
bill sponsor's ``office,'' seems to reflect outdated and miscued 
information at best--and reflects a serious mapping problem that needs 
to be rectified as soon as possible.
 ``... the opportunity to work with the sponsor and ... committee ...''
    BLM's hearing testimony requests the opportunity to work with S. 
2379's sponsor and the Committee on boundary adjustments to the Soda 
Mountain Wilderness proposal. (We assume BLM is referring to boundary 
adjustments additional to those they have already instituted without 
consultation by mismapping our first submitted mid-2006 map and 
ignoring our most recently submitted map of November 7, 2007.) We, too 
look forward to clarifying Soda Mountain Wilderness proposal boundaries 
with Senators Smith and Wyden and the Committee.
    However, we are hopeful that many issues could be cleared up--and 
much bill sponsor and Committee staff time and effort spared--if the 
Committee would set BLM free to talk with us directly. While we feel we 
know the land ``on-the-ground'' here quite well, we do not claim to 
know every administrative detail or in-the-BLM-files encumbrance that 
may (or may not) be associated with every acre. Local BLM staff have 
been unwilling to discuss boundaries with us, claiming they are legally 
prevented from doing so. It may be that if BLM was enabled to sit down 
with us, we could iron out many discrepancies between their boundaries 
and ours by looking at and discussing the same information together at 
the same time. We think it's certainly worth a try--and we respectfully 
request that you enable BLM to meet with us to discuss Soda Mountain 
Wilderness proposal boundaries as soon as possible.
    A few acres here and there on a large scale map may seem 
inconsequential from your DC offices. But they are very consequential 
to advocates of this area who know each acre and have hiked, 
horsebacked, fished, hunted, camped, botanized, birded, and bonded with 
these forests, meadows, streams, canyons, ridgetops, and rocky 
promontories for years and years and want them to receive the best 
protection possible for years to come. We care about this place. Twenty 
acres here and sixty acres there are more to us than the mere 
administrative inconvenience they may represent to BLM. Little Pilot 
Rock, the conifer forest north of Soda Mountain, the Pacific Crest 
Trail, and the Agate Flat pine/oak savannah are worth our time and 
effort.
    Thank you, again, for your own efforts toward improved protection 
for this special area by your introduction and consideration of S. 
2379. It is for good reason that the Cascade-Siskiyou National 
Monument's Proclamation calls it ``an ecological wonder.'' We look 
forward to continued conversation with you, your staff, and the 
Committee toward a bill as deserving of superlatives as the place 
itself.
    Thank you for considering my remarks above, which specifically 
regard only issues pertinent to Soda Mountain Wilderness proposal 
boundaries in S. 2379. Again, I will submit other written testimony 
regarding other aspects of S. 2379 subsequently.
            Gratefully,
                                               Dave Willis,
                                                             Chair.
                          Soda Mountain Wilderness Council,
                                                     March 8, 2008.
                                 ______
                                 
Hon. Ron Wyden,
Chair.
Hon. John A. Barrasso,
Ranking Member.
Hon. Gordon Smith,
Member, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.

    Please enter this letter and the first two (of three) attachments 
listed below into the hearing record for the February 27, 2008, Public 
Lands and Forests Subcommittee hearing on S. 2379, ``The Cascade-
Siskiyou National Monument Voluntary and Equitable Grazing Conflict 
Resolution Act,'' introduced by Senators Smith and Wyden on November 
16, 2007.

    THIS ``MARCH 8'' SUBMISSION IS SUBSEQUENT TO MY EARLIER ``MARCH 5'' 
SUBMISSION RE: THE SODA MOUNTAIN WILDERNESS PROPOSAL BOUNDARY PORTION 
OF S. 2379. THIS IS THE SECOND PORTION OF MY CONTRIBUTION TO THE 
WRITTEN HEARING RECORD. THIS SUBMISSION PRIMARILY:

  <bullet> Documents the long history of, and growing public support 
        for, the ca. 23,000-acre Soda Mountain Wilderness designation 
        in Oregon that is ``Section 6'' of S. 2379.
  <bullet> Clarifies common misperceptions about the Soda Mountain 
        Wilderness proposal.
  <bullet> Documents extensive editorial board support in Oregon for 
        both designation of a ca. 23,000-acre Soda Mountain Wilderness 
        ami compensated and permanent federal grazing lease retirement 
        in the Cascade-Siskiyou National Monument area.

    Dear Senators Wyden, Barrasso, and Smith, My name is Dave Willis. I 
chair the Soda Mountain Wilderness Council (SMWC), based near Ashland 
(Oregon), and am a charter board member of SMWC, which began in 1984. 
Thank you for the opportunity to submit this ``March 8'' written 
information for the hearing record in addition to my/our ``March 5'' 
written submission. Again, I regret that a bad case of flu prevented me 
from accepting Senator Wyden's invitation to testify in person on 
February 27. Again, please accept my thanks to subcommittee members and 
staff for permitting SMWC's consultant and colleague, Andy Kerr, to 
testify in my place with his own testimony on February 27, which SMWC 
supports. My continued grateful thanks to both Senator Smith and 
Senator Wyden for introducing S. 2379.
      there is, and has been, broad public support for s. 2379's 
 approximately 23,000 acre soda mountain wilderness proposal--and the 
                       support continues to grow
    Since first proposed by the Soda Mountain Wilderness Council 
(SMWC), under the guidance of founding chair and wildlife biologist 
Bruce Boccard in 1984 (who died in 1987), support for congressional 
designation of a 32,000 acre Soda Mountain Wilderness--which includes 
23,000+ acres in Oregon and ca. 9,000 adjacent acres in California--has 
continued to grow.
on record as supporting at least the 23,000-acre oregon portion of the 
              soda mountain wilderness proposal are . . . 
    Government entities (see Attachment 1)* on record in support of the 
Soda Mountain Wilderness proposal include:
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.

  <bullet> The Governor of Oregon (since Gov. Roberts' administration 
        and including Gov. Kulongoski's support as recently as his 
        February 24, 2008 letter to Oregon's congressional delegation 
        urging wilderness designation in the 110th Congress).
  <bullet> The City of Ashland (since 1985)--including the Mayor of 
        Ashland's appearance in our 1991 film promoting the wilderness 
        proposal, SODA MOUNTAIN: A Living Legacy.
  <bullet> The Jackson County Commissioners (June 6, 2006)--if part of 
        a Cascade-Siskiyou National Monument area federal grazing lease 
        retirement in which conservationists contribute ``a substantial 
        financial contribution'' separate from legislation.
  <bullet> The Bureau of Land Management (BLM), Department of the 
        Interior, in their February 27, 2008, spoken and written 
        testimony on S. 2379--though please see my March 5, 2008, 
        submission to the hearing record re: discrepancies between 
        BLM's map and ours.

    Editorial boards of local and statewide Oregon newspapers (see 
Attachment 2),* including:

  <bullet> Repeatedly, Oregon's statewide newspaper, The Oregonian, 
        published in Portland, Oregon's largest city and largest metro-
        area.
  <bullet> Repeatedly--since 1985--southwest Oregon's regional 
        newspaper in Jackson County, where the Soda Mountain Wilderness 
        proposal is located, Medford's Mail Tribune.
  <bullet> Repeatedly, the closest newspaper to the wilderness 
        proposal, Ashland's Daily Tidings.
  <bullet> The newspaper of Oregon's historically second largest city, 
        The Register-Guard, published in Eugene, the closest large city 
        to the Soda Mountain Wilderness proposal.

    Conservation groups (see Senate Energy and Natural Resources 
Committee, Subcommittee on Public Lands and Forests, February 27,2008, 
hearing record re: S. 2379) supporting the Soda Mountain Wilderness 
proposal include:

  <bullet> National groups, including: The Wilderness Society, the 
        Sierra Club, the Campaign for America's Wilderness, and 
        Backcountry Hunters & Anglers.
  <bullet> State/regional groups, including: Oregon Wild, the Oregon 
        Natural Desert Association, and the Oregon Council of Trout 
        Unlimited.
  <bullet> Local southwest Oregon groups and other local Oregon groups, 
        including: Siskiyou Project, Klamath-Siskiyou Wildlands Center, 
        Umpqua Watersheds, Soda Mountain Wilderness Council, Friends of 
        the Kalmiopsis, McKenzie Guardians, and the Audubon Society of 
        Portland.

    Cattlemen's groups...

  <bullet> Though not supporting wilderness designations in general, in 
        their support of S. 2379 local and state cattlemen's groups 
        implicitly support the Soda Mountain Wilderness proposal as 
        part of the compromise process that led to introduction of S. 
        2379.

    This is not an exhaustive list of supporting groups, individuals, 
and/or entities.--The support above refers to specific on-the-record 
support for congressional designation of the 23,000+ acre Soda Mountain 
Wilderness proposal in Oregon and does not refer to concurrent and past 
support of many of these groups, individuals, and entities (except the 
cattlemen)--and many others--for establishment of, and best protection 
for, the Cascade-Siskiyou National Monument. The 23,000+ acre Soda 
Mountain Wilderness proposal is in the southern backcountry of BLM's 
53,000 acre Cascade-Siskiyou National Monument in Oregon.
          clarifying ``the soda mountain wilderness proposal''
    The boundaries of the Soda Mountain Wilderness proposal have 
changed slightly over time. Confusion is also caused by inclusion or 
exclusion of the ca. 9,000 acre California portion of the wilderness 
proposal relative to the 23,000+ acre Oregon portion. Additionally, 
BLM's 6,447 acre Soda Mountain Wilderness Study Area (WSA) is confused 
by some with the ca. 23,000 Oregon BLM acres proposed for wilderness in 
S. 2379. Though included in S. 2379's ca. 23,000 acre Soda Mountain 
Wilderness, BLM's 6,447 acre Soda Mountain WSA is only a part of it. 
The small WSA acreage itself, first begrudgingly recognized by BLM in 
the timber heyday of the late 1970s as 5,400+ acres, is sometimes 
itself a source of further confusion because of increased BLM-listed 
acreage over time due to improved BLM mapping techniques and other 
factors.
    Former President George H.W. Bush recommended the Soda Mountain WSA 
to Congress in 1991 for designation as wilderness. Congress had not 
acted on that--or any--Soda Mountain Wilderness proposal until Senator 
Smith and Senator Wyden's introduction of S. 3858 in the 109th Congress 
on September 6,2006, and S. 3858's subsequent reintroduction into the 
110th Congress on November 16,2007, as S. 2379, Section 6(a) of which 
includes ``approximately 23,000 acres of Monument land ... to be known 
as the 'Soda Mountain Wilderness.'''
    Over the years--and especially since the 23,000+ acre Soda Mountain 
Wilderness proposal became part of the southern backcountry of the 
53,000 acre Cascade-Siskiyou Monument in 2000--BLM has acquired private 
land (added to the wilderness proposal) and done restoration management 
(including road closures/decommissioning and stream restoration) that 
have increased the suitability of the wilderness proposal for 
wilderness designation. Nevertheless, when then-Oregon/Washington BLM 
State Director Bill Luscher toured the area by horseback back in 1987, 
his judgment was that ``If Soda Mountain's not wilderness, nothing's 
wilderness.''
    Adding to confusion about the proposal, the summit of Soda Mountain 
itself is not part of the Soda Mountain Wilderness proposal. The summit 
of Soda Mountain, along with its fire lookout tower, communications 
facilities, and vehicle access road, are not included in the 23,000+ 
acre wilderness proposal boundaries on BLM land in the Cascade-Siskiyou 
National Monument.
    To summarize:

  <bullet> Approximately 9,000 acres of the citizen's Soda Mountain 
        Wilderness proposal are in California. S. 2379 does not include 
        or involve any of these ca. 9,000 California acres.
  <bullet> S. 2379 proposes that ``approximately 23,000 acres of 
        Monument land'' in Oregon already managed by BLM be 
        ``designated as . . .'the Soda Mountain Wilderness.''' There is 
        no private land in S. 2379's Soda Mountain Wilderness.
  <bullet> BLM's 6,447 acre Soda Mountain Wilderness Study Area (WSA) 
        is part of the approximately 23,000 acres of BLM Monument land 
        proposed for wilderness by S. 2379. Since President George H.W. 
        Bush's recommendation of the WSA for wilderness in 1991, and 
        since the inclusion of the entire Oregon portion of the 
        wilderness proposal in the Cascade-Siskiyou National Monument 
        in 2000, BLM has done much to improve the suitability of the 
        larger-than-WSA wilderness proposal for wilderness designation.
  <bullet> Neither the summit of Soda Mountain, the communications 
        facilities on top of Soda Mountain, nor the vehicle access road 
        to the top of Soda Mountain are proposed for wilderness 
        designation by S. 2379, the BLM, or the Soda Mountain 
        Wilderness Council.

    For the purposes of this submission for the record regarding S. 
2379, the 23,000+ acre ``Soda Mountain Wilderness proposal'' refers to 
the ``November 7, 2007'' Oregon-only map and narrative which I/SMWC 
submitted for the S. 2379 hearing record as ``Attachment 2'' and 
``Attachment 3'' with my SMWC cover document dated March 5, 2008.
    Thank you, again, for your efforts toward improved protection for 
this special area by your introduction and consideration of S. 2379. It 
is for good reason that the Cascade-Siskiyou National Monument's 
Proclamation calls it ``an ecological wonder.'' We look forward to 
continued conversation with you, your staff, and the Committee toward a 
bill as deserving of superlatives as the place itself.

          In southwest Oregon, the flows of forest life run north and 
        south along the Cascades, east and west along the Siskiyous. 
        These great flowers converge along the Oregon-California 
        border, in an area known for its highest peak, Soda Mountain. 
        Far more than a mere ``corridor, '' this region is a 
        crossroads, where species at the limits of their ranges mingle 
        to form unique communities, and through which organisms travel 
        to new biological worlds.

            Pepper Trail, Ph.D.--USFWS Ornithologist.

          . . . to reemphasize: The Soda Mountain area is more than 
        just botanically interesting; it is an important linkfor 
        migration, dispersion, and the process of evolution in the 
        Northwest.

            Tom Atzet, Ph.D.--30-year USFS Southwest Oregon Area 
        Ecologist.

            Gratefully,
                                               Dave Willis,
                                                             Chair.
                                 ______
                                 
                            Lincoln County Wyoming,
                             Board of County Commissioners,
                                   Kemmerer, WY, February 26, 2008.
Committee on Energy and Natural Resources, United States Senate, 
        Washington, DC.
Subject: Wyoming Range Bill

    Honorable Committee Members: The following addresses our concerns 
regarding recently introduced legislation to withdraw oil and gas 
leasing within the Wyoming Range. Since the large majority of the 
Wyoming Range lies within Lincoln County, we feel it important to have 
a say in what occurs here.
    At the October 24th hearing on climate change legislation Senator 
Barrasso stressed the importance of local input, saying ``Local 
governments, whose economic vitality depends on energy production, have 
a lot to lose under the proposed bill. Communities with energy-based 
economies deserve a seat at the table in any climate change debate,'' 
He continues, ``I cannot imagine a more important constituency to any 
discussion of climate change than those communities who depend on 
energy extraction.''
    We agree. We feel strongly that local governments have input on 
issues that will negatively impact the economic vitality of the County. 
The legislation proposed would totally remove our ability to provide 
input into the matter and instead leave that to Legislators from other 
states to consider.
    Lincoln County is involved as cooperators and partners in the 
development of the Kemmerer BLM Resource Management Plan, Pinedale BLM 
Resource Management Plan, and the Bridger/Teton National Forest Plan 
Revision. This NEPA process has been ongoing for several years and we 
have invested considerable time and dollars to insure that resource 
management is balanced and considers economic impact to local 
economies, tax bases and desires of our constituents. These are 
processes established by law to insure such issues are considered in 
management of public lands. The planning process is based on science, 
facts, analysis and public input. Legislation circumvents this process 
and replaces it with a political process.
    There are those who would applaud this legislation under the guise 
of protecting resource values that are not protected under other 
processes when in fact those processes exist. In fact these individuals 
seek political solutions to circumvent established processes that 
provide broad input and analysis.
    It is said that the legislation would protect agricultural 
interests. However, grazing allotments in the Wyoming Range continue to 
be withdrawn from grazing or purchased for wild sheep habitat. The 
sheep inventory in the Bridger-Teton NF Counties has declined 
substantially (-78%) from 1970 to 2006. Logging has come to a halt, as 
evidenced by the rust colored landscape of beetle infested forests. The 
``roadless'' designation has effectively eliminated motorized access 
for recreation, hunting, vegetative treatments, logging, and other 
uses. These restrictive actions have created defacto National Parks 
while touting ``protection'' of multiple use.
    It is said that the legislation would protect wildlife habitats for 
future generations. However, the number of outdoorsmen who hunt and 
fish continue to decline each year, both nationally and statewide. 
Conversely, big game numbers continue to exceed herd unit objectives 
set by the Wyoming Fish and Game Department. Yet nothing in the 
legislation recognizes any current overpopulation of big game.
    Continued access to energy and mineral resources associated with 
public lands is paramount to the well being of County residents and its 
economy, the state of Wyoming and national security. Our area is now 
facing similar movements to protect the Pinedale Anticline, Jack Morrow 
Hills, Adobe Town, Atlantic Rim, and Upper Platte Valley from gas 
exploration. Although there is a means in the legislation to address 
existing lease holders through compensation, we see nothing that will 
address the financial and economic losses to Lincoln County and its 
communities.
    We ask that the local governments and federal agencies be allowed 
to continue with the process in place and that political solutions be 
postponed, pending the outcome of the ongoing Resource Management Plans 
and Forest Plan Revision.
            Sincerely,
                                             Kent Connelly,
                                                             Chair.
                                           Jerry T. Harmon.
                                          Tammie Archibald.
                                 ______
                                 
            Statement of the Wilderness Society, on S. 2229
    The Wilderness Society, representing over 300,000 members and 
supporters from across the United States, would like to go on the 
record as supporting without reservation S.2229, the ``Wyoming Range 
Legacy Act of 2007''. We believe the national forest lands addressed in 
this bill are of national significance and that its passage would 
benefit many Americans from all walks of life as well as future 
generations to come. But, equally important and persuasive is that this 
bill has diverse, bi-partisan, and passionate support from across 
Wyoming. It is for this reason that over time three Republican Senators 
from the Cowboy state (former Senator Thomas, sponsor Senator Barrasso, 
and co-sponsor Senator Enzi) have worked to author and/or support this 
legislation, and the state's Governor has been an early and consistent 
supporter as well.
                  national values of the wyoming range
    The Wyoming Range Legacy Act of 2007 protects a remarkable natural 
treasure for the entire country. This 150-mile long rugged mountain 
chain in far western Wyoming comprises the southwestern portion of the 
Greater Yellowstone Ecosystem and provides important habitat for big 
game, rare predators and other wildlife that range across this 
landscape. In particular, the Range contains streams supporting four 
species of cutthroat trout, half the state's moose population, and 
prized herds of elk, mule deer and pronghorn antelope. In addition, 
development here has the potential to impact the Class One airsheds of 
several neighboring wilderness areas and Grand Teton and Yellowstone 
National Parks; protecting the Wyoming Range will help maintain the 
ecological integrity of these gems of our national park system.
    The Wyoming Range garners some of the highest precipitation in the 
state, which creates diverse and abundant habitat for wildlife and 
provides a crucial source of surface water for ranchers and communities 
around these mountains. The mountains provide untrammeled habitat for 
many rare and sensitive species, and offers winter, summer and birthing 
range for big game. It is no wonder then, that Wyoming residents value 
the Wyoming Range for its world-class hunting and fishing and 
recreational opportunities. More than 45 outfitting businesses make 
their livelihood in these mountains, and its beautiful backcountry 
provides Wyoming families many options for camping, fishing and 
exploration by foot, horseback, snow machine or car. The Range contains 
the spectacular 75-mile Wyoming Range National Recreation Trail and 
over 300 miles of groomed snowmobile trails and the renowned National 
Outdoor Leadership School (NOLS) uses these forest lands extensively 
for a summer and winter wilderness classroom.
                  diverse and strong statewide support
    Given the diversity of interests that utilize and depend upon these 
mountains, it is no surprise that the Department of Agriculture noted 
the impressive base of support for this legislation in Wyoming: ``The 
list of supporters within Wyoming is long and varied, including local 
government officials and the Governor in a state that has been very 
supportive of energy development in other areas.'' The Wyoming Range 
has brought people together from all walks of life and from across the 
political, social and economic spectrum. In addition to our elected 
officials, this legislation enjoys support from businesses, ranchers, 
sportsmen, local chambers of commerce and tourism boards, conservation 
groups and gas field workers, the state's newspapers and blue-collar 
unions. Two independent grassroots groups have developed in Wyoming to 
express the growing statewide support for protection of these 
mountains: Citizens Protecting the Wyoming Range, and Sportsmen for the 
Wyoming Range. We include as an attachment a list of some of the many 
interests that support protection for the Wyoming Range (Attachment 
A).*
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
                    ensuring a landscape of balance
    The Committee may well wonder why it is that one of the greatest 
energy producing states in our nation would support legislation to 
restrict future energy development in the Wyoming Range. There is a 
simple explanation: balance.
    This bill works to ensure that public lands within our state 
continue their long tradition of providing balanced multiple use. The 
Wyoming Range is such an example. As the Department of the Interior has 
testified, these mountains already provide significant acreage for oil 
and gas leasing. Seventy-six oil and gas leases are held in production 
in the southern portion of the Range. There are numerous other leases 
still valid in the Range that this legislation will not affect, and 
that could be developed in the future. Wyoming people know that 
multiple use does not mean every acre has to provide every use, and in 
fact, gas development in western Wyoming has shown the state that this 
use dominates the landscape and becomes a single-use. The BLM lands 
adjacent to the Wyoming Range contain the largest producing natural gas 
fields in the country--the Jonah and Pinedale Anticline fields. Western 
Wyoming people are struggling to cope with the environmental and 
socioeconomic impacts of these developments and this direct experience 
with full-field development informs their support for this legislation. 
The Wyoming Range Legacy Act will provide balance across the landscape 
of public lands in Wyoming. The state's BLM lands provide an 
extraordinary contribution to the nation's demand for energy, and 
Wyoming is proud of that contribution. Yet Wyoming believes that 
national forest lands need not be industrialized any further. Senator 
Craig Thomas often spoke about this need to view the multiple use 
mandate of our public lands across the mix of BLM and forest service 
lands. It is no wonder that the slogan of this Wyoming Range effort has 
become ``enough is enough.''
    The committee has heard testimony from the Department of the 
Interior and industry that these lands are needed for future 
development. To show the importance of withdrawing these national 
forest lands to ensure balance, we have attached a map of Wyoming 
depicting the amount of federal land in our state already authorized 
for oil and gas development (Attachment B).* It is staggering. Of the 
30 million acres of federal lands in Wyoming, over 25 million acres are 
conceivably open for leasing, in that they are not permanently 
restricted from this activity. In 2007, over 13 million acres of these 
25 million acres were leased for oil and gas development. In 2006 the 
BLM issued more new drilling permits--3,692, than it issued in all the 
rest of the nation. And despite all this tremendous development 
activity, there is still ample room for further development without 
needing to add these forest lands. Of the over 13 million acres of 
federal lands leased in Wyoming, only about 4 million acres are 
actually held in production, or 29%.
                  specific comments on the legislation
    The Wilderness Society believes S. 2229 as introduced provides a 
balanced and moderate approach in how it addresses potential future oil 
and gas development on national forest lands in the Wyoming Range. This 
is for the following reasons:

          1. All national forest lands in the Wyoming Range with 
        currently producing leases on them (approximately 43,000 acres 
        in Riley Ridge and Marathon True gas fields) are explicitly 
        excluded from the legislation's proposed withdrawal area.
          2. The legislation expressly states that valid existing 
        rights are protected and so the development rights contained in 
        these leases are not impacted by S. 2229. This means that on 
        approximately 75,000 acres within the proposed withdrawal area 
        where such valid rights exist future drilling and gas 
        production could occur even with passage of this legislation.
          3. The lease retirement provisions in the legislation do not 
        require any federal appropriations and do not require any 
        action on the part of valid leaseholders within the withdrawal 
        area. Instead, this legislation's premise is that it creates 
        the option for holders of valid lease rights who voluntarily 
        decide to come forward to either donate their leases back to 
        the federal government or negotiate their buy out by private 
        parties. Thus, the legislation only provides the opportunity 
        and context for this to happen by ensuring that there will be 
        no future leasing of the area, including that any returned 
        leases will not be re-offered for lease.
          4. The fundamental approach of this legislation is not 
        untried but represents a model that has been successfully used 
        elsewhere. For example, on Montana's Rocky Mountain Front, 
        following passage in late 2006 of legislation (Division C, 
        Title IV, Sec. 403 of the ``Tax Relief and Health Care Act of 
        2006'') withdrawing over 400,000 acres comprising national 
        forest and BLM lands, four different lease retirement deals 
        totaling over 63,000 acres have now been consummated. The most 
        recent one occurred in March 2008 where Kohlman Partnership 
        agreed to sell its valid leases in the Badger Two Medicine 
        portion of the Front withdrawn area to Trout Unlimited which 
        will then donate the leases back to the federal government.

 current usgs data on natural gas resources in the proposed withdrawal 
         area indicates little impact from proposed withdrawal
    We were surprised by claims that S. 2229 could affect potentially 
significant resources, specifically the BLM's assessment that the 
withdrawal area contains 8.8 trillion cubic feet (TCF) of natural gas 
and 331 million barrels of oil (MMBO). This estimate is based on an 
Advanced Resources International, Inc. report published in May 2001, 
called ``Federal Lands Analysis Natural Gas Assessment, Southern 
Wyoming and Northwestern Colorado,'' which utilized 1995 United States 
Geologic Society (USGS) data for the Wyoming Thrust Belt Province and 
Southwestern Wyoming Province. However, the USGS in 2002 and 2003 
produced updated and more accurate data sets for these two provinces, 
which included an over 90% reduction in estimates of oil and gas 
reserves in the Wyoming Thrust Belt province.
    The Wilderness Society has produced a GIS analysis of S. 2229's 
withdrawal area using the most current USGS 2002/2003 data sets and the 
same assumptions used by the BLM and Advanced Resources International 
in their assessment (i.e. analyzed for technically recoverable amounts, 
used mean resource amounts, assumed homogenous distribution across each 
play, etc). Our results show that S. 2229's withdrawal area contains 
just 1.2 TCF of technically recoverable natural gas and 4.6 million 
barrels of oil.
    Please see Attachment C* which shows the total oil and gas 
resources for the Wyoming Thrust Belt and Southwestern Wyoming 
provinces and the Wilderness Society's analysis of resources within S. 
2229's withdrawal area. Attachment D* is a detailed narrative 
explaining the methodology and data sets we used for our analysis.
    Furthermore, in practice the amount of oil and gas that could be 
recovered from the Wyoming Range is likely far smaller. The USGS based 
resource estimates of 1.2 TCF/4.6 MMBO are for ``technically 
recoverable,'' meaning that these resources could be produced using 
current technology without regard to economic costs or profitability. 
When one considers the challenging terrain found in the Wyoming Range, 
mitigation requirements likely needed to protect the Range's 
exceptional natural values, and other factors, it is likely that the 
economically recoverable subset of the withdrawal area's reserves would 
be much lower than 1.2 TCF/4.6 MMBO.
    Finally, it is fundamentally inaccurate to present any resource 
estimates for S. 2229's withdrawal area as amounts that would not be 
available for domestic consumption and production royalty contribution. 
This is because most of the natural gas within the withdrawal area 
falls within areas that are already validly leased and could still be 
developed after passage of this legislation. For natural gas (the 
primary resource of concern given the miniscule amount of oil reserves 
estimated) 1.1 TCF of the 1.2 TCF of total technically recoverable 
resources within the withdrawal area are located in its northeast 
quadrant which is part of the USGS Southwestern Wyoming Province (See 
map in attachment B). Looking at a map showing the over 75,000 acres of 
valid, existing leases within the withdrawal area, one will see that 
most of these are located in the Southwestern Wyoming province portion 
of the withdrawal area.
    Given the analysis and discussion presented above, we would hope 
that it is obvious that claims of 12 TCF of natural gas in the Wyoming 
Range, as Claire Moseley of Public Lands Advocacy presented in her 
testimony to the Senate Subcommittee, are completely unfounded. As her 
testimony explains, this number was derived from an industry group 
assessment (the National Petroleum Council's ``Balancing Natural Gas 
Policy'') which looked at the entire Wyoming Over thrust Belt. Their 
assessment is not based on the most recent USGS 2003 data and is for an 
area vastly bigger that the proposed withdrawal boundary and also 
includes producing lease areas in the Wyoming Range (Riley Ridge, 
Marathon True field, etc) that are not included in S. 2229's withdrawal 
area.
        no significant budgetary impact and no need for scoring
    The Wilderness Society believes that S. 2229 would have no 
significant budgetary impact and not require any offsets. As noted 
earlier, the legislation requires no federal appropriations and would 
potentially have little impact on royalty payments from future 
production in this area (both because of the limited amount of 
economically recoverable resources at stake and the fact that most of 
the affected resources fall within areas currently under valid lease 
that could still be developed under this legislation).
    Also, S. 2229 would not impact possible future payments to the 
government from lease sales, at least in the next ten year period. This 
is because:

          1. In public meetings during 2006 and 2007 the Bridger Teton 
        national forest stated that they do not anticipate any 
        additional new lease sale offerings to occur in the near 
        future.
          2. The 75,000 acres of validly existing leases in the 
        withdrawal area are not likely to expire and be re-offered for 
        leasing during the next decade. All of these leases are 
        currently suspended with the suspensions likely to continue for 
        several years (at least until a new Bridger Teton Forest Plan 
        is implemented sometime in 2009-2011 but possibly longer). Once 
        suspensions are lifted, these leases have 3-5 years remaining 
        on their 10 year expiration clock. Furthermore, a sizeable 
        portion of these leases are part of the South Rim unit 
        agreement where an up to 200 well proposal has been submitted 
        (i.e. in coming years all of the leases in the unit could be 
        ``held in production'' and kept valid indefinitely).
          3. The state of Wyoming and Department of Agriculture signed 
        a Memorandum of Understanding (MOU) in 2006 that states that 
        there would be no future leasing in any inventoried roadless 
        areas contained in the Bridger Teton and Shoshone national 
        forests. Essentially all of the currently unleased lands within 
        S. 2229's withdrawal boundary are inventoried roadless area on 
        the Bridger Teton national forest. This prohibition on new 
        leasing is to continue until a new forest wide oil and gas 
        leasing availability determination is made which is expected to 
        be a separate, multi year process that would begin following 
        completion of a new Bridger Teton forest plan. Here is how the 
        MOU signed by Assistant Agriculture Secretary Mark Rey and 
        Wyoming Governor Freudenthal explains this: ``The suitability 
        of lands for oil and gas leasing will be evaluated during the 
        ongoing forest plan revisions. A subsequent leasing 
        availability decision will identify specific acres in the 
        suitable land use area where leasing may occur and the specific 
        stipulations that apply on those acres. No additional oil and 
        gas and mineral leases will be approved within inventoried 
        roadless areas on Bridger-Teton and Shoshone National Forest 
        Land until such time as the oil and gas availability decisions 
        are made.''
          4. Even if the new Bridger Teton forest plan and subsequent 
        availability determination were completed in say the next 5 
        years, there is good possibility that the Forest Service would 
        make little or none of the Wyoming Range available for new 
        leasing. Public participation in the forest planning process to 
        date as well as cooperating entities like the state of Wyoming 
        and some counties have made abundantly clear their desire to 
        see a significant change from the current forest plan with most 
        or all of the national forest lands in the Wyoming Range made 
        unavailable for oil and gas leasing. If the Forest planning 
        process and availability determination are responsive to this 
        input, then there should not be much if any of the S. 2229's 
        withdrawal area made available for future leasing.

    We note that the Congressional Budget Office (CBO) found for 
similar lease withdrawal legislation pertaining to the Valle Vidal area 
of New Mexico's Carson National Forest that the ``net change in direct 
spending would be insignificant in any of the next 10 years. . . .  
Enacting H.R. 3817 would not affect revenues.'' (See Attachment E). 
This finding was based on CBO's assessment that the Carson National 
Forest was at the time deciding whether to implement an oil and gas 
leasing program for the affected lands and if they did decide to pursue 
a leasing program, the revenues from leasing would likely be more than 
ten years out. This situation is analogous to the Bridger Teton forest 
lands covered by S. 2229 and the uncertainty with where the Forest 
Service might go in the future with a leasing program here.
                   drainage concerns can be addressed
    While the BLM in its Senate Subcommittee testimony on S. 2229 
expressed concern about withdrawn federal resources being drained by 
possible development on adjacent private lands, we feel this concern is 
unfounded. The Mineral Leasing Act already provides a mechanism to 
address such a situation: ``Whenever it appears to the Secretary that 
lands owned by the United States are being drained of oil or gas by 
wells drilled on adjacent lands, he may negotiate agreements whereby 
the United States, or the United States and its lessees, shall be 
compensated for such drainage.'' (30 U.S.C. 226(j)). BLM regulations 
also contain a section directing the agency to pursue compensatory 
agreements in cases where they determine drainage to be occurring (see 
43 CFR Ch. 1, Section 3100.2-1).
    If this mechanism in the Mineral Leasing Act and promulgating 
regulations is deemed insufficient to address drainage concerns with S. 
2229, then language could be added to the legislation requiring 
adjacent lessees to provide BLM notice of any leases adjoining the 
withdrawal boundary and requiring the BLM to seek compensation for any 
drainage that might occur.
      contested leases--should not be micro-managed in legislation
    The Wilderness Society feels that S. 2229 as now written provides 
the right approach to the approximately 44,000 acres of contested 
leases offered from December 2005 to August 2006 that were successfully 
challenged before the Interior Board of Land Appeals. S. 2229 does not 
prohibit the current U.S. Forest Service EIS process underway to 
address these contested leases.
    Instead, the legislation establishes that all valid existing rights 
``on date of enactment'' would be continued. Should this legislation be 
enacted and prohibit these contested leases from being issued that is 
consistent with an outcome that leaseholders were made aware of when 
they bid on these leases in 2006. Specifically, the BLM's Notice of 
Competitive Oil and Gas Lease Sale makes clear that should an appeal of 
a lease be successful, BLM reserves the right to cancel the lease and 
refund bonus bid, rentals, and administrative fees with the lease 
offering. Given the successful appeal of the 44,000 acres of lease 
offering and the unknown outcome of the Forest Service EIS addressing 
these appeals (the scoping notice indicates that lease cancellation is 
a possible outcome), it should be clear to the affected bidders for 
these leases that there remains a risk of lease cancellation. That S. 
2229 if enacted could cause the cancelation of these leases is in line 
with the fact that the federal government has made no binding 
commitments and warned that it could cancel the leases dependent upon 
outcome of appeals.
    No new language or change to S. 2229 is needed to specifically 
address the issue of the contested leases that are suspended and/or 
pending to be issued. The agencies have had plenty of time to address 
the NEPA problems with their analysis and in fact, did nothing for over 
a year after the matter was remanded back to the agencies by the 
Interior Board of Land Appeals. In fact, we fully support the concept 
of having the Forest Service EIS process be put on hold until Congress 
has determined the best fate for these lands through consideration of 
S. 2229. This is a view shared by Governor Freudenthal who expressed in 
his testimony: ``Given the contested outcome of the lease sales, the 
strong IBLA decision authorizing the agencies to cancel these leases 
outright and the legislation before Congress, it would make sense that 
the Forest Service slow down and use caution before making a decision 
about leasing here.''
                          additional comments
    What follows is our specific response to other more minor concerns 
and proposed Amendments provided by the BLM and Forest Service in 
testimony on S. 2229:

  <bullet> The BLM testified that section 4(b) on ``authorizing the 
        Secretary to use non federal funds'' creates possible confusion 
        regarding the Secretary's obligations if funding is limited and 
        pertaining to appraisal costs. We agree and advocate that all 
        sections and text in the bill that refer to Secretarial 
        involvement in the purchase of leases for retirement be 
        stricken, including Section 4(b).
  <bullet> BLM's testimony expressed concern regarding S. 2229's 
        language that implies involvement of the Secretary in the 
        collection of funds and/or repurchase of a lease. We agree that 
        it is likely that all lease purchase and retirement efforts in 
        the Wyoming Range are likely to be based on private funding and 
        thus the federal government should not be involved in those 
        transactions, including determining the basis for any appraisal 
        or compensation amount. Thus, Section 4(c)(1) should be 
        stricken or significantly modified.
  <bullet> Likewise, any mineral claim purchase and retirement would 
        use private dollars and the Forest Service should not pay the 
        costs for claim validity determinations or appraisals. These 
        costs should be covered by any private party considering such 
        purchase and retirement of a claim. So no appropriation 
        addition for claim verification is needed in Section 4, as the 
        Forest Service suggested in its testimony.
  <bullet> We agree with the Forest Service testimony that Sections 
        2(b) and 3(a) should be made consistent so that it is clear 
        throughout S. 2229 that the withdrawal applies to all mineral 
        leasing and mining entry/claims, as well as land disposition.
  <bullet> We do not object to the Forest Service proposed change to 
        exclude mineral materials from S. 2229's withdrawal so that the 
        agency can remove sand and gravel to provide for upkeep of 
        roads and facilities.
  <bullet> We firmly disagree with the Forest Service testimony that 
        section 3(c) is not needed. It is important to make explicitly 
        clear that where existing rights within the withdrawal area are 
        acquired by the government or extinguished after the date of 
        enactment, the affected lands are then subject to S. 2229 
        withdrawal provisions and can not be re-offered for lease or 
        mineral entry. As currently worded, S. 2229's Section 3(c) 
        accomplishes this and should remain in the legislation 
        unchanged.
  <bullet> We agree with the Forest Service testimony on the need for 
        section 3(e) to be slightly amended so that it is clear that 
        except for mining entry, mineral leasing, and land disposition 
        the forest plan in its entirety still applies to the withdrawal 
        area.
  <bullet> We agree with the Forest Service testimony that to be 
        consistent, Section 4 should be amended so that it is clear 
        that valid existing mining claims could be donated or purchased 
        and retired, similar to valid mineral lease rights in the 
        withdrawal area.
conclusion: s. 2229 is balanced legislation that serves wyoming and the 
                              nation well
    The Wilderness Society strongly supports S. 2229 and believes it 
would protect an area of immense value to the people of Wyoming and the 
country. It enjoys an unprecedented level of support in Wyoming for a 
public lands bill and provides a fair and workable approach with 
respect to the valid existing lease rights already existing in the 
Wyoming Range. While we are open to some minor changes and amendments 
as discussed immediately above, overall S. 2229's withdrawal area 
boundary (with inclusion of the contested lease area and exclusion of 
producing lease areas as well as non national forest lands) should not 
be changed in any way.
    We sincerely thank Senator Barrasso for the leadership he has shown 
in drafting this important piece of legislation and his ongoing efforts 
to see it enacted. As well, Senator Enzi and Governor Freudenthal 
deserve praise. Many across Wyoming are also grateful and we are sure 
that former Senator Thomas would likewise be pleased with S. 2229 and 
the efforts to protect this namesake mountain range for Wyoming.
                                 ______
                                 
  Statement of Robert Freimark, Senior Policy Analyst, The Wilderness 
                          Society, on S. 2379
    On behalf of the 200,000 members of The Wilderness Society, 
including the 4,000 members residing in Oregon, I am conveying The 
Wilderness Society's support for the wilderness designation in S.2379, 
the Cascade-Siskiyou National Monument Voluntary and Equitable Grazing 
Conflict Resolution Act. The Wilderness Society is a non-profit, 
national conservation organization with the mission to protect 
wilderness and inspire Americans to care for our wild places.
    The Cascade-Siskiyou National Monument was established to protect 
an ``ecological wonderland'' including ``towering fir forests, sunlit 
oak groves, wildflower-strewn meadows, and steep canyons''. This area 
is in a convergence zone at the Cascade, Klamath, and Siskiyou 
ecoregions resulting in its unique and outstanding geologic and 
biologic values.
    Wilderness designations are the highest level of protection that 
America can give to our public lands. Such legislation permanently 
protects our wild areas from damaging development activities while at 
the same time preserving the public's right to enjoy them through 
activities like hiking, fishing, hunting, and camping.
    Designating federal lands into the Wilderness Preservation System 
permanently protects scenic vistas, high quality drinking water 
supplies, cold water fisheries, vital habitat for wildlife , a wide 
variety of backcountry recreation opportunities and increases the 
capacity of the land for carbon storage--an important tool in the fight 
against global warming.
    The Wilderness Society has supported the strongest protections for 
the federal land at Soda Mountain for several decades. We were pleased 
when the President, on June 13, 2000, established the Cascade-Siskiyou 
National Monument to protect the outstanding biological diversity and 
geologic values found in this region. As a next step, we believe the 
strongest protection we can provide for this special area is to include 
the wilderness quality lands in the Monument in our National Wilderness 
Preservation System. S. 2379 designates 23,000 acres of the National 
Monument as Wilderness. The Wilderness Society strongly supports this 
proposed wilderness designation and commends Senator Wyden and Senator 
Smith for recognizing the wilderness values of this area, and 
advocating for wilderness protection.
                                 ______
                                 
                        Office of Planning and Development,
                             Lincoln County, WY, February 25, 2008.
Committee on Energy and Natural Resources, United States Senate, 
        Washington, DC.
Subject: Wyoming Range Bill

    Honorable Committee Members: Senator Barrasso and Governor 
Freudenthal have done a masterful job of misrepresenting the extent of 
the Wyoming Range Withdrawal Proposal to many Wyomingites. For many 
months, perception has been promoted that only small areas of Teton, 
Sublette and Lincoln Counties were involved. Last week's Star Valley 
Independent stated ``The Wyoming Range is located on the east side of 
the Greays River'' which would be about a tenth of the county area. 
When the maps were finally made available to local governments, lo and 
behold nearly one third of Lincoln County is affected. Nice spin job! 
Certainly this will appease many generous political contributors 
located in the Jackson Hole area but at what price to future Lincoln 
County residents?
    Senator Barrasso points out that we will have more recreation 
related jobs. I wonder if he knows that regional economic studies show 
that forest outfitter employees earn about $14,000.00 and energy 
employees earn about $54,000.00? Although there currently are no 
developed gas fields in the Lincoln County portion of the Wyoming 
Range, the opportunity for future responsible energy development should 
not be sacrificed so abruptly.
    Finally, the preservation bill appears to circumvent NEPA processes 
that would at least give local governments a seat at the table for such 
a drastic decision. For example, NEPA decisions would have to consider 
that the Lincoln County Comprehensive Plan already provides for Public 
Land Planning and for the responsible development of our valuable 
natural resources. Some of the areas on the map are already off limits 
to energy exploration due to terrain and habitat considerations, 
however most of the Lincoln County areas are high desert brush land 
where energy production, wildlife habitat, grazing and recreation can 
and should coexist. Over 70% of our county's property tax base is 
energy related and such an arbitrary forfeiture of future taxes and 
jobs is simply too drastic without a significant downsize.
            Sincerely,
                                             John Woodward,
                                                 Planning Director.
                                 ______
                                 
                      Stop Drilling-Save the Bridger-Teton,
                                                     Bondurant, WY.
    Senator Bingaman and Members of the Committee on Energy and Natural 
Resources, and its Subcommittee on Public Lands and Forests: We write 
to present improvements to S. 2229. First we need to provide 
background: who we are, what is going on in Wyoming from our 
perspective, and how the history and current situation drives the 
improvements we seek to S. 2229.
    SDSBT is a citizens' organization founded in 2005 in response to a 
Bureau of Land Management (BLM) administrative decision to form a 
drilling unit in a new and unexplored area right in the Upper Bridger-
Teton National Forest (Upper B-T), leap-frogging tens of miles north of 
current natural gas fields to a location only 35 miles from the Grand 
Teton National Park.
    As a result of this decision by BLM and subsequent actions by the 
US Forest Service, SDSBT has serious problems with both of these land 
management agencies. And we are not alone. Many citizens across the 
country, including but by no means limited to those of us in the Grand 
Teton and Yellowstone region, have become the front line in protecting 
the National Parks and Forests as local competency and capability in 
the land management agencies declines further every year and energy 
companies are empowered to develop as fast as possible wherever they 
wish.
    The agency missions are being seriously compromised, moving away 
from multiple land uses and disproportionately directed toward energy 
exploitation, often in the wrong places and just as often with 
inappropriate attention paid to the consequences, such as the draw-down 
of vital water resources in a area already affected by a multi-year 
drought. For example, according to Plains Exploration and Development 
Company's own estimates, it takes 1 million gallons of water to drill a 
single well and more to fully develop it. Did you know that absolutely 
no one at the federal level--not the BLM, not the FS, not any other 
federal agency---is systematically keeping track of energy-related 
water consumption or water contamination throughout the intermountain 
west or even asking the question as to whether or not the region can 
afford the amount of water being used solely for energy exploration and 
development purposes? In rural Wyoming, water is for drinking (as well 
as for fighting as Mark Twain said), for ranching and other 
agricultural uses, and for wildlife. It comes from the same streams and 
aquifers as water devoted to energy development. We also know how 
precious our water resources are, and also more about how to conserve 
water than most.
    As it is, in rural areas we live by the hand of Mother Nature. 
Summer wildfires, 6-8 feet of blowing snow in the winter, avalanches 
that block highway access to the only hospital many miles away, pine 
beetle infestations, and roaming grizzles and mountain lions make life 
here in this part of Wyoming always interesting and often challenging. 
It is not always easy or safe, and it certainly isn't convenient, but 
the Upper Bridger-Teton is truly ``God's county'', and those of us who 
live here wouldn't have it any other way.
    The National Parks and Forests are not just for us, however, but 
for every American who wants to know that there is a place to breathe 
that is still wild and free from industrial development, a place to 
take their children and grandchildren to see wildlife or hike a trail. 
And they do come. More than 3 million people visited this region last 
summer. Tourism is the most important industry in the western part of 
the state. S. 2229 will help sustain this industry, and the natural 
values that underpin it--but we could use more help. We ask, by means 
of this hearing, that the Subcommittee and then the full Committee use 
the opportunity to find the ways and means to basically change the 
overall direction of public lands management as well as to specifically 
improve S. 2229.
    Since 2002, Washington has seen the FS and the US Department of the 
Interior develop a new tool box of laws, rules, orders and changes to 
administrative processes designed to equip the energy industry to 
operate freely with serious consequences for both for our public lands 
and the private communities who adjoin them. They now have so many 
tools they can ``shop them'' often to find those with the least 
environmental compliance features, including ways to limit or even 
exclude public participation.
    Citizens have no equivalent large administrative tool box from 
which to fix problems that arise from poor agency decision-making. We 
only have the mess and the uncertainty---and an often compromised NEPA 
process. SDSBT and others must engage in repeating our basic message: 
don't drill in the wrong places, do it better where you do, and act to 
protect other resource values!
    The agencies, especially the FS and the BLM, take their 
responsibility to comply with NEPA less seriously with each passing 
year. Did you know that last week the US EPA Regional office in Denver 
found a Draft BLM Environmental Impact Statement (DEIS) so poor that 
they ranked the DEIS in category ``3'', demanding a complete redo based 
on the air quality impacts assessment associated with a nine fold 
increase in the wells sought by the companies on the Pinedale 
Anticline? Last year, SDSBT, based on over 80 pages of scientific and 
engineering analysis, was compelled to do the same, that is, call for a 
complete redo of the DEIS for the Eagle Prospect in the Upper Bridger-
Teton; others did as well. As you may know, the comments of 
knowledgeable State agencies, such as the Wyoming Game and Fish 
Department were also ignored. This lack of credibility that the FS and 
the BLM share is a clear and alarming signal that all is not well!
    The Upper Bridger-Teton area, many miles from the Jonah Field and 
Pinedale Anticline, has been called by our Governor, ``too special to 
drill''. But the leasing and exploitation plans and processes move 
ahead anyway within the federal agencies. Even though S. 2229 was 
introduced, the companies with leases are working hard to position 
themselves to drill. This bill must be passed but as it now stands, it 
doesn't have enough teeth to affect the companies who already own 
leases or have acquired them from original lease sales held 15 or more 
years ago. Thus areas such as the Upper Bridger-Teton are very much in 
play as certain companies have already decided, this bill not 
withstanding, to drill in the National Forest. The slogan of at least 
one company is to have a ``Jonah in the woods,'' this from a company 
that, so far as SDSBT can determine, has never operated in a heavily 
wooded terrain with rolling topography.
    In this part of Wyoming, the Upper B-T is located in the eye of the 
storm! The Governor has called it the camel's nose under the tent for 
the whole Wyoming Range where there are 150,000 acres already leased 
and another 44,000 contested.
    Tourism of many types, including but not limited to outfitting and 
guiding, are big businesses in this part of Wyoming; they all rely on a 
pristine environment. Only 2% of all the land in the Upper Bridger-
Teton area is private. All the rest is public and with the federal 
agencies empowering industry, we have a 1000 pound gorilla on our 
trails, and Halliburton trucks rolling up and down Main Street. The 
south Sublette County gas fields, by industry's own acknowledgement, 
cannot be reclaimed. When they are done these public lands will be 
wasted lands.
    And that brings us to S. 2229. In 2006, Senator Craig Thomas 
accepted SDSBT's invitation to visit and see first hand where this 
drilling in the Forest (and near the Parks) was proposed. He looked, he 
saw, and he said he thought that drilling in this part of the Forest 
would not be such a good thing. Sadly, we then we lost him to cancer. 
Since then, Senator John Barrasso and Senator Mike Enzi have sponsored 
S. 2229. They are both supporters of mineral extraction in Wyoming, and 
we know this is quite a courageous step for them to sponsor this 
legislation, both as a legacy to Senator Thomas and to protect 
Wyoming's namesake mountain range. We appreciate their intent very 
much.
    SDSBT is pleased to support this bill and honor Senator Thomas. 
However, we stress that the bill only takes care of tomorrow, in the 
form of future leasing, and it relies on industry to volunteer to 
retire the leases they already have. For the upper BTNF, especially the 
Hoback Basin and areas to the south and west, all of which are in the 
Yellowstone ecosystem, this bill as it now stands may have little or 
ever no impact. Thus SDSBT must proceed as though this bill is not in 
final form. Indeed, there are important improvements that we ask the 
Sub-committee to address in its February 27 hearing and in subsequent 
deliberations that will on the merits improve both the general nature 
and the specific implications of this legislation.
    First, we think the bill should be amended to require direct 
congressional oversight of the process to determine fair market value 
that the current bill places as a matter only between the Secretary of 
Interior and the leaseholders. We do not have confidence in the 
Interior-leaseholder relationship. We are saddened to say that this 
resembles the fox watching the hen house, and we would be far more 
comfortable with Congressional oversight over the process.
    Second, we think the bill should direct the Secretary of the 
Interior to use the Land and Water Conservation Fund from the OCS oil 
and gas leasing revenues for lease buyouts in addition to the funding 
provisions as expressed in the current bill. This option is not an 
appropriation of funds from the general federal treasury; instead it is 
the existing and appropriate place from which funds could be made 
available for buy-outs. SDSBT has a specific reason for this. SDSBT is 
small, and even though we have said we would work to raise funds to buy 
out the leases if given the opportunity, and even though we have 
calculated the investment in these leases and could as well calculate 
our estimate of a fair market value, it is likely, with Interior and 
the leaseholders as the only participants in that determination, our 
ability to raise all that may be needed may be compromised.
    Our third recommendation is based on the fact that in the Upper 
Bridger-Teton, some citizens fear that if the public lands leases are 
retired, the BLM and industry will simply move to drill on split estate 
lands. Neither the wildlife nor aquifers ``recognize'' geography or 
land ownership patterns. Thus the impacts that necessarily result from 
drilling and development irrespective of land jurisdiction risk non-
energy and other economic and environmental values. Therefore we ask 
the Sub-Committee and full Committee to amend this bill to improve the 
situation by directing the Secretary of Interior to treat leased 
private lands that are joined with public lands by BLM administrative 
decisions the same as for lease retirements in S. 2229.
    In closing, we ask that this statement be included as a formal part 
of the Sub-Committee hearing record. Thank you for taking these matters 
into consideration as the Sub-Committee proceeds with its work.
                                           Linda J. Cooper,
                                                         President.
                                 ______
                                 
  Statement of Lewis W. ``Pete'' Douglas, President and CEO, Stanley 
                        Energy, Inc., on S. 2229
    Chairman Wyden, Ranking Member Barrasso, and members of the Public 
Lands and Forests Subcommittee. My name is Pete Douglas and I am the 
President and Chief Executive Officer of Stanley Energy, Inc. Stanley 
is a small, family-owned oil and gas exploration and production company 
headquartered in Denver, Colorado. Stanley is keenly interested in S. 
2229 as we have owned approximately 24,000 acres of oil and gas leases 
in the Bridger-Teton Forest since 1999. In addition, Stanley was the 
successful bidder on more than 22,000 acres of leases in BLM lease 
sales held in 2005 and 2006. I want to thank the Chairman and Ranking 
Member for the opportunity to provide written comments for the 
Subcommittee's hearing on this bill.
    As an initial matter, Stanley believes that S. 2229 , if enacted in 
its present form, will serve to increase America's dependence on 
foreign sources of energy. As members of the Subcommittee know, America 
presently imports more than 58 percent of its oil and 16 percent of its 
natural gas supplies from foreign countries. Given historical trends, 
this dependence is expected to increase. If S. 2229 is enacted in its 
current form, the 12 trillion cubic feet of gas, which the National 
Petroleum Council estimates can be recovered from the Bridger-Teton, 
would never be produced to assist in America's urgent need for greater 
energy independence. To help alleviate America's impending energy 
crisis, Stanley urges this Committee at the very least to reduce the 
geographic scope of the bill's proposed lease withdrawal area to the 
area recommended by the Petroleum Association of Wyoming in its October 
10, 2007 letter to Senator Barrasso.
    Second, as this Committee is well aware, the U.S. Forest Service 
and Bureau of Land Management have initiated a Supplemental 
Environmental Statement for the 44,720 leasehold acres which the Forest 
Service recommended be offered for public auction, and for which BLM 
held lease auctions in 2005 and 2006. As the agencies explained in 
their February 4, 2008 Notice in the Federal Register, the purpose of 
the SEIS is to ``address the resource issues and effects analysis 
concerns identified by the IBLA'' in its remand orders as well as ``any 
additional issues'' identified through the public scoping process.
    It is my understanding that Senator Barrasso's legislation does not 
adversely impact the leases in the 44,720 acres covered by the ongoing 
SEIS. This fundamental distinction between areas subject to existing 
leases and areas that have not been offered at public lease sale was 
one which the late Senator Thomas well understood. I met with Senator 
Thomas not long before his unfortunate passing to discuss a number of 
issues related to oil and gas leasing in the Bridger Teton. In the 
course of our meeting, the Senator made two important points. First, he 
said the Forest Service and BLM should proceed with an EIS for the 
44,720 acres which were subject to the remand from the IBLA to the BLM. 
Second, Senator Thomas assured me that he believed leaseholders in the 
Bridger-Teton had valid property rights and that legislation 
prohibiting prospective leasing in the Wyoming Range should not impact 
leases that had already been offered for sale by the BLM. I would urge 
the members of this Committee to honor the rights of private property 
owners-including the owners of federal oil and gas leases-as you move 
forward in your deliberations on S. 2229.
    Mr. Chairman, thank you for allowing me to present Stanley's 
written testimony to the Subcommittee. I would welcome the opportunity 
to work with Senator Barrasso and members of this Committee on this 
legislation as the process moves forward.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
